No. 21A_____
IN THE

Supreme Court of the United States
WHOLE WOMAN’S HEALTH; ALAMO CITY SURGERY CENTER, P.L.L.C. D/B/A ALAMO
WOMEN’S REPRODUCTIVE SERVICES; BROOKSIDE WOMEN’S MEDICAL CENTER, P.A.
D/B/A BROOKSIDE WOMEN’S HEALTH CENTER AND AUSTIN WOMEN’S HEALTH CENTER;
HOUSTON WOMEN’S CLINIC; HOUSTON WOMEN’S REPRODUCTIVE SERVICES; PLANNED
PARENTHOOD CENTER FOR CHOICE; PLANNED PARENTHOOD OF GREATER TEXAS
SURGICAL HEALTH SERVICES; PLANNED PARENTHOOD SOUTH TEXAS SURGICAL
CENTER; SOUTHWESTERN WOMEN’S SURGERY CENTER; WHOLE WOMEN’S HEALTH
ALLIANCE; ALLISON GILBERT, M.D.; BHAVIK KUMAR, M.D.; THE AFIYA CENTER;
FRONTERA FUND; FUND TEXAS CHOICE; JANE’S DUE PROCESS; LILITH FUND,
INCORPORATED; NORTH TEXAS EQUAL ACCESS FUND; REVEREND ERIKA FORBES;
REVEREND DANIEL KANTER; MARVA SADLER,
Applicants,

v.

JUDGE AUSTIN REEVE JACKSON; PENNY CLARKSTON; MARK LEE DICKSON; STEPHEN
BRINT CARLTON; KATHERINE A. THOMAS; CECILE ERWIN YOUNG; ALLISON
VORDENBAUMEN BENZ; KEN PAXTON,

Respondents.

EMERGENCY APPLICATION TO JUSTICE ALITO FOR WRIT OF INJUNCTION AND,
IN THE ALTERNATIVE, TO VACATE STAYS OF DISTRICT COURT PROCEEDINGS

MARC HEARRON

JULIE A. MURRAY
RICHARD MUNIZ
Center for Reproductive Rights
Planned Parenthood Federation of
1634 Eye St., NW, Suite 600
America
Washington, DC 20006
1110 Vermont Ave., NW, Suite 300
(202) 524-5539
Washington, DC 20005
mhearron@reprorights.org
(202) 973-4800
Attorney for Whole Woman’s Health, Whole
julie.murray@ppfa.org
Woman’s Health Alliance, Marva Sadler,
richard.muniz@ppfa.org
Southwestern Women’s Surgery Center,

Counsel of Record

Allison Gilbert, M.D., Brookside Women’s
Medical Center PA d/b/a Brookside
Women’s Health Center and Austin
Women’s Health Center, Alamo City
Surgery Center PLLC d/b/a Alamo
Women’s Reproductive Services, Houston
Women’s Reproductive Services, Reverend
Daniel Kanter, and Reverend Erika Forbes

Attorneys for Planned Parenthood of
Greater Texas Surgical Health
Services, Planned Parenthood South
Texas Surgical Center, Planned
Parenthood Center for Choice, and
Dr. Bhavik Kumar

ADDITIONAL COUNSEL AND REPRESENTATION INFORMATION ON NEXT PAGE

MOLLY DUANE
Center for Reproductive Rights
199 Water St., 22nd Floor
New York, NY 10038
(917) 637-3631
mduane@reprorights.org
JAMIE A. LEVITT
J. ALEXANDER LAWRENCE
Morrison & Foerster, LLP
250 W. 55th Street
New York, NY 10019
(212) 468-8000
jlevitt@mofo.com
alawrence@mofo.com

JULIA KAYE
BRIGITTE AMIRI
CHELSEA TEJADA
American Civil Liberties Union
Foundation
125 Broad Street, 18th Floor
New York, NY 10004
(212) 549-2633
jkaye@aclu.org
bamiri@aclu.org
ctejada@aclu.org

LORIE CHAITEN
American Civil Liberties Union
Foundation
1640 North Sedgwick Street
Attorneys for Whole Woman’s Health,
Chicago, IL 60614
Whole Woman’s Health Alliance, Marva (212) 549-2633
Sadler, Southwestern Women’s Surgery rfp_lc@aclu.org

Center, Allison Gilbert, M.D., Brookside
Women’s Medical Center PA d/b/a
Brookside Women’s Health Center and
Austin Women’s Health Center, Alamo
City Surgery Center PLLC d/b/a Alamo
Women’s Reproductive Services,
Houston Women’s Reproductive
Services, Reverend Daniel Kanter, and
Reverend Erika Forbes
RUPALI SHARMA
Lawyering Project
113 Bonnybriar Rd.
Portland, ME 04106
(908) 930-6445
rsharma@lawyeringproject.org
STEPHANIE TOTI
Lawyering Project
41 Schermerhorn St., No. 1056
Brooklyn, NY 11201
(646) 490-1083
stoti@lawyeringproject.org

Attorneys for The Afiya Center,
Frontera Fund, Fund Texas Choice,
Jane’s Due Process, Lilith Fund for
Reproductive Equity, North Texas
Equal Access Fund

ADRIANA PINON
DAVID DONATTI
ANDRE SEGURA
ACLU Foundation of Texas, Inc.
5225 Katy Freeway, Suite 350
Houston, TX 77007
(713) 942-8146
apinon@aclutx.org
ddonatti@aclutx.org
asegura@aclutx.org

Attorneys for Houston Women’s Clinic

TABLE OF CONTENTS
TABLE OF AUTHORITIES .......................................................................................... ii
APPLICATION .............................................................................................................. 1
DECISIONS BELOW .................................................................................................... 5
JURISDICTION............................................................................................................. 5
STATEMENT ................................................................................................................. 5
A.

Senate Bill 8 ............................................................................................. 5

B.

The District Court Proceedings ............................................................... 9

C.

The Fifth Circuit’s Mandamus Order .................................................... 11

D.

Further Proceedings ............................................................................... 12

ARGUMENT ................................................................................................................ 14
I.

II.

ISSUANCE OF AN INJUNCTION IS NECESSARY TO MAINTAIN CLEARLY
ESTABLISHED LEGAL RIGHTS AND TO PREVENT IRREPARABLE HARM ................. 14
A.

This Court’s Precedent Indisputably Precludes Enforcement of
S.B. 8 ....................................................................................................... 17

B.

Exigent Circumstances Warrant Immediate and Extraordinary
Relief ....................................................................................................... 22

C.

Absent an Emergency Injunction, Applicants Will Face
Irreparable Harm ................................................................................... 24

D.

Injunctive Relief Is Proper as to All Respondents ................................ 25

E.

An Injunction Is Appropriate in Aid of the Court’s Jurisdiction .......... 27

IN THE ALTERNATIVE, VACATUR OF THE LOWER COURTS’ STAYS IS
WARRANTED SO THAT THE DISTRICT COURT CAN RULE ON A MOTION FOR
PRELIMINARY RELIEF ADEQUATE TO MAINTAIN THE STATUS QUO ..................... 27
A.

The Stays Will Seriously and Irreparably Harm the Rights of
Applicants and Pregnant Texans .......................................................... 28

B.

In Refusing to Lift the Stays, the Fifth Circuit Erred in Its
Application of Accepted Standards ........................................................ 29

-i-

C.
III.

The Court Would Likely Grant Review of Judgment in This Case...... 33

IN THE ALTERNATIVE, VACATUR OF THE DISTRICT COURT’S ORDER
DENYING THE MOTIONS TO DISMISS IS PROPER TO PERMIT THAT COURT TO
RULE ON APPLICANTS’ REQUEST FOR INJUNCTIVE RELIEF AND CLASS
CERTIFICATION IN THE FIRST INSTANCE ............................................................. 36

CONCLUSION............................................................................................................. 37
RULE 20.3(a) STATEMENT ....................................................................................... 40
CORPORATE DISCLOSURE STATEMENT ............................................................. 40
APPENDIX .............................................................................................................App.1
CERTIFICATE OF SERVICE

- ii -

TABLE OF AUTHORITIES

Page(s)
Cases

Ala. Ass’n of Realtors v. Dep’t of Health & Hum. Servs., 141 S. Ct. 2320

(2021) (per curiam) ....................................................................................... 28

Babbitt v. United Farm Workers Nat’l Union, 442 U.S. 289 (1979) ............... 20
Carson v. Am. Brands, Inc., 450 U.S. 79 (1981) ............................................... 33
Coleman v. Paccar Inc., 424 U.S. 1301 (1976) (Rehnquist, J., in

chambers) ...................................................................................................... 28

Dobbs v. Jackson Women’s Health Organization, No. 19-1392, 2021 WL

1951792 (U.S. May 17, 2021) ....................................................................... 34

Doe v. Bolton, 410 U.S. 179 (1973) ................................................................... 20
Edwards v. Beck, 786 F.3d 1113 (8th Cir. 2015) (per curiam) ...........................6
Elrod v. Burns, 427 U.S. 347 (1976) ................................................................. 24
Freedom from Rel. Found. v. Mack, 4 F.4th 306 (5th Cir. 2021) .................... 35
Green v. Mansour, 474 U.S. 64 (1985) .............................................................. 35
Green Valley Special Util. Dist. v. City of Schertz, Tex., 969 F.3d 460

(5th Cir. 2020) (en banc) ............................................................................... 35

Griggs v. Provident Consumer Disc. Co., 459 U.S. 56 (1982) (per

curiam)........................................................................................................... 29

Guam Soc’y of Obstetricians & Gynecologists v. Ada, 962 F.2d 1366 (9th

Cir. 1992) ..........................................................................................................7

GuideOne Specialty Mut. Ins. Co. v. Missionary Church of Disciples of
Jesus Christ, 687 F.3d 676 (5th Cir. 2012).................................................. 37
Hamer v. Neighborhood Hous. Servs. of Chi., 138 S. Ct. 13 (2017) ................ 30
Haw. Hous. Auth. v. Midkiff, 463 U.S. 1323 (1983) (Rehnquist, J., in

chambers) ...................................................................................................... 30
- iii -

Hollingsworth v. Perry, 558 U.S. 183 (2010).............................................. 19, 33
Isaacson v. Horne, 716 F.3d 1213 (9th Cir. 2013) ...............................................7
Jane L. v. Bangerter, 102 F.3d 1112 (10th Cir. 1996) ........................................7
June Med. Servs. L.L.C. v. Gee, 140 S. Ct. 35 (2019) ...................................... 35
June Med. Servs. L.L.C. v. Russo, 140 S. Ct. 2103 (2020) (plurality

opinion) ...................................................................................................... 6, 17

Little Sisters of the Poor Home for the Aged v. Sebelius, 571 U.S. 1171

(2014) ....................................................................................................... 15, 18

Lucas v. Townsend, 486 U.S. 1301 (1988) (Kennedy, J.,

in chambers) ................................................................................ 15, 18, 19, 25

Marbury v. Madison, 5 U.S. 137 (1803) ............................................................ 36
McCormack v. Herzog, 788 F.3d 1017 (9th Cir. 2015) ........................................6
MedImmune, Inc. v. Genentech, Inc., 549 U.S. 118 (2007) ............................. 20
Mireles v. Waco, 502 U.S. 9 ............................................................................... 34
Mitchum v. Foster 407 U.S. 225 ....................................................................... 34
MKB Mgmt. Corp. v. Stenehjem, 795 F.3d 768 (8th Cir. 2015) .........................6
Morris v. Livingston, 739 F.3d 740 (5th Cir. 2014) ......................................... 35

N.Y. State Rifle & Pistol Ass’n v. N.Y.C., 139 S. Ct. 939 (2019) ..................... 36
Nken v. Holder, 556 U.S. 418 (2009) .................................................... 27, 30, 32
Off. of Pers. Mgmt. v. Am. Fed’n of Gov’t Emps., 473 U.S. 1301 (1985) ......... 28
Ohio Citizens for Responsible Energy, Inc. v. Nuclear Regul. Comm’n.,

479 U.S. 1312 (1986) (Scalia, J., in chambers) ................................ 14, 23, 30

Osterneck v. Ernst & Whinney, 489 U.S. 169 (1989) ...................................... 25
P.R. Aqueduct & Sewer Auth. v. Metcalf & Eddy, Inc., 506 U.S. 139

(1993) ......................................................................................................... 5, 32

- iv -

Planned Parenthood of Greater Tex. Surgical Health Servs. v. Abbott,

134 S. Ct. 506 (2013) (Scalia, J., concurring) .............................................. 28

Planned Parenthood of Se. Pa. v. Casey, 505 U.S. 833 (1992) .............. 6, 17, 24
Pulliam v. Allen, 466 U.S. 522 (1984) ......................................................... 26, 35
Roe v. Wade, 410 U.S. 113 (1973) ........................................................... 1, 16, 27
Roman Cath. Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63 (2020) (per

curiam)......................................................................................... 14, 15, 18, 24

Ross v. Blake, 578 U.S. 1174 (2016) ........................................................... 26, 27
Schindler Elevator Corp. v. United States ex rel. Kirk, 563 U.S. 401

(2011) ............................................................................................................. 26

Sojourner T v. Edwards, 974 F.2d 27 (5th Cir. 1992) .........................................7
Spokeo, Inc. v. Robins, 136 S. Ct. 1540 (2016) ................................................. 33
Susan B. Anthony List v. Driehaus, 573 U.S. 149 (2014) ......................... 20, 21
Swint v. Chambers Cnty. Comm’n, 514 U.S. 35 (1995) ................................... 33
Terry v. Adams, 345 U.S. 461 (1953) ...................................................................3
United States v. Claiborne, 727 F.2d 842 (9th Cir. 1984) ............................... 31
United States v. Leppo, 634 F.2d 101 (3d Cir. 1980) ....................................... 31
United States v. Rodgers, 101 F.3d 247 (2d Cir. 1996) ................................... 31
United States v. Rodriguez-Rosado, 909 F.3d 472 (1st Cir. 2018) .................. 31
United States v. United Mine Workers of Am., 330 U.S. 258 (1947).............. 31
Va. Off. for Prot. & Advocacy v. Stewart, 563 U.S. 247 (2011) ....................... 35
Verizon Md., Inc. v. Pub. Serv. Comm’n of Md., 535 U.S. 635 (2002)....... 20, 35
W. Airlines, Inc. v. Int’l Brotherhood of Teamsters, 480 U.S. 1301

(1987) (O’Connor, J., in chambers) .............................................................. 28

Wheaton Coll. v. Burwell, 134 S. Ct. 2806 (2014) ...................................... 15, 18

-v-

Whole Woman’s Health v. Hellerstedt, 136 S. Ct. 2292 (2016)................. 17, 38
Will v. Mich. Dep’t of State Police, 491 U.S. 58 (1989) .................................... 35
Women’s Med. Pro. Corp. v. Voinovich, 130 F.3d 187 (6th Cir. 1997) ...............7
Ex parte Young, 209 U.S. 123 (1908).......................................................... 20, 35
Statutes
5 U.S.C. App. 4 § 103(c) ..................................................................................... 25
5 U.S.C. App. 4 § 109(8), (10) ............................................................................ 25
18 U.S.C. § 3041 ................................................................................................. 25
18 U.S.C. § 3156(a)(1) ........................................................................................ 25
18 U.S.C. § 3172(1) ............................................................................................ 25
28 U.S.C. § 480 ................................................................................................... 25
28 U.S.C. § 482 ................................................................................................... 25
28 U.S.C. § 1254 ....................................................................................................5
28 U.S.C. § 1651 ....................................................................................... 5, 14, 27
28 U.S.C. § 2106 ................................................................................................. 37
42 U.S.C. § 1983 ..................................................................................... 25, 26, 35
Tex. Civ. Prac. & Rem. Code § 30.022(a)–(b) ......................................................8
Tex. Health & Safety Code § 171.204(a)–(b) .......................................................5
Tex. Health & Safety Code § 171.208 ..................................................................2
Tex. Occ. Code § 164.055(a) ..................................................................................9
Other Authorities
Black’s Law Dictionary 1768 (10th ed. 2014) ................................................... 26
16A Charles Alan Wright, Arthur R. Miller, & Catherine T.
Struve, Federal Practice & Procedure § 3949.1 (5th ed.) ........................... 31
- vi -

Fed. R. Bankr. P. 9001(3), (4) ............................................................................ 25
Fed. R. Crim. P. 1(b)(4)(10) ............................................................................... 25
Fed. R. Civ. P. 23(b)(1)(A) .................................................................................. 10

- vii -

TO THE HONORABLE SAMUEL A. ALITO, JR., ASSOCIATE JUSTICE OF THE SUPREME COURT
AND CIRCUIT JUSTICE FOR THE FIFTH CIRCUIT:
Nearly fifty years ago, this Court held that Texas could not ban abortion prior
to viability. Roe v. Wade, 410 U.S. 113 (1973). Yet, absent intervention from this
Court, in less than two days, on Wednesday, September 1, Texas will do precisely
that. This new Texas law will ban abortion starting at six weeks of pregnancy, which
is indisputably prior to viability and before many people even know they are
pregnant. Senate Bill 8, 87th Leg., Reg. Sess. (Tex. 2021) (“S.B. 8” or the “Act”). As
such, it unquestionably contravenes this Court’s precedent, including Roe, which the
State of Texas concedes is binding. Indeed, as an amicus in Dobbs v. Jackson Women’s

Health Organization, No. 19-1392 (pet. for cert. granted May 17, 2021), Texas asked
this Court to overrule its precedent in order to uphold the fifteen-week abortion ban
at issue in that case. See, e.g., Br. for the States of Texas, et al. as Amici Curiae in
Supp. of Pet’rs, Dobbs v. Jackson Women’s Health Org., No. 19-1392, 2021 WL
3374343 (U.S. July 29, 2021).
Despite this Court’s precedent, and the clear harm that will occur in less than
two days, the U.S. Court of Appeals for the Fifth Circuit entered an indefinite
administrative stay of all district-court proceedings in Applicants’ challenge to S.B.
8; vacated the preliminary-injunction hearing that had been scheduled for August 30;
denied Applicants’ motion to expedite Respondents’ interlocutory appeal; and denied
an injunction pending appeal. Absent relief from this Court, the court of appeals’
orders will prevent the district court from ruling on Applicants’ request for emergency
injunctive relief in a meaningful timeframe, allowing Texas to ban abortion beginning

at six weeks of pregnancy before this Court considers the question presented in

Jackson Women’s Health Organization.
If permitted to take effect, S.B. 8 would immediately and catastrophically
reduce abortion access in Texas, barring care for at least 85% of Texas abortion
patients (those who are six weeks pregnant or greater) and likely forcing many
abortion clinics ultimately to close. Patients who can scrape together resources will
be forced to attempt to leave the state to obtain an abortion, and many will be delayed
until later in pregnancy. The remaining Texans who need an abortion will be forced
to remain pregnant against their will or to attempt to end their pregnancies without
medical supervision.
This obvious and immediate harm is precisely S.B. 8’s intent. In an attempt to
insulate this patently unconstitutional law from federal judicial review prior to
enforcement, the Texas Legislature barred government officials—such as local
prosecutors and the health department—from directly enforcing S.B. 8’s terms.
Instead, the Act deputizes private citizens to enforce the law, allowing “[a]ny person”
who is not a government official to bring a civil lawsuit against anyone who provides
an abortion in violation of the Act, “aids or abets” such an abortion, or merely intends
to do so. S.B. 8 § 3 (adding Tex. Health & Safety Code § 171.208). These civil suits are
permitted regardless of whether the person suing has any connection to the abortion,
and a successful S.B. 8 claimant is entitled to at least $10,000 in “statutory damages”
per abortion, plus mandated injunctions preventing the person sued from providing
or assisting future abortions, and costs and attorney’s fees. Ibid.

-2-

At bottom, the question in this case is whether—by outsourcing to private
individuals the authority to enforce an unconstitutional prohibition—Texas can adopt
a law that allows it to “do precisely that which the [Constitution] forbids.” Terry v.

Adams, 345 U.S. 461, 469–70 (1953) (striking down a Texas law attempting to
insulate white-only political primaries from federal court review). The answer to that
question must be no. This Court should grant relief to block Texas’s flagrant defiance
of this Court’s clearly established constitutional precedent. In so doing, it should
make clear that the Fifth Circuit’s extraordinary decision to administratively stay all
proceedings in the district court just days before that court was set to rule on
Applicants’ fully briefed preliminary injunction motion was an abuse of discretion, as
was its decision to deny an injunction pending appeal and Applicants’ request to
expedite that appeal. Accordingly, Applicants ask that the Court issue an injunction
preventing enforcement of S.B. 8 pending appeal and disposition of a petition for
certiorari to this Court.
In the alternative, Applicants urge the Court to provide other relief to ensure
that the district court may rule on their pending motions for a temporary restraining
order/preliminary injunction and class certification before an irreparable deprivation
of constitutional rights occurs. Specifically, Applicants request that the Court
(1) vacate the Fifth Circuit’s administrative stay of the district-court proceedings as
to Respondent Mark Lee Dickson, who is not a government official, has never claimed
sovereign immunity, and has no right to an immediate interlocutory appeal from an
order denying sovereign immunity, and (2) vacate the district court’s stay of its own

-3-

proceedings as to the remaining Respondents, who are all government officials with
specific authority to enforce compliance with S.B. 8, because the district court
incorrectly concluded that the notice of appeal necessarily divested it of jurisdiction
to issue an order maintaining the status quo and preventing irreparable harm. In
lieu of this course, the Court could vacate the district-court order denying the motions
to dismiss and remand this case to the Fifth Circuit with instructions to dismiss the
appeal from that order as moot. Finally, if the Court needs additional time to consider
this Application, it should enter appropriate interim relief.
While the relief requested will maintain the status quo ante and protect the
constitutional rights of countless Texans, Respondents will suffer no harm from an
injunction pending appeal or vacatur of the stays. One of the Respondents is a private
individual sued by Applicants based on his threats to enforce S.B. 8 against them. He
has no colorable claim to sovereign immunity or other ground for interlocutory
appeal. The remaining Respondents are a county clerk and a state judge sued in their
official capacities and on behalf of putative defendant classes of similarly situated
clerks and judges, who are integral to S.B. 8’s private enforcement scheme, as well as
state agency officials who have authority to enforce collateral penalties against
Applicants for violating S.B. 8. The district court properly rejected their assertions of
sovereign immunity. In any event, given that Applicants’ motions for class
certification and preliminary injunction require no further briefing from Respondents
in the district court, delaying their opportunity to seek appellate review by mere days
while the district court considers those motions would impose no burden on them.

-4-

DECISIONS BELOW
The Fifth Circuit’s order denying Applicants’ emergency motion for an
injunction pending appeal and emergency motion to vacate the stays of the district
court’s proceedings, App.1–2, is unreported. The Fifth Circuit’s order granting an
administrative stay of the district court proceedings and denying Applicants’
emergency motion to expedite the appeal, App.4–5, is unreported. The district court’s
order granting in part and denying in part the motion to stay, App.6–7, is unreported.
The district court’s order denying the motions to dismiss, App.8–58, is available at
2021 WL 3821062.
JURISDICTION
The district court denied Respondents’ motions to dismiss on August 25, 2021.
Respondents filed a notice of appeal the same day. See P.R. Aqueduct & Sewer Auth.

v. Metcalf & Eddy, Inc., 506 U.S. 139 (1993). Respondents’ appeal is pending in the
Fifth Circuit. This Court’s jurisdiction is invoked under 28 U.S.C. §§ 1651, 1254.
STATEMENT
A.

Senate Bill 8

S.B. 8 provides that “a physician may not knowingly perform or induce an
abortion . . . if the physician detect[s] a fetal heartbeat,” a term that the Act defines
to include even embryonic cardiac activity that appears at approximately six weeks
in pregnancy. S.B. 8 § 3 (adding Tex. Health & Safety Code § 171.204(a)–(b)); 1

Hereinafter, citations to S.B. 8 § 3 are to the newly added provisions of the
Texas Health & Safety Code.
1

-5-

App.10. The Act also makes it unlawful for any person to “aid[] or abet[]” an abortion
prohibited by the law, including by helping to pay for a prohibited abortion, or even
merely to intend to provide or assist with a prohibited abortion. S.B. 8 § 171.208(a)(2),
(b)(1); App.10. Six weeks is so early in pregnancy that many patients do not yet realize
they are pregnant, App.91, 157, and it is indisputably prior to viability, App.90–91, a
point in pregnancy at which the State may not prohibit a patient from deciding
whether to end her pregnancy, Planned Parenthood of Se. Pa. v. Casey, 505 U.S. 833,
879 (1992); June Med. Servs. L.L.C. v. Russo, 140 S. Ct. 2103, 2120 (2020) (plurality
opinion); id. at 2135 (Roberts, C.J., concurring). If permitted to take effect, S.B. 8
would immediately and irreparably decimate abortion access in Texas, barring care
for at least 85% of Texas abortion patients (those who are six weeks pregnant or
greater) and likely forcing many abortion clinics to ultimately close. App.89, 105, 115–
16, 124–24, 131, 148, 155, 158, 172, 178. Patients who can scrape together resources
will be forced out of state to obtain abortion care, by one estimate increasing the
average one-way drive to a health center by 20 times, from 12 miles to 248—almost
500 miles round trip. 2
In this respect, S.B. 8 is like other unconstitutional laws that states have
enacted in recent years to ban abortion before viability. Every single federal appellate

Elizabeth Nash et al., Impact of Texas’ Abortion Ban: A 20-Fold Increase in
Driving Distance to Get an Abortion, Guttmacher Inst. (Aug. 4, 2021), https://www.
guttmacher.org/article/2021/08/impact-texas-abortion-ban-20-fold-increase-drivingdistance-get-abortion.
2

-6-

court to consider a law prohibiting abortion before viability, with or without
exceptions, has struck it down as a violation of the Fourteenth Amendment. 3
But S.B. 8 differs from those bans in that it bars executive-branch officials—
such as local prosecutors or the health department—from enforcing it directly. S.B. 8
§§ 171.207(a), 171.208(a). Instead, S.B. 8 may be enforced only by state courts via
civil-enforcement actions that “[a]ny person” can bring against anyone alleged to have
violated the ban by performing or assisting with a prohibited abortion, or by intending
to do so. Id. § 171.208(a). When a “violation” of the ban occurs, S.B. 8 requires state
courts to issue an injunction to prevent further prohibited abortions from being
performed, aided, or abetted. Id. § 171.208(b)(1). In addition, courts are required to
award the person who initiated the enforcement action a minimum (there is no
statutory maximum) of $10,000 per abortion, payable by the person who violated the
Act. Id. § 171.208(b)(2).
At every turn, S.B. 8 attempts to replace normal civil-litigation rules and
clearly established federal constitutional rules with distorted versions designed to
maximize the abusive and harassing nature of the lawsuits and to make them
impossible to fairly defend against. For example, S.B. 8 provides that persons sued
under the Act could be forced into any of Texas’s 254 counties to defend themselves,

See, e.g., MKB Mgmt. Corp. v. Stenehjem, 795 F.3d 768, 773 (8th Cir. 2015);
McCormack v. Herzog, 788 F.3d 1017, 1029 (9th Cir. 2015); Edwards v. Beck, 786
F.3d 1113, 1117 (8th Cir. 2015) (per curiam); Isaacson v. Horne, 716 F.3d 1213, 1217
(9th Cir. 2013); Women’s Med. Pro. Corp. v. Voinovich, 130 F.3d 187, 201 (6th Cir.
1997); Jane L. v. Bangerter, 102 F.3d 1112, 1114, 1117–18 (10th Cir. 1996); Sojourner
T v. Edwards, 974 F.2d 27, 29, 31 (5th Cir. 1992); Guam Soc’y of Obstetricians &
Gynecologists v. Ada, 962 F.2d 1366, 1368–69, 1373 & n.8 (9th Cir. 1992).
3

-7-

and it prohibits transfer of the cases to any other venue without the parties’ joint
agreement. Id. § 171.210(b). S.B. 8 also states that a person sued under the Act may
not point to the fact that the claimant already lost an S.B. 8 lawsuit against someone
else on equally applicable grounds or that a court order permitted an abortion
provider’s conduct at the time when it occurred, if that court order was later
overruled. Id. § 171.208(e)(3)–(5). And S.B. 8 imposes a draconian fee-shifting
provision providing that, if an abortion provider or other person challenges S.B. 8
seeking declaratory or injunctive relief against its enforcement, that person and all
of their lawyers can be held jointly and severally liable for the opposing party’s
attorney’s fees and costs if any of these claims are dismissed for any reason. S.B. 8 §
4 (adding Tex. Civ. Prac. & Rem. Code § 30.022(a)–(b)).
As former Texas judges and legal scholars have observed, S.B. 8 “weaponizes
the judicial system by exempting the newly created cause of action from the normal
guardrails that protect Texans from abusive lawsuits and provide all litigants a fair
and efficient process in our state courts.” 4 As a result, even if abortion providers and
others sued in S.B. 8 lawsuits ultimately prevailed in them—as they should in every
case if only they could mount a fair defense—the threat of unlimited lawsuits against
them will prevent them from continuing to provide constitutionally protected health
care.

Letter from Texas attorneys to Dade Phelan, Speaker of the Tex. House of
Representatives (Apr. 28, 2021), available at https://npr.brightspotcdn.com/d5/51/
a2eac3664529a017ade7826f3a69/attorney-letter-in-opposition-to-hb-1515-sb-8-april28-2021-1.pdf.
4

-8-

B.

The District Court Proceedings

On July 13, 2021, Applicants, who are plaintiffs in the district court, filed this
case to challenge the Act’s constitutionality. They named as defendants those officials
whom the Texas Legislature made responsible for compelling compliance with S.B. 8:
a state judge (Judge Austin Reeve Jackson) and a court clerk (Penny Clarkston), each
on behalf of a putative defendant class of judges and clerks, respectively, who will be
conscripted into enforcing S.B. 8 through actions in the courts where they serve.
App.17. Applicants further named as a defendant Mark Lee Dickson, a private party
whom Plaintiffs reasonably expect to file suit against those who violate the Act.
App.18. Additionally, Applicants sued certain State licensing officials and the
Attorney General of Texas (the “State Agency Respondents”) because, although these
officials cannot directly enforce the Act’s ban on providing, aiding, or abetting
abortions, they are authorized and required to bring administrative and civilenforcement actions under other laws that are triggered by violations of S.B. 8.
App.17–18; S.B. 8 § 171.207(a); see also, e.g., Tex. Occ. Code § 164.055(a) (requiring
the Texas Medical Board to “take an appropriate disciplinary action against a
physician who violates . . . Chapter 171, Health and Safety Code”).
Applicants filed a motion for summary judgment on all claims the same day
they filed their lawsuit, roughly seven weeks before the Act’s effective date. They
supported their motion with 19 declarations, App.86–238, including declarations
from every abortion provider plaintiff, App. 86–188. The providers testified that it
would be impossible for them to continue to perform abortions after six weeks if S.B. 8
takes effect, in light of the extraordinary financial penalties and injunctions that S.B.
-9-

8 requires state-court judges to impose for any violation; the risk to their professional
licenses; and the severe costs and burdens of defending themselves in S.B. 8
enforcement actions across the state of Texas even if they might ultimately prevail.
App.94–95, 112, 115–16, 124, 131–32, 149, 158, 166, 172–73, 179, 185.
Applicants effected service quickly and, three days after filing suit and moving
for summary judgment, they moved to certify the defendant classes of clerks and
judges under Federal Rule of Civil Procedure 23(b)(1)(A). The district court
subsequently entered a scheduling order that would have ensured full briefing by
August 13.
All Respondents filed a motion to stay the district court proceedings beyond
resolution of the motions to dismiss, which the district court judge denied. App.8–9.
Respondents then filed their Rule 12(b)(1) motions to dismiss. The State Agency
Respondents and state judge argued that they were entitled to sovereign immunity.
App.22, 40. The county clerk claimed sovereign immunity solely by “adopting the
arguments of her co-Defendants without further elaboration.” App.40.
All government official Respondents, along with Respondent Dickson, also
argued that Applicants lacked Article III standing to bring their claims, although
their rationales diverged. In particular, Dickson contended that Applicants lacked
standing as to him because he had not credibly threatened to bring an S.B. 8
enforcement action against them, and Dickson submitted declarations in which he
attempted to distance himself from previous threats against Applicants, while
acknowledging that he has personal knowledge of “countless” individuals prepared to

- 10 -

sue Plaintiffs for any perceived violation as soon as S.B. 8 takes effect. App.53–54,
242–43. The government officials argued in the aggregate that Plaintiffs lacked
standing because they failed to plead an actual case or controversy, an imminent
injury-in-fact,

traceability,

or

redressability

and

that

prudential

standing

requirements were not met. App.27.
C.

The Fifth Circuit’s Mandamus Order

On August 7, before Applicants even had an opportunity to respond to the
motions to dismiss, Respondents Clarkston (the court clerk) and Dickson (the private
individual) filed a petition for a writ of mandamus asking the court of appeals to
“direct the district court to immediately dismiss the claims brought against Judge
Jackson and Ms. Clarkston,” on the ground that these officials were entitled to
sovereign immunity. In re: Penny Clarkston, No. 21-50708, Pet. for Writ of
Mandamus (5th Cir. Doc. No. 515969448) (“Mandamus Pet.”) at 24. Notably, Judge
Jackson and the other State Agency Respondents did not join the petition.
Respondents Clarkston and Dickson also sought a stay of the district-court
proceedings as to all Respondents, and argued that, if Applicants “need relief before
September 1[,] they should move for a preliminary injunction rather than forcing the
case to final judgment within seven weeks.” Id. at 5. Given the delay caused by
Respondents’ writ of mandamus request, Plaintiffs immediately filed a motion for a
temporary restraining order and preliminary injunction against all Respondents,
D. Ct. ECF No. 53, mirroring their previously filed motion for summary judgment.
The district court judge subsequently submitted a letter to the Fifth Circuit
panel in the mandamus action. He assured the court of appeals that he would rule on
- 11 -

Respondents’ jurisdictional defenses before resolving the merits of the case. App.239–
40. In light of Applicants’ filing of a preliminary injunction request, the judge also
told the Fifth Circuit that, absent further guidance from the court of appeals, he
would enter a new briefing schedule. That briefing schedule called first for completion
of briefing on the motions to dismiss, concurrent with briefing on the preliminaryinjunction request, and it provided for completion of class-certification briefing by late
August. He indicated he would hold a hearing on the preliminary-injunction motion
on August 30. The district court judge then entered a briefing schedule consistent
with what he had laid out in his letter to the Fifth Circuit.
On August 13, 2021, the court of appeals denied the mandamus petition,
stating:
We conclude that the essence of what petitioners request is
that this court alter the schedule established by the district
court for briefing. We interpret the district court’s
statement to be that an order on the motion to dismiss will
be issued no later than any order as to summary judgment.
We do not find in petitioners’ arguments a basis to grant
the extraordinary relief of a writ of mandamus simply to
direct the timing of briefing.
App.59.
D.

Further Proceedings

On remand, Respondent Clarkston subpoenaed eleven of the Applicants and
their staff members to testify at the preliminary-injunction hearing, D. Ct. ECF No.
72, which in turn led the district court to convert the proceeding to an evidentiary
hearing. Applicants made clear that they believed the case could be resolved without
an evidentiary hearing.

- 12 -

On August 25, 2021, the district court denied Respondents’ motions to dismiss
in a consolidated order. App.8. In a detailed opinion, the district court rejected
Respondents’ arguments concerning sovereign immunity, standing, and other Article
III issues. App.21–57. At that time, briefing on Applicants’ motion for a preliminary
injunction was complete, and Respondents had responded to Applicants’ motion for
defendant class certification. D. Ct. ECF No. 72, at 4–6.
Respondents appealed the denial of the motion to dismiss the same day it was
decided, and simultaneously filed a motion in the district court asking it to stay the
proceedings and vacate the preliminary-injunction hearing. Before the district court
ruled on that motion, all Respondents also filed on August 27 an emergency motion
in the Fifth Circuit to stay district-court proceedings pending appeal. 5th Cir. Doc.
No. 515997262. Shortly thereafter, the district court granted a stay of the proceedings
as to Respondents Jackson and Clarkston and the State Agency Respondents, based
on their argument that the interlocutory appeal on sovereign immunity divested the
court of jurisdiction, but it denied a stay as to Respondent Dickson and ordered the
preliminary injunction hearing to proceed as scheduled with respect to the claims
against the latter. App.6–7.
Later in the day, Plaintiffs filed an opposition to the Fifth Circuit motion to
stay, combined with a motion to dismiss Respondent Dickson’s appeal. 5th Cir. Doc.
No. 515998618. Plaintiffs also filed an emergency motion to expedite the appeal. 5th
Cir. Doc. No. 515997650.

- 13 -

That evening, the court of appeals entered a temporary administrative stay of
all district court proceedings, including the preliminary-injunction hearing. App.5.
Although Respondent Dickson had asked the court by letter to permit him to respond
by 12 p.m. on Sunday, the Fifth Circuit denied Applicants’ motion to expedite the
appeal and directed Respondent Dickson to file a combined response to Applicants’
motion to dismiss his appeal and reply to Applicants’ opposition to his emergency stay
motion by 9 a.m. on August 31, the day after the preliminary injunction hearing was
scheduled to take place and the day before S.B. 8 takes effect. App.5.
On August 29, 2021, Applicants filed emergency motions with the Fifth Circuit
asking that the court of appeals (1) issue an injunction pending appeal; (2) vacate its
administrative stay of the district-court proceedings as to Respondent Dickson; (3)
vacate the district court’s own stay of its proceedings as to the government official
Respondents; and (4) in the alternative to vacatur of the stays, vacate the underlying
district court order denying the motions to dismiss. Later that day, the Fifth Circuit
denied all of Applicants’ motions without explanation. App.2.
ARGUMENT
I.

ISSUANCE OF AN INJUNCTION IS NECESSARY TO MAINTAIN CLEARLY ESTABLISHED
LEGAL RIGHTS AND TO PREVENT IRREPARABLE HARM
The Circuit Justices of this Court have authority to issue injunctions under the

All Writs Act, 28 U.S.C. § 1651(a), when applicants’ claims “are likely to prevail,” the
denial of injunctive relief “would lead to irreparable injury,” and “granting relief
would not harm the public interest.” Roman Cath. Diocese of Brooklyn v. Cuomo, 141
S. Ct. 63, 65–66 (2020) (per curiam) (granting emergency injunctive relief to prevent

- 14 -

likely constitutional violations from state law); see also Ohio Citizens for Responsible

Energy, Inc. v. Nuclear Regul. Comm’n., 479 U.S. 1312, 1312 (1986) (Scalia, J., in
chambers) (injunctive relief under All Writs Act appropriate where the legal rights at
issue are “indisputably clear,” the circumstances are “critical and exigent,” and
injunctive relief is “necessary or appropriate in aid of the Court’s jurisdiction”
(citations and alterations omitted)).
An application for an injunction may be granted without serving “as an
expression of the Court’s views on the merits,” Little Sisters of the Poor Home for the

Aged v. Sebelius, 571 U.S. 1171, 1171 (2014) (mem.), to prevent enforcement of a
potentially unconstitutional statute. The Court has thus granted emergency
injunctions pending appeal when there is a “fair prospect” of reversal and a likelihood
of “irreparable harm . . . from the denial of equitable relief.” Lucas v. Townsend, 486
U.S. 1301, 1304 (1988) (Kennedy, J., in chambers); see also, e.g., Wheaton Coll. v.

Burwell, 134 S. Ct. 2806, 2807 (2014) (granting injunction enjoining enforcement of
challenged provisions of the Affordable Care Act “pending final disposition of
appellate review”); Roman Cath. Diocese, 141 S. Ct. at 66 (granting injunction
enjoining enforcement of executive order limiting attendance at religious services).
Applicants satisfy the standard for an emergency injunction. First, this appeal
presents an indisputably clear case for relief. The court of appeals has blocked the
district court from taking prompt action to enjoin enforcement of a law that violates
nearly fifty years of this Court’s precedent, and it has refused to expedite
consideration of the pending appeal—leaving the rights of Texas women to obtain a

- 15 -

legal abortion in jeopardy for months or more. In so doing, the court of appeals will
be the first in the nation to allow a pre-viability abortion ban to take effect—and it
will do so while the question whether all pre-viability prohibitions on elective
abortions are unconstitutional is currently pending before this Court in Dobbs v.

Jackson Women’s Health Organization, No. 19-1392. This Court’s intervention is
needed to protect this Court’s ability to meaningfully decide that question.
Second, Applicants’ request is both extraordinarily time-sensitive and solely
within this Court’s power to redress. In just two days, on Wednesday, September 1,
pregnant Texans will be prohibited from exercising fundamental rights consistently
protected by this Court. Yet, due to an unusual procedural posture below and the
Fifth Circuit’s refusal either to safeguard Texans’ constitutional rights itself or to
permit the district court to rule on Applicants’ fully briefed preliminary-injunction
motion, this Court’s injunctive powers under the All Writs Act are the last resort.
Third, the balance of equities weighs heavily in favor of maintaining the status
quo by enjoining S.B. 8, because irreparable harm will flow from the deprivation of
fundamental freedoms protected by the Constitution. In contrast, Respondents will
face no harm from maintaining the status quo while their appeal proceeds. Granting
an injunction would simply mean that abortion will be legal in Texas as it has been
since Roe v. Wade was decided nearly fifty years ago, subject to all of Texas’s preexisting abortion regulations other than S.B. 8’s outright six-week ban. This Court’s
longstanding precedent and the public interest cannot be served by allowing
enforcement of a constitutionally foreclosed statute.

- 16 -

Fourth and finally, injunctive relief is appropriate in aid of the Court’s
jurisdiction.

Given the short duration of pregnancy and the typical length of

appellate proceedings, the Court will lose the opportunity to provide meaningful relief
to Texas residents seeking abortion care on September 1 if it does not enter an
injunction now.
A.

This Court’s Precedent Indisputably Precludes Enforcement of S.B. 8

There is no dispute that S.B. 8 is facially unconstitutional under this Court’s
precedent. S.B. 8 bans abortion in Texas if there is detectable cardiac activity, S.B. 8
§ 171.204; see id. § 171.201(1), which occurs early in pregnancy and months prior to
viability, see supra pp. 5–7. An unbroken line of this Court’s precedents through the
last Term establishes that “[b]efore viability, the State’s interests are not strong
enough to support a prohibition of abortion.” Casey, 505 U.S. at 846; see also June

Med. Servs., L.L.C., 140 S. Ct. at 2154 (Alito, J., dissenting) (“Unless Casey is
reexamined . . . the test it adopted should remain the governing standard.”); Whole

Woman’s Health v. Hellerstedt, 136 S. Ct. 2292, 2343 (2016), as revised (June 27,
2016) (Alito, J., dissenting) (“Under our cases, petitioners must show that the
[statutory] requirements impose an ‘undue burden’ on women seeking abortions.”).
Here, the bill’s proponents do not even deny that it runs afoul of this Court’s
precedent. To the contrary, Texas has acknowledged that pre-viability bans cannot
survive this Court’s established precedents. Brief for the States of Texas, et al. as
Amici Curiae in Support of Petitioners, at 31–33, Dobbs v. Jackson Women’s Health
Org., No. 19-1392, 2021 WL 3374343, at *31–33 (U.S. July 29, 2021) (arguing that

- 17 -

the Supreme Court should overturn its precedent in order to uphold pre-viability
abortion bans).
This Court has recently granted injunctions where it has determined there
would otherwise be constitutional harm. Last Term, the Court granted an emergency
injunction to prevent constitutional injury from the restrictions on religious
gatherings imposed by New York’s COVID-19 executive orders. Roman Cath. Diocese,
141 S. Ct. at 65–67. In that case, this Court granted an “emergency application” for
“immediate relief” to prevent a state order curtailing in-person religious gatherings
from going into effect. Id. at 65–66. Recognizing that “[s]temming the spread of
COVID–19 is unquestionably a compelling interest,” id. at 67, the Court nonetheless
enjoined the executive order, finding it “a drastic measure” that risked interference
with constitutional rights, id. at 68. This Court granted similar injunctions with
respect to challenged provisions of the Affordable Care Act. See Wheaton Coll., 134
S. Ct. at 2807 (granting application enjoining enforcement of challenged provisions of
the Affordable Care Act to certain non-profits with religious affiliation pending
appellate review on the merits); Little Sisters of the Poor Home for the Aged, 571 U.S.
at 1171 (same).
The Court also has granted injunctions to prevent violation of federal law. In

Lucas, Justice Kennedy considered whether to enjoin a Georgia Board of Education
election that was about to proceed without preclearance from the Attorney General
pursuant to Section 5 of the Voting Rights Act. 486 U.S. at 1302. A panel of the court
of appeals had “declined to issue the injunction prayed for by the applicants,”

- 18 -

notwithstanding the lack of preclearance, and the applicants moved this Court for
emergency relief. Id. at 1304. Observing that the case presented “substantial[] . . .
federal questions” and that the lower court’s decision to allow the election to go
forward was “problematic under our precedents,” Justice Kennedy “concluded that
four Members of the Court would likely vote to note probable jurisdiction” and issued
an injunction. Id. at 1304–05.
Similarly, in Hollingsworth v. Perry, 558 U.S. 183 (2010), this Court acted on
a request to enjoin live streaming of proceedings over California’s Proposition 8
banning same-sex marriages. The district court had amended a rule prohibiting
video-streaming of the trial to allow for live broadcast without providing an
appropriate public notice and comment period as required by federal law, id. at 192–
93, but the Ninth Circuit failed to redress the potential violation due to procedural
and technical hurdles, see id. at 188–89. Noting the significance of the issue and the
potential violation of federal law, this Court intervened and granted a stay of the
district court’s order. Id. at 199.
Despite this Court’s precedent squarely foreclosing a six-week abortion ban,
Respondents argued below that the only way abortion providers and those who
provide practical and financial assistance to abortion patients can challenge this
flagrantly unconstitutional law is by violating it, subjecting themselves to what one
Respondent acknowledged were “ruinous” penalties that no “rational” abortion
provider would risk, App.242; and then, once they are haled into court to defend
themselves in enforcement proceedings, raise federal constitutional claims as

- 19 -

affirmative defenses, see, e.g., App.27, 37, 53–54; D. Ct. ECF No. 49 at 9. But as this
Court has explained, an “enforcement action is not a prerequisite to challenging the
law.” Susan B. Anthony List v. Driehaus, 573 U.S. 149, 158 (2014); see also

MedImmune, Inc. v. Genentech, Inc., 549 U.S. 118, 129 (2007) (that plaintiffs have
not yet “violate[d] the law . . . does not eliminate Article III jurisdiction”); Babbitt v.

United Farm Workers Nat’l Union, 442 U.S. 289, 298 (1979) (“It is not necessary that
the plaintiff first expose himself to actual arrest or prosecution to be entitled to
challenge the statute that he claims deters the exercise of his constitutional rights.”
(cleaned up)); Doe v. Bolton, 410 U.S. 179, 188 (1973) (“The physician-appellants . . .
should not be required to await and undergo a criminal prosecution as the sole means
of seeking relief.”). Moreover, being forced to defend potentially numerous lawsuits,
filed anywhere in the state, itself constitutes irreparable harm; indeed, even if
Applicants ultimately prevail in those lawsuits, they will never recover the time and
resources required to defend them, and the threat of those lawsuits will chill
Plaintiffs’ constitutionally protected conduct immediately if S.B. 8 takes effect. See

Perez v. Ledesma, 401 U.S. 82, 85 (1971); id. at 117–18 (Brennan, J., concurring in
part and dissenting in part); Dombrowski v. Pfister, 380 U.S. 479 (1965).
Furthermore,

notwithstanding

the

government-official

Respondents’

assertions of sovereign immunity, this challenge falls squarely within the Ex parte

Young, 209 U.S. 123 (1908), doctrine, which involves a “straightforward inquiry into
whether [the] complaint alleges an ongoing violation of federal law and seeks relief
properly characterized as prospective.” Verizon Md., Inc. v. Pub. Serv. Comm’n of Md.,

- 20 -

535 U.S. 635, 645 (2002) (citation omitted). Here, Applicants allege that enforcing
S.B. 8 would be an ongoing violation of federal law, and they seek solely prospective
equitable relief blocking such enforcement. App.38, 51. Applicants have also named
as defendants the Attorney General of Texas, who is the State’s chief law-enforcement
officer, as well as the government officials most immediately connected to S.B. 8’s
private-enforcement mechanism: (1) a putative defendant class of clerks, who will
docket S.B. 8 petitions for enforcement and issue summonses compelling those sued
to appear on pain of default judgment, and (2) a putative defendant class of judges,
who will oversee enforcement actions and issue S.B. 8’s mandatory penalties.
Additionally, Applicants named state agency heads who retain authority to enforce
other state laws against Applicants premised on violations of S.B. 8. Applicants have
also named Respondent Dickson, a private individual who has threatened
enforcement actions under S.B. 8 and as to whom no conceivable sovereign immunity
defense applies.
Further, as the district court aptly concluded, App.27–33, 42–51, 53–57,
Applicants readily satisfy the requirements for standing. First, Applicants have an
imminent injury because, as in Susan B. Anthony List, the challenged statute allows
“[a]ny person” to “file a complaint” “alleging a violation” of the statute, meaning that
“there is a real risk of complaints from, for example, political opponents.” 573 U.S. at
152, 164; see S.B. 8 § 171.208(a). Second, the Respondents will each contribute to
Applicants’ harm by (1) initiating S.B. 8’s direct enforcement actions (private
Respondent Dickson), (2) opening the enforcement actions in the dockets and issuing

- 21 -

the summonses that compel people sued under S.B. 8 to respond (clerks), (3) issuing
the penalties mandated by S.B. 8 (judges), or (4) indirectly enforcing S.B. 8 through
other laws governing the state licenses or professional practice of Applicants and
their staff (agency heads). App.17–18, 23–24, 27–30, 44–47, 53–61. And third,
equitable relief would redress Plaintiffs’ harm by blocking S.B. 8’s enforcement.
Accordingly, the district court correctly held that neither Article III jurisdiction
nor sovereign immunity bars declaratory and injunctive relief to prevent enforcement
of a law that is in clear violation of this Court’s precedent.
B.

Exigent Circumstances Warrant Immediate and Extraordinary Relief

Notwithstanding the clear conflict between S.B. 8 and Supreme Court
precedent, and the lack of merit to any of Respondents’ immunity or standing
arguments, the proceedings below have left Applicants no avenue other than to seek
the Circuit Justice’s urgent intervention. In short, recent events in the district court
and the Fifth Circuit have ground Applicants’ efforts to obtain relief to a halt, and
without an emergency injunction it is likely that a six-week ban clearly foreclosed by
precedent will take effect on Wednesday, September 1 to the irreparable harm of the
recognized constitutional rights of Texans.
Applicants brought this case nearly seven weeks ago, seeking a declaration
“that S.B. 8 is unconstitutional and invalid” and that the Respondents may not
burden the constitutional rights of Applicants and their patients. D. Ct. ECF No. 19,
at 49. As discussed, Applicants also moved for a preliminary injunction to maintain
the status quo among the parties prior to the entry of final judgment. D. Ct. ECF No.
53. The parties completed briefing on the preliminary injunction, and the district
- 22 -

court set a hearing on the motion for August 30—two days before the law was set to
take effect. But after the district court denied Respondents’ motions to dismiss,
Defendants immediately appealed to the Fifth Circuit. On Respondents’ motion, the
district court entered a stay pending appeal as to the proceedings against Judge
Jackson, Ms. Clarkston, and the State Agency Respondents but denied the stay as to
Dickson. App.6–7. The Fifth Circuit then entered a blanket administrative stay—of
indefinite duration—for all district-court proceedings, including the preliminaryinjunction hearing, and denied Applicants’ motion to expedite the appeal. App.4–5.
Subsequently, the Fifth Circuit denied without explanation Applicants’ motion to
vacate the stays and issue an injunction pending appeal. App.1–2. Accordingly,
Applicants have been functionally deprived of an opportunity to obtain an injunction
of S.B. 8 prior to its effective date.
The substantive result is unacceptable: absent an injunction, Applicants and
thousands of other Texans will be stripped of their fundamental constitutional rights
on Wednesday without ever receiving a decision on their fully briefed request for a
preliminary injunction. Unlike emergency motions before this Court seeking “judicial
intervention that has been withheld by lower courts,” Ohio Citizens for Responsible

Energy, Inc., 479 U.S. at 1312, Applicants here have not even had their full day in
court and yet will be irreparably deprived of their recognized constitutional rights
without this Court’s intervention.

- 23 -

C.

Absent an Emergency Injunction, Applicants Will Face Irreparable
Harm

Without an injunction, a ban on abortion months before viability will take
effect across Texas on September 1 in flagrant violation of longstanding precedent.

See Casey, 505 U.S. at 879 (“[A] State may not prohibit any woman from making the
ultimate decision to terminate her pregnancy before viability.”). “The loss of
[constitutional] freedoms . . . unquestionably constitutes irreparable injury.” Elrod v.

Burns, 427 U.S. 347, 373 (1976) (threatened violation of First Amendment rights);
11A Charles Alan Wright, Arthur R. Miller, & Mary Kay Kane Federal Practice &
Procedure § 2948.1 (3d ed. 2013) (“When an alleged deprivation of a constitutional
right is involved, . . . most courts hold that no further showing of irreparable injury
is necessary.”). This Court has recognized as much when considering emergency
injunctive relief. Roman Cath. Diocese, 141 S. Ct. at 67 (violations of constitutional
protections for “even minimal periods of time” will cause irreparable harm (citing

Elrod, 427 U.S. at 373)). Here, the Fifth Circuit has left Applicants and Texans in
limbo. There is no telling when the Fifth Circuit will decide Applicants’ motion to
dismiss Respondent Dickson’s improper interlocutory appeal, much less resolve the
other Respondents’ collateral-order appeal on sovereign immunity. But beginning in
less than two days, Texans will be without most access to time-sensitive abortion care
for months or longer as the appellate process runs its course. Moreover, Respondents
have not identified any cognizable harm to the public interest that would occur if the
status quo of lawful pre-viability abortion in Texas were preserved pending judicial
resolution of Applicants’ challenge. Given the constitutional questions at play, the

- 24 -

equities weigh strongly in favor of granting an injunction to maintain the status quo
in this case. See Lucas, 486 U.S. at 1304.
D.

Injunctive Relief Is Proper as to All Respondents

Finally, to the degree that this Court might look to 42 U.S.C. § 1983 in
considering whether to use its authority under the All Writs Act to enter an injunction
pending appeal, Section 1983 expressly permits injunctive relief “in any action
brought against a judicial officer for an act or omission taken in such officer’s judicial
capacity” where “a declaratory decree was violated or declaratory relief was
unavailable.” 42 U.S.C. § 1983. This limitation does not preclude injunctive relief
against either Respondent Clarkston (the county clerk) or Jackson (the state-court
judge).

First, Clarkston is not a “judicial officer” subject to this limitation. Although
Section 1983 does not define “judicial officer,” the term is common in the U.S. Code,
and its use in those statutes consistently refers to judges and other jurists—not all
court employees, such as clerks. See, e.g., 18 U.S.C. § 3156(a)(1); 18 U.S.C. § 3172(1);
28 U.S.C. §§ 480, 482; 5 U.S.C. App. 4 § 103(c); 5 U.S.C. App. 4 § 109(8), (10). Federal
Rules use “judicial officer” in the same way. See, e.g., Fed. R. Crim. P. 1(b)(4)(10); 18
U.S.C. § 3041; Fed. R. Bankr. P. 9001(3), (4). Congress knew how to make the
amendment to Section 1983 applicable to individuals who were not judges: it could
have used “court employee” or “judicial employee” as it had done before. But Congress
chose not to do so. This Court likewise has not treated “judicial officer” as synonymous
with clerks or other courthouse staff. See Osterneck v. Ernst & Whinney, 489 U.S.

- 25 -

169, 179 (1989) (a late-filed notice of appeal can be deemed timely if the party “has
received specific assurance by a judicial officer”).
Moreover, Congress added Section 1983’s limitation on injunctive relief against
“judicial officers” for the narrow purpose of modifying this Court’s decision in Pulliam

v. Allen. S. Rep. No. 104-366, at 36–37 (1996). In Pulliam, this Court used “judicial
officer” and “judge” interchangeably. See, e.g., 466 U.S. 522, 537 (1984). Accordingly,
the Senate Report explained that the amendment to Section 1983 limiting the
availability of injunctive relief would modify Pulliam’s effect as to “judges.” S. Rep.
No. 104-366, at 37.

Second, injunctive relief—even if confined to the scope of what is available
under Section 1983—is warranted here as to Respondent Jackson as well, because
declaratory relief has become “unavailable.” 42 U.S.C. § 1983. “Unavailable” means
the “status or condition of not being available.” See Black’s Law Dictionary 1768 (10th
ed. 2014); Schindler Elevator Corp. v. United States ex rel. Kirk, 563 U.S. 401, 407
(2011) (providing that courts look to the ordinary meaning of a term left undefined
by statute). In turn, “the ordinary meaning of the word ‘available’ is ‘capable of use
for the accomplishment of a purpose,’ and that which ‘is accessible or may be
obtained.’’ Ross v. Blake, 578 U.S. 1174, 1858 (2016) (quoting Webster’s Third New
International Dictionary 150 (1993)). Here, where all proceedings in the district
court, including those against Respondent Jackson, have been stayed indefinitely
while Respondents’ appeal of the motion to dismiss proceeds, it is plain that

- 26 -

declaratory relief against Respondent Jackson is not capable of “be[ing] obtained.”

Ross, 578 U.S. at 1858.
E.

An Injunction Is Appropriate in Aid of the Court’s Jurisdiction

Under the circumstances of this case, entry of an injunction is appropriate in
aid of the Court’s jurisdiction. See 28 U.S.C. § 1651(a). Absent an immediate
injunction, the Court would be powerless to safeguard the constitutional rights of
Texas residents impacted by S.B. 8 when it takes effect less than two days from now.
By the time this Court had the opportunity to review the court of appeals’ judgment,
individuals seeking abortion care on September 1 would no longer be eligible for such
care. See Roe, 410 U.S. at 125 (“[W]hen, as here, pregnancy is a significant fact in the
litigation, the normal 266-day human gestation period is so short that the pregnancy
will come to term before the usual appellate process is complete.”). Although the case
would not technically be moot, the Court’s ability to provide meaningful relief to those
seeking abortions in the interim would be lost. See generally Nken v. Holder, 556
U.S. 418, 421 (2009) (“It takes time to decide a case on appeal. . . . [A]nd if a court
takes the time it needs, the court’s decision may in some cases come too late for the
party seeking review.”).
II.

IN THE ALTERNATIVE, VACATUR OF THE LOWER COURTS’ STAYS IS WARRANTED SO
THAT THE DISTRICT COURT CAN RULE ON A MOTION FOR PRELIMINARY RELIEF
ADEQUATE TO MAINTAIN THE STATUS QUO
In the alternative, this Court should vacate the stays below and remand for

the district court to consider the pending motions for a temporary restraining order,
preliminary injunction, and class certification, none of which require any further
briefing by Respondents. D. Ct. ECF No. 60.
- 27 -

The full Court or Circuit Justice has jurisdiction to vacate a stay by a court of
appeals, including one characterized as an “administrative stay.” Off. of Pers. Mgmt.

v. Am. Fed’n of Gov’t Emps., 473 U.S. 1301, 1306 (1985) (Burger, C.J., in chambers).
That authority exists “regardless of the finality of the judgment below.” W. Airlines,

Inc. v. Int’l Brotherhood of Teamsters, 480 U.S. 1301, 1305 (1987) (O’Connor, J., in
chambers). The full Court or Circuit Justice also has jurisdiction to vacate a stay
entered by a district court. See Ala. Ass’n of Realtors v. Dep’t of Health & Hum.

Servs., 141 S. Ct. 2320 (2021) (per curiam) (directly vacating a district court’s stay of
judgment pending appeal).
This Court may vacate a stay of the court of appeals if the lower court “clearly
and demonstrably erred in its application of accepted standards.” Planned

Parenthood of Greater Tex. Surgical Health Servs. v. Abbott, 134 S. Ct. 506, 506
(2013) (Scalia, J., concurring) (quotation marks and citation omitted); see also

Coleman v. Paccar Inc., 424 U.S. 1301, 1304 (1976) (Rehnquist, J., in chambers)
(holding that Court may vacate a stay where “the rights of the parties . . . may be
seriously and irreparably injured by the stay”; “the court of appeals is demonstrably
wrong in its application of accepted standards in deciding to issue the stay”; and the
case “could and very likely would be reviewed here upon final disposition in the court
of appeals”).
A.

The Stays Will Seriously and Irreparably Harm the Rights of Applicants
and Pregnant Texans

As discussed supra, the stays will cause immediate and irreparable harm to
Applicants and patients by precluding the district court from issuing effective relief

- 28 -

to block enforcement of Texas’s unconstitutional abortion ban. In just two days,
approximately 85–90% of Texans who seek abortions, see App.89, 105, 115–16, 124,
131, 148, 155, 172, 178, and every Texan who seeks an abortion after six weeks’
pregnancy, will be stripped of a constitutional right long recognized by this Court.
This itself is irreparable harm. See supra Part I.C.
Further, the serious and irreparable deprivation of constitutional rights will
continue indefinitely unless this Court lifts the stays, because the district court’s
proceedings are stayed until the Fifth Circuit: (1) at a minimum, decides whether to
dismiss Respondent Dickson’s appeal and deny him a stay; and (2) resolves the
government officials’ appeal, which it refused to expedite and which could last for
months or longer).
B.

In Refusing to Lift the Stays, the Fifth Circuit Erred in Its Application
of Accepted Standards

1.

The Fifth Circuit’s refusal to lift the stays of proceedings against the

government official Respondents misapplied the governing legal standards.
Although the filing of a notice of appeal generally “divests the district court of
its control over those aspects of the case involved in the appeal,” Griggs v. Provident

Consumer Disc. Co., 459 U.S. 56, 58 (1982) (per curiam), “it is well-settled that a court
retains the power to grant injunctive relief to a party to preserve the status quo
during the pendency of an appeal, even to this Court,” Haw. Hous. Auth. v. Midkiff,
463 U.S. 1323, 1324 (1983) (Rehnquist, J., in chambers) (citing Newton v. Consol. Gas

Co., 258 U.S. 165, 177 (1932); Merrimack River Sav. Bank v. Clay Ctr., 219 U.S. 527,
531–35 (1911); Fed. R. Civ. P. 62). Here, the status quo is that S.B. 8 has not taken

- 29 -

effect; Texans are permitted to exercise their constitutionally protected right to
abortion as required by this Court’s precedents. The Fifth Circuit should have lifted
the stays to allow the district court to issue an order maintaining that status quo
during the pendency of the appeal.
That is all the more true here where the stays will have the effect of upending
the status quo, contravening the very purpose of a stay: to “preserv[e] rights during
the pendency of an appeal . . . [and] ensur[e] that appellate courts can responsibly
fulfill their role in the judicial process.” Nken, 556 U.S. at 427 (citation omitted). Far
from “suspend[ing] judicial alteration of the status quo,” Ohio Citizens for

Responsible Energy, Inc., 479 U.S. at 1312, the Fifth Circuit’s stay deprives the
district court of its inherent authority to prevent the irreparable injuries that will
certainly befall Texans starting this Wednesday.
Moreover, the Fifth Circuit erred in its rigid application of the divestiture
doctrine. As this Court has explained, “[o]nly Congress may determine a lower federal
court’s subject-matter jurisdiction.” Hamer v. Neighborhood Hous. Servs. of Chi., 138
S. Ct. 13, 17 (2017) (citations omitted); see U.S. Const. art. III, § 1. The divestiture
doctrine “is a judge made rule originally devised in the context of civil appeals to avoid
confusion or waste of time resulting from having the same issues before two courts at
the same time.” United States v. Claiborne, 727 F.2d 842, 850 (9th Cir. 1984).
“[B]ecause the judge-made divestiture rule isn’t based on a statute, it’s not a hardand-fast jurisdictional rule.” United States v. Rodriguez-Rosado, 909 F.3d 472, 477
(1st Cir. 2018) (citing Kontrick v. Ryan, 540 U.S. 443, 452–53 (2004); Claiborne, 727

- 30 -

F.2d at 850); accord United States v. Rodgers, 101 F.3d 247, 251 (2d Cir. 1996); United

States v. Leppo, 634 F.2d 101, 104 (3d Cir. 1980). The rule’s guiding principle has
always been efficiency; it was never intended to be used as an end-run to allow a
clearly unconstitutional law to take effect indefinitely and cause severe and
irreparable harm in the process. See 16A Charles Alan Wright, Arthur R. Miller, &
Catherine T. Struve, Federal Practice & Procedure § 3949.1 (5th ed.) (providing that
the rule is a “judge-made doctrine designed to implement a commonsensical division
of labor between the district court and the court of appeals” and should be
implemented “to guard against the risk that a litigant might manipulate the doctrine
for purposes of delay”).
The district court could have granted a preliminary injunction after ruling on
Respondents’ jurisdictional arguments in the same order. Indeed, the Fifth Circuit
recognized in its order denying mandamus in this case that the district court need
only rule on the motions to dismiss before resolving a motion for summary judgment.
App.59; see United States v. United Mine Workers of Am., 330 U.S. 258, 290 (1947)
(holding that district court “unquestionably had the power to issue a restraining order
for the purpose of preserving existing conditions pending a decision upon its own
jurisdiction”). It would be a perverse application of the divestiture rule if Respondents
could defeat any meaningful relief from a preliminary injunction by appealing a
ruling that completely rejected all their jurisdictional arguments.
In any event, regardless of what the court of appeals should have done, this
Court plainly has the authority to allow the district court to regain control over the
case, consider the pending temporary-restraining-order/preliminary-injunction and
- 31 -

class-certification motions, and enter any appropriate orders to preserve the status
quo. Doing so would preserve all parties’ ability to raise their jurisdictional
arguments on appeal, as whichever side does not prevail in the preliminaryinjunction proceedings could appeal from that decision. By contrast, preventing the
district court from acting on the fully briefed motions would defer a ruling on an issue
of preliminary relief for potentially months or longer until after the Fifth Circuit
decides the pending appeal.
2.

The Fifth Circuit demonstrably erred in staying proceedings against the

private individual Respondent, Mark Lee Dickson. Dickson did not, and could not,
demonstrate the traditional standard for a stay. Nken, 556 U.S. at 425–26 (citation
omitted). In particular, Dickson did not identify any harm to himself absent a stay of
the district court proceedings.
Dickson also failed to show he was likely to succeed on his appeal, for which
the court of appeals plainly lacks jurisdiction. Dickson is a private citizen who
appealed from an interlocutory order denying his motion to dismiss for lack of Article
III standing. He has never asserted that he is entitled to sovereign immunity. Cf. P.R.

Aqueduct & Sewer Auth., 506 U.S. at 139 (holding that denial of motion to dismiss
based on Eleventh Amendment immunity is immediately appealable under
collateral-order doctrine). Accordingly, the district court’s denial of his motion to
dismiss is precisely the kind of garden-variety interlocutory order that is not
“immediately appealable under [28 U.S.C.] § 1292(a)(1).” Carson v. Am. Brands, Inc.,
450 U.S. 79, 84 (1981).

- 32 -

Nor can Dickson rely on “‘pendent party’ appellate jurisdiction,” which this
Court has foreclosed. Swint v. Chambers Cnty. Comm’n, 514 U.S. 35, 51 (1995). And
pendent appellate jurisdiction is unavailable to him because his Article III standing
arguments—the sole basis of his motion to dismiss—are wholly distinct from the
sovereign-immunity issues on review. See ibid. (rejecting pendent appellate
jurisdiction where non-appealable order was not “inextricably intertwined” with
immediately appealable order and where “review of the former decision was [not]
necessary to ensure meaningful review of the latter”). In any event, Dickson lacks
standing to appeal because he cannot show any personal injury from the denial of
sovereign immunity to the government-official Respondents. Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1548 (2016) (holding that a “particularized [injury] . . . must affect
the plaintiff in a personal and individual way” (internal quotation marks and citation
omitted)); Hollingsworth, 570 U.S. at 715 (holding that petitioners had failed to
“demonstrate standing to appeal the judgment” below).
Accordingly, the Fifth Circuit stay of the district-court proceedings as to
Respondent Dickson, and its refusal to lift the district court’s own stay as to the
government-official Respondents, were clearly erroneous.
C.

The Court Would Likely Grant Review of Judgment in This Case

Vacatur of the stays that have halted district-court proceedings is also
appropriate because this Court could, and very likely would, review a decision from
a direct appeal of the district court’s grant or denial of the preliminary injunction or
from the appeal currently pending in the Fifth Circuit.

- 33 -

This case will present the question whether a state may ban abortion at six
weeks of pregnancy, roughly four months before viability. That question is not open
to dispute under this Court’s existing precedent. Because the statute at issue is in
such clear contravention of this Court’s decisions, this Court would and should
intervene if the lower courts allow its enforcement. And further demonstrating the
worthiness of this Court’s review is the fact that this Court has already granted
review on the question whether all pre-viability prohibitions on elective abortions are
unconstitutional in Dobbs v. Jackson Women’s Health Organization, No. 19-1392,
2021 WL 1951792 (U.S. May 17, 2021).
This case will also present the question whether a state can evade federal court
review of a state law that is in clear contravention of this Court’s precedents by
creating a scheme of private enforcement in the state’s courts. Under this Court’s
decisions, federal courts have clear authority to prospectively enjoin violations of
federal rights that occur in a state’s judicial system. See Mitchum v. Foster, 407 U.S.
225, 242 (1972) (The Court “long ago recognized that federal injunctive relief against
a state court proceeding can in some circumstances be essential to prevent great,
immediate, and irreparable loss of a person’s constitutional rights.”); see also Mireles

v. Waco, 502 U.S. 9, 10 n.1 (1991) (per curiam); Pulliam, 466 U.S. at 536–43. The
Fifth Circuit, however, is improperly constraining district courts’ authority to remedy
clear ongoing violations of federal rights under Section 1983 and Ex parte Young. For
instance, the Fifth Circuit has held that state officials cannot be sued in their official
capacity under Section 1983 for injunctive relief, notwithstanding this Court’s clear

- 34 -

statement that “a state official in his or her official capacity, when sued for injunctive
relief, would be a person under § 1983.” Will v. Mich. Dep’t of State Police, 491 U.S.
58, 71 n.10 (1989); see Freedom from Rel. Found. v. Mack, 4 F.4th 306, 312–13 (5th
Cir. 2021); Green Valley Special Util. Dist. v. City of Schertz, Tex., 969 F.3d 460, 475
(5th Cir. 2020) (en banc). And the Fifth Circuit’s Ex parte Young jurisprudence
incorrectly requires federal court litigants to demonstrate that the state attorney
general satisfies a heightened standard of connection to the challenged state statute
as a condition of suing him as the state’s chief law enforcement officer for prospective
relief from unconstitutional applications of state law. See Morris v. Livingston, 739
F.3d 740, 746 (5th Cir. 2014) (quoting Okpalobi v. Foster, 244 F.3d 405, 416 (5th Cir.
2001) (en banc) (plurality opinion)). This heightened standard is inconsistent with Ex

parte Young, itself, see 209 U.S. at 160–61, as well as subsequent decisions by this
Court, see Verizon Md., Inc., 535 U.S. at 645, and the Fifth Circuit’s approach
undermines the purpose of Ex parte Young’s legal fiction: to “permit the federal courts
to vindicate federal rights.” Va. Off. for Prot. & Advocacy v. Stewart, 563 U.S. 247,
254–55 (2011) (citations omitted); accord Green v. Mansour, 474 U.S. 64, 68 (1985)
(“Remedies designed to end a continuing violation of federal law are necessary to
vindicate the federal interest in assuring the supremacy of that law.”).
In addition, this Court is likely to grant certiorari review of the Fifth Circuit’s
appellate decision or a decision on appeal from a preliminary injunction order because
such decisions will present questions of national importance. See Sup. Ct. R. 10(c);

see, e.g., June Med. Servs. L.L.C. v. Gee, 140 S. Ct. 35 (2019) (mem.); N.Y. State Rifle

- 35 -

& Pistol Ass’n v. N.Y.C., 139 S. Ct. 939 (2019) (mem.). The drastic consequences of
S.B. 8 for public health, women’s health, and the constitutional right to a pre-viability
abortion plainly present issues of national importance warranting this Court’s
review. Likewise, Texas’s open defiance of this Court’s precedent—and its
transparent attempt to evade federal review—call out for this Court to protect its
authority. Marbury v. Madison, 5 U.S. 137, 177 (1803).
III.

IN THE ALTERNATIVE, VACATUR OF THE DISTRICT COURT’S ORDER DENYING THE
MOTIONS TO DISMISS IS PROPER TO PERMIT THAT COURT TO RULE ON APPLICANTS’
REQUEST FOR INJUNCTIVE RELIEF AND CLASS CERTIFICATION IN THE FIRST
INSTANCE
As a final alternative, should the Court find that it is appropriate for the

district court to rule on any injunctive relief in the first instance, but that the judgemade divestiture-of-jurisdiction removes that authority here, this Court should
vacate the district court’s order denying Respondents’ motions to dismiss and remand
to the Fifth Circuit with instructions to dismiss the appeal as moot.
In so doing, this Court could automatically return jurisdiction to the district
court, which could then decide Respondents’ motions to dismiss simultaneously with
Applicants’ pending requests for preliminary injunctive relief and class certification.
Should the district court determine that the requirements for a preliminary
injunction are satisfied, it would then be able to grant such relief against the
appropriate defendants or classes of defendants, preventing devastating and
irreparable harm to Applicants and to Texans seeking abortion. On the other hand,
Respondents would suffer no prejudice: they have already completed all briefing on
Applicants’ preliminary-injunction and class-certification motions, and, should the

- 36 -

district court issue a new order provisionally or ultimately denying the motions to
dismiss while also issuing preliminary injunctive relief and/or class certification,
Respondents’ ability to seek appellate review of their sovereign immunity defenses
would be delayed only by a matter of days.
Consequently, if the Court does not either grant relief directly, see supra
Part I, or lift the stays and permit the district court to rule on Applicants’ motions for
class certification and a temporary restraining order or preliminary injunction, see

supra Part II, it should restore the district court’s authority to prevent a flagrantly
unconstitutional law from taking effect in less than two days by: vacating the district
court’s order denying Respondents’ motions to dismiss; dismissing the appeal as
moot; remanding the case to the district court for further proceedings; and issuing
the mandate forthwith. See 28 U.S.C. § 2106 (“[A]ny . . . court of appellate jurisdiction
may affirm, modify, vacate, set aside or reverse any judgment, decree, or order of a
court lawfully brought before it for review, and may remand the cause and . . . require
such further proceedings to be had as may be just under the circumstances.”);

GuideOne Specialty Mut. Ins. Co. v. Missionary Church of Disciples of Jesus Christ,
687 F.3d 676, 682 n.3 (5th Cir. 2012) (“Once jurisdiction attaches, Courts of Appeals
have broad authority to dispose of district court judgments as they see fit.”).
CONCLUSION
This Court has continually recognized the importance of enjoining enforcement
of drastic state restrictions on access to pre-viability abortion, pending later review.

See Whole Woman’s Health, 136 S. Ct. at 2303; June Med. Servs. L.L.C., 139 S. Ct.

- 37 -

at 663. For the foregoing reasons, the Court should do the same here and enjoin
enforcement of S.B. 8 or, at a minimum, vacate the stays entered by the Fifth Circuit
and the district court so that the district court may again exercise its control over this
case and consider the propriety of Applicants’ pending motions for class certification
and a temporary restraining order or preliminary injunction.
Respectfully submitted.

JULIE A. MURRAY
RICHARD MUNIZ
Planned Parenthood Federation of
America
1110 Vermont Ave., NW, Suite 300
Washington, DC 20005
(202) 973-4800
julie.murray@ppfa.org
richard.muniz@ppfa.org

/S/ Marc Hearron
MARC HEARRON

Counsel of Record

Center for Reproductive Rights
1634 Eye St., NW, Suite 600
Washington, DC 20006
(202) 524-5539
mhearron@reprorights.org

MOLLY DUANE
Center for Reproductive Rights
199 Water St., 22nd Floor
Attorneys for Planned Parenthood
New York, NY 10038
of Greater Texas Surgical Health
Services, Planned Parenthood South (917) 637-3631
mduane@reprorights.org
Texas Surgical Center, Planned

Parenthood Center for Choice, and
Dr. Bhavik Kumar
JULIA KAYE
BRIGITTE AMIRI
CHELSEA TEJADA
American Civil Liberties Union
Foundation
125 Broad Street, 18th Floor
New York, NY 10004
(212) 549-2633
jkaye@aclu.org
bamiri@aclu.org
ctejada@aclu.org
LORIE CHAITEN

JAMIE A. LEVITT
J. ALEXANDER LAWRENCE
Morrison & Foerster, LLP
250 W. 55th Street
New York, NY 10019
(212) 468-8000
jlevitt@mofo.com
alawrence@mofo.com

Attorneys for Whole Woman’s
Health, Whole Woman’s Health
Alliance, Marva Sadler,
Southwestern Women’s Surgery
Center, Allison Gilbert, M.D.,
Brookside Women’s Medical Center
PA d/b/a Brookside Women’s Health
Center and Austin Women’s Health
Center, Alamo City Surgery Center
- 38 -

American Civil Liberties Union
Foundation
1640 North Sedgwick Street
Chicago, IL 60614
(212) 549-2633
rfp_lc@aclu.org
ADRIANA PINON
DAVID DONATTI
ANDRE SEGURA
ACLU Foundation of Texas, Inc.
5225 Katy Freeway, Suite 350
Houston, TX 77007
(713) 942-8146
apinon@aclutx.org
ddonatti@aclutx.org
asegura@aclutx.org

Attorneys for Houston Women’s
Clinic

PLLC d/b/a Alamo Women’s
Reproductive Services, Houston
Women’s Reproductive Services,
Reverend Daniel Kanter, and
Reverend Erika Forbes
RUPALI SHARMA
Lawyering Project
113 Bonnybriar Rd.
Portland, ME 04106
(908) 930-6445
rsharma@lawyeringproject.org
STEPHANIE TOTI
Lawyering Project
25 Broadway, 9th Floor
New York, NY 10004
(646) 490-1083
stoti@lawyeringproject.org

Attorneys for The Afiya Center,
Frontera Fund, Fund Texas Choice,
Jane’s Due Process, Lilith Fund for
Reproductive Equity, North Texas
Equal Access Fund

August 30, 2021

- 39 -

RULE 20.3(a) STATEMENT
Relief is sought against Austin Reeve Jackson, in his official capacity as Judge
of the 114th District Court, and on behalf of a class of all Texas judges similarly
situated; Penny Clarkston, in her official capacity as Clerk for the District Court of
Smith County, Texas, and on behalf of a class of all Texas clerks similarly situated;
Mark Lee Dickson; Stephen Brint Carlton, in his official capacity as Executive
Director of the Texas Medical Board; Katherine A. Thomas, in her official capacity as
Executive Director of the Texas Board of Nursing; Cecile Erwin Young, in her official
capacity as Executive Commissioner of the Texas Health and Human Services
Commission; Allison Vordenbaumen Benz, in her official capacity as Executive
Director of the Texas Board of Pharmacy; and Ken Paxton, in his official capacity as
Attorney General of Texas.
CORPORATE DISCLOSURE STATEMENT
Plaintiff Whole Woman’s Health is the doing business name of a consortium of
limited liability companies held by a holding company, the Booyah Group, which
includes Whole Woman’s Health of McAllen, LLC and Whole Woman’s Health of Fort
Worth, LLC d/b/a Whole Woman’s Health of Fort Worth and Whole Woman’s Health
of North Texas. Whole Woman’s Health has no parent corporation, and no publicly
held corporation holds 10% or more of its shares.
Plaintiff Whole Woman’s Health Alliance is a Texas non-profit corporation. It
has no parent corporation, and no publicly held corporation holds 10% or more of its
shares.

- 40 -

Plaintiff Planned Parenthood Center for Choice has no parent corporation, and
no publicly held corporation holds 10% or more of its shares.
Plaintiff Planned Parenthood of Greater Texas Surgical Health Services
discloses that its parent corporation is Planned Parenthood of Greater Texas, and no
publicly held corporation holds 10% or more of Planned Parenthood of Greater Texas
Surgical Health Services’ or Planned Parenthood of Greater Texas’s shares.
Plaintiff Planned Parenthood South Texas Surgical Center discloses that
Planned Parenthood South Texas is its sole member , and further discloses that no
publicly held corporation holds 10% or more of either Planned Parenthood South
Texas Surgical Center’s or Planned Parenthood South Texas’s shares.
Plaintiff Southwestern Women’s Surgery Center, has no parent corporation,
and no publicly held corporation holds 10% or more of its shares.
Plaintiff Alamo City Surgery Center PLLC d/b/a Alamo Women’s Reproductive
Services, has no parent corporation, and no publicly held corporation holds 10% or
more of its shares.
Plaintiff Houston Women’s Reproductive Services, has no parent corporation,
and no publicly held corporation holds 10% or more of its shares.
Plaintiff Brookside Women’s Medical Center PA d/b/a Brookside Women’s
Health Center and Austin Women’s Health Center has no parent corporation, and no
publicly held corporation holds 10% or more of its shares.
Plaintiff Houston Women’s Clinic has no parent corporation, and no publicly
held corporation holds 10% or more of its shares.

- 41 -

Plaintiff The Afiya Center is a Texas non-profit corporation. It has no parent
corporation, and no publicly held corporation holds 10% or more of its shares.
Plaintiff Frontera Fund is a Texas non-profit corporation. It has no parent
corporation, and no publicly held corporation holds 10% or more of its shares.
Plaintiff Fund Texas Choice is a Texas non-profit corporation. It has no parent
corporation, and no publicly held corporation holds 10% or more of its shares.
Plaintiff Jane’s Due Process is a Texas non-profit corporation. It has no parent
corporation, and no publicly held corporation holds 10% or more of its shares.
Plaintiff Lilith Fund for Reproductive Equity is a Texas non-profit corporation.
It has no parent corporation, and no publicly held corporation holds 10% or more of
its shares.
Plaintiff North Texas Equal Access Fund is a Texas non-profit corporation. It
has no parent corporation, and no publicly held corporation holds 10% or more of its
shares.

s/ Marc Hearron
MARC HEARRON

Counsel of Record

- 42 -

APPENDIX
TABLE OF CONTENTS
Court of Appeals Decision Denying Appellees’ Emergency Motions for
Injunction and Vacatur (5th Cir. Aug. 29, 2021) ............................................ App.1
Court of Appeals Decision Granting a Temporary Administrative Stay and
Denying Appellees’ Joint Opposed Motion to Expedite the Appeal (5th Cir.
Aug. 27, 2021) ................................................................................................... App.4
District Court Order Granting in Part and Denying in Part Defendants’
Opposed Motion to Stay Case and Vacate the Preliminary Injunction
Hearing (W.D. Tex. Aug. 27. 2021) .................................................................. App.6
District Court Order Denying Defendants’ Motions to Dismiss (W.D. Tex.
Aug. 25 2021) .................................................................................................... App.8
Court of Appeals Decision Withdrawing Administrative Stay, Denying
Petition for Writ of Mandamus and Denying Petitioners’ Opposed
Emergency Motion to Stay the District Court Proceedings (5th Cir. Aug.
13, 2021) ......................................................................................................... App.59
Senate Bill 8 ......................................................................................................... App.61
Declarations in Support of Plaintiffs’ Motion for Summary Judgment
Declaration of Allison Gilbert, M.D. ................................................................ App.86
Declaration of Bhavik Kumar, M.D. .............................................................. App.102
Declaration of Andrea Ferrigno ..................................................................... App.113
Declaration of Jessica Klier ........................................................................... App.122
Declaration of Ken Lambrecht ....................................................................... App.128
Declaration of Melaney Linton ...................................................................... App.146
Declaration of Amy Hagstrom Miller ............................................................ App.154
Declaration of Alan Braid, M.D.. ................................................................... App.164
Declaration of Bernard Rosenfeld, M.D......................................................... App.171
Declaration of Polin C. Barraza ..................................................................... App.176
Declaration of Marva Sadler .......................................................................... App.182
Declaration of Zaena Zamora ......................................................................... App.189
Declaration of Marsha Jones ......................................................................... App.195
Declaration of Anna Rupani........................................................................... App.201
Declaration of Kamyon Conner ...................................................................... App.207
i

Declaration of Amanda Beatriz Williams...................................................... App.213
Declaration of Reverend Daniel Kanter ........................................................ App.219
Declaration of Reverend Erika Forbes .......................................................... App.227
Declaration of Rosann Mariappuram ............................................................ App.233
Letter from Hon. Robert Pitman, U.S. District Judge, to Lyle W. Cayce,
Clerk of Court (5th Cir. Aug. 9, 2021) ......................................................... App.239
Declaration of Mark Lee Dickson...................................................................... App.241
Declaration of John Seago ................................................................................. App.245
Declaration of J. Alexander Lawrence .............................................................. App.247
Mark Lee Dickson Facebook Posts
Mark Lee Dickson Facebook Post (May 5, 2021) .......................................... App.252
Mark Lee Dickson Facebook Post (Mar. 29, 2021) ........................................ App.255
Mark Lee Dickson Facebook Post (June 11, 2019)........................................ App.266
Mark Lee Dickson Facebook Post (Apr. 6, 2019) .......................................... App.268
Mark Lee Dickson Facebook Post (Mar. 29, 2019) ........................................ App.269
Mark Lee Dickson Facebook Post (Apr. 6, 2020) .......................................... App.272
Mark Lee Dickson Facebook Post (Mar. 23, 2020) ........................................ App.273
Mark Lee Dickson Facebook Post (Nov. 27, 2019) ........................................ App.276
Supplemental Declaration of Mark Lee Dickson ............................................. App.278
Transcript of Hearing on the Jurisdictional Issue, Planned Parenthood of
Greater Tex. Surgical Health Servs. v. City of Lubbock,
No. 5:21-cv-114-H (N. D. Tex. May 28, 2021) .............................................. App.283
Affidavit of Mark Lee Dickson, Afiya Ctr. v. Dickson, No. DC-20-08104
(Tex. Dist. Ct. Dallas Cnty. Aug. 18, 2020) ................................................. App.288
Supplemental Affidavit of Mark Lee Dickson, Afiya Ctr. v. Dickson,
No. DC-20-08104 (Tex. Dist. Ct. Dallas Cnty. Oct. 12, 2020) ..................... App.300
Texas Right to Life Whistleblower Webpage (last visited Aug. 18, 2021) ....... App.307
Jeremy Blackburn, Texas Abortion Clinics Brace for Near Shutdown as
New Law is Enacted: ‘We Have to Comply’, Houston Chronicle (Aug. 12,
2021, updated Aug. 14, 2021)....................................................................... App.317

ii

United States Court of Appeals
for the Fifth Circuit
No. 21-50792
Whole Woman’s Health, on behalf of itself, its staff, physicians,
nurses, and patients; Alamo City Surgery Center, P.L.L.C., on
behalf of itself, its staff, physicians, nurses, and patients, doing business as Alamo
Women’s Reproductive Services; Brookside Women’s Medical
Center, P.A., on behalf of itself, its staff, physicians, nurses, and patients,
doing business as Brookside Women’s Health Center and Austin Women's
Health Center; Houston Women’s Clinic, on behalf of itself, its staff,
physicians, nurses, and patients; Houston Women’s Reproductive
Services, on behalf of itself, its staff, physicians, nurses, and patients;
Planned Parenthood Center for Choice, on behalf of itself, its
staff, physicians, nurses, and patients; Planned Parenthood of
Greater Texas Surgical Health Services, on behalf of itself, its
staff, physicians, nurses, and patients; Planned Parenthood South
Texas Surgical Center, on behalf of itself, its staff, physicians, nurses,
and patients; Southwestern Women’s Surgery Center, on
behalf of itself, its staff, physicians, nurses, and patients; Whole Women’s
Health Alliance, on behalf of itself, its staff, physicians, nurses, and
patients; Medical Doctor Allison Gilbert, on behalf of herself
and her patients; Medical Doctor Bhavik Kumar, on behalf of
himself and his patients; The Afiya Center, on behalf of itself and its
staff; Frontera Fund, on behalf of itself and its staff; Fund Texas
Choice, on behalf of itself and its staff; Jane’s Due Process, on behalf
of itself and its staff; Lilith Fund, Incorporated, on behalf of itself
and its staff; North Texas Equal Access Fund, on behalf of itself
and its staff; Reverend Erika Forbes; Reverend Daniel
Kanter; Marva Sadler,
Plaintiffs—Appellees,
versus

App.1

No. 21-50792

Judge Austin Reeve Jackson; Penny Clarkston; Mark Lee
Dickson; Stephen Brint Carlton; Katherine A. Thomas;
Cecile Erwin Young; Allison Vordenbaumen Benz; Ken
Paxton,
Defendants—Appellants.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 1:21-cv-616
Before Jones, Duncan, and Engelhardt, Circuit Judges.
Per Curiam:
IT IS ORDERED that Appellees’ emergency motion for an
injunction pending appeal is DENIED.
IT IS FURTHER ORDERED that Appellees’ emergency motion
to vacate this court’s administrative stay of the district court proceedings and
to vacate the district court’s stay of proceedings as to the government official
defendants is DENIED.
IT IS FURTHER ORDERED that Appellees’ emergency motion
to vacate the district court order denying Appellants’ motion to dismiss, to
dismiss this appeal as moot, and to issue the mandate forthwith is DENIED.

2

App.2

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

August 29, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 21-50792

Whole Woman s Health v. Jackson
USDC No. 1:21-CV-616

Enclosed is an order entered in this case.
Sincerely,
LYLE W. CAYCE, Clerk

By: _________________________
Peter A. Conners, Deputy Clerk
504-310-7685
Ms. Jeannette Clack
Ms. Heather Gebelin Hacker
Mr. Marc A. Hearron
Mr. Joseph Alexander Lawrence
Mr. Jonathan F. Mitchell
Mr. Richard Muniz
Ms. Julie A. Murray
Mr. Andre Segura
Mr. Andrew Bowman Stephens
Mr. Judd Edward Stone II
Mrs. Natalie Deyo Thompson
Ms. Stephanie Toti
Mr. Benjamin Walton

App.3

United States Court of Appeals
for the Fifth Circuit
No. 21-50792
Whole Woman’s Health, on behalf of itself, its staff, physicians,
nurses, and patients; Alamo City Surgery Center, P.L.L.C., on
behalf of itself, its staff, physicians, nurses, and patients, doing business as Alamo
Women’s Reproductive Services; Brookside Women’s Medical
Center, P.A., on behalf of itself, its staff, physicians, nurses, and patients,
doing business as Brookside Women’s Health Center and Austin Women's
Health Center; Houston Women’s Clinic, on behalf of itself, its staff,
physicians, nurses, and patients; Houston Women’s Reproductive
Services, on behalf of itself, its staff, physicians, nurses, and patients;
Planned Parenthood Center for Choice, on behalf of itself, its
staff, physicians, nurses, and patients; Planned Parenthood of
Greater Texas Surgical Health Services, on behalf of itself, its
staff, physicians, nurses, and patients; Planned Parenthood South
Texas Surgical Center, on behalf of itself, its staff, physicians, nurses,
and patients; Southwestern Women’s Surgery Center, on
behalf of itself, its staff, physicians, nurses, and patients; Whole Women’s
Health Alliance, on behalf of itself, its staff, physicians, nurses, and
patients; Medical Doctor Allison Gilbert, on behalf of herself
and her patients; Medical Doctor Bhavik Kumar, on behalf of
himself and his patients; The Afiya Center, on behalf of itself and its
staff; Frontera Fund, on behalf of itself and its staff; Fund Texas
Choice, on behalf of itself and its staff; Jane’s Due Process, on behalf
of itself and its staff; Lilith Fund, Incorporated, on behalf of itself
and its staff; North Texas Equal Access Fund, on behalf of itself
and its staff; Reverend Erika Forbes; Reverend Daniel
Kanter; Marva Sadler,
Plaintiffs—Appellees,
versus

App.4

No. 21-50792

Judge Austin Reeve Jackson; Penny Clarkston; Mark Lee
Dickson; Stephen Brint Carlton; Katherine A. Thomas;
Cecile Erwin Young; Allison Vordenbaumen Benz; Ken
Paxton,
Defendants—Appellants.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 1:21-cv-616
Before Jones, Duncan, and Engelhardt, Circuit Judges.
Per Curiam:
IT IS ORDERED that a temporary administrative stay of the
district court proceedings, including the upcoming preliminary injunction
hearing, is GRANTED until further order of this court. Appellant Mark Lee
Dickson is ORDERED to file a combined response and reply of no more
than 7,500 words to Appellees’ Combined Motion to Dismiss DefendantAppellant Mark Lee Dickson’s Appeal and Opposition to Emergency Stay
Motion, by 9 a.m. central time on Tuesday, August 31, 2021.
IT IS FURTHER ORDERED that Appellees’ joint opposed
motion to expedite the appeal is DENIED.

2

App.5

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
§
§
§
§
§
§
§
§
§

Plaintiffs,
v.
JUDGE AUSTIN REEVE JACKSON, et. al.,
Defendants.

1:21-CV-616-RP

ORDER
Before the Court
injunction hearing. (Dkt. 84)

filed a reply,

(Dkt. 87).

Defendants ask the Court to stay this case and vacate the upcoming preliminary
injunction hearing
dismiss, (Order, Dkt. 82; Not. Appeal, Dkt. 83). Defendants argue that this Court lacks
jurisdiction over this case because the
sovereign immunity under the collateral order doctrine. (Dkt. 84, at 1). Under the collateral order
doctrine, Defendants may appeal a denial of a motion to dismiss asserting sovereign immunity.
(Id.) (citing McCarthy ex rel. Travis v. Hawkins, 381 F.3d 407, 411 12 (5th Cir. 2004)). In their

(Dkt. 86, at 2) (citing BancPass, Inc. v. Highway Toll Admin., L.L.C., 863
F.3d 391, 399 (5th Cir. 2017)). The Court is unwilling to make an
frivolousness
BancPass, Inc., 863 F.3d at 400.
Nonetheless, the Court finds that only Defendants Allison Vordenbaumen Benz,
Stephen Brint Carlton, Ken Paxton, Katherine A. Thomas, Cecile Erwin Young, Austin Reeve
1

App.6

Jackson, Penny Clarkston
under the doctrine of sovereign immunty. (See Mots. Dismiss, Dkts. 48, 49, 50, 51). The Court

Defendant Mark Lee Dickson

, however, has not asserted that he is entitled

to sovereign immunity, and as a private actor, he could not make such a claim. As Defendants
acknowledge in their reply, their appeal has only divested this Court of jurisidiction as to the
State Defendants. (Reply, Dkt. 87, at 1). Defendants attempt to couch
dealing with appeals of final orders or interlocutory
appeals by state actors claiming sovereign immuntiy. (Dkt. 87, at 2) (citing Hollingsworth v. Perry,
570 U.S. 693, 704 (2013); Hospitality House, Inc. v. Gilbert, 298 F.3d 424, 429 (5th Cir. 2002) (court

denial of motion to dismiss)). None of these cases are relevant here. Given that Dickson has
made no claim to sovereign immunity, the denial of his motion to dismiss is not appealable.
, 803 F.2d 821, 824 (5th Cir. 1986). Moreover, Dickson does not
provide the Court with a legitimate independent basis for staying the proceedings as to him.
Finding that Dickson has not shown good cause as to why the proceedings against him should
Dickson.

not go forward, t
Accordingly, IT IS ORDERED that

opposed motion to stay case and

vacate the preliminary injunction hearing, (Dkt. 84), is GRANTED IN PART and DENIED
IN PART.

otion is granted as to the State Defendants and denied as to Dickson.

SIGNED on August 27, 2021.

_____________________________________
ROBERT PITMAN
UNITED STATES DISTRICT JUDGE

2

App.7

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION

Plaintiffs,
v.
JUDGE AUSTIN REEVE JACKSON, et. al.,
Defendants.

§
§
§
§
§
§
§
§
§

1:21-CV-616-RP

ORDER
Before this Court are Defendants Allison Vordenbaumen Benz, Stephen Brint Carlton, Ken
Paxton, Katherine A. Thomas, Cecile Erwin Young, Austin Reeve Jackson, Penny Clarkston, and
Mark Lee

t

, Plaintiffs

responses, (Dkts. 56, 57, 62), and Defendants replies. (Dkts. 64, 66, 67). related briefing. Having

I. BACKGROUND
A. Procedural Background
Plaintiffs1 filed the instant action on July 13, 2021, requesting declaratory and injunctive
relief to prevent

S.B. 8

an abortion restriction bill signed into law by Governor

Greg Abbot

, from taking effect on September 1,

1

(together, the
the Provider Pla

14).
1

App.8

the

NTEA

2021. (Compl., Dkt. 1, at 2); S. B. 8, 87th Leg., Reg. Sess. (Tex. 2021). That same day, Plaintiffs filed
a motion for summary judgment on all their claims. (Mot. Summ. J., Dkt. 19). On July 16, 2021,
Plaintiffs filed a motion to certify two defendant classes of non-federal judges and clerks in Texas
with jurisdiction to enforce S.B. 8. (Mot. Certify Class, Dkt. 32). Defendants then moved to stay
consideration of P

until

dismiss, (Dkt. 39), which the Court denied in setting a briefing schedule for the pending motions
after holding a conference with the parties. (Dkts. 40, 47).
After being served, Defendants
the terms of the scheduling order issued by the Court. (Dkts. 48, 49, 50, 51). On August 7, 2021,
Defendants Clarkston and Dickson filed a petition for writ of mandamus and emergency motion to
stay with the Fifth Circuit, arguing that they should not have to respond
claims until the jurisdictional motions to dismiss were resolved by this Court. See In re Clarkston, No.
21-50708 (5th Cir. filed Aug. 7, 2021). After entering a temporary administrative stay of this action,
the Fifth Circuit denied Defendants Clarkston and Dickson

on August 13,

2021. See id. In the interim, Plaintiffs filed a motion for a preliminary injunction, which is set for a
hearing on August 30, 2021. (Mot. Prelim. Inj., Dkt. 53; Order, Dkt. 61). The Court then issued an
amended briefing schedule to clarify that

would be reached

before the merits of the claims. (Order, Dkt. 60).
B. Senate Bill 8
S.B. 8 purports to ban all abortions performed on any pregnant person 2 where cardiac
activity has been detected in the embryo, with no exceptions for pregnancies that result from rape,

2

abortion services. See Accord Reprod. Health Servs. v. Strange, 2021 WL 2678574, at *1 n.2 (11th Cir. June 30,
2

App.9

sexual abuse, incest, or a fetal defect incompatible with life after birth. S.B. 8 § 3 (to be codified at
Tex. Health & Safety Code §171.204(a)). As explained below, S.B. 8 is enforced through a dual
private and public enforcement scheme, whereby private citizens are empowered to bring civil
lawsuits in state courts against anyone who performs, aids and abets, or intends to participate in a
prohibited abortion, see id. §§ 171.208, 210, and the State may take punitive action against the
Provider Plaintiffs through existing laws and regulations triggered by a violation of S.B. 8

such as

professionally disciplining a physician who performs an abortion banned under S. B. 8. See, e.g., Tex.
Occ. Code §§ 164.053(a)(1)), 165.101; 243.011 .015, 245.012 .017; 301.10, 553.003, 565.001(a),
565.002.
1.

The Six-Week Ban on Abortions

The cornerstone of S.B. 8 is its requirement that physicians performing abortions in Texas
3

is present before performing an abortion. S.B. 8 §

3 (to be codified at Tex. Health & Safety Code §§ 171.203(b), 171.204(a)). S.B. 8 further bans any
abortions performed once

has been detected or if the physician fails to perform a

test for cardiac activity within an embryo

the six-

4

). Id. The six-week ban contains no

exception for pregnancies that result from rape or incest, or for fetal health conditions that are
incompatible with life after birth

ed terms, we recognize that not all persons who may become
3

71.201(1). Because an ultrasound can typically detect cardiac
ccurate term since what
performed approximately six weeks LMP, usually just two weeks after a missed menstrual period, when an

4

ids abortion
3

App.10

emergency

ex. Health & Safety Code

§171.205(a)).
S.B. 8 holds liable anyone who performs an abortion in violation of the six-week ban, and

LMP. Id. § 171.208(a)(1) (2). Although S.B. 8 does not define what constitutes aiding or abetting
under the statute, it specifies that paying for or reimbursing the costs of the abortion falls under the
six-week ban, which applies

wn that the
Id. In addition, a person need not
the law if that

person intended to help another person obtain an abortion six weeks

LMP. Id. §

171.208(a)(3).
2.

Enforcement of the Six-Week Ban

S.B. 8 is enforced against those who provide abortions or help patients obtain abortions

enforcement scheme, which empowers private citizens to bring civil actions against anyone who
allegedly performs, or aids and abets in the performance of, a banned abortion. Id. § 171.207(a).5
Under S.B. 8

state agencies and authorities are tasked with

enforcing state licensing and professional codes for healthcare provides, whose provisions are
triggered by violations of S.B. 8. Tex. Occ. Code §§ 164.053(a)(1)), 301.101, 553.003.

Despite having no exception to the six-week ban for pregnancies that result from rape or incest, S.B. 8
t, or incest, or other
Id. § 171.208(a). S.B. does not permit private citizens to
bring civil suits again abortion patients. Id. § 171.206(b)(1).
5

4

App.11

more appropriate venue if not consented to by all parties. See id. § 171.210(a)(4) (permitting suit in
the claim

id. §

6

Private citizens who prevail in civil suits brought under S.B. 8 may

Id. § 171.208(b). A private citizen may prevail in a civil suit brought under S.B. 8 without alleging any
injury caused by the defendants, in contravention of the traditional rules of standing. (Dkt. 1, at 26).
While empowering private enforcers, S.B. 8 limits the defenses available to defendants and
subjects them to a fee-shifting regime skewed in favor of claimants. For example, defendants in S.B.
8 enforcement actions are prohibited from raising certain defenses enumerated under S.B. 8,
including that they believed the law was unconstitutional; that they relied on a court decision, later
overruled, that was in place at the time of the acts underlying the suit; or that the patient consented
to the abortion. Id. § 171.208(e)(2), (3). S.B. 8 also states that defendants may not rely on non-mutual

binding on the court i

Id. § 171.208(e)(4), (5).

Although under binding Fifth Circuit precedent
prior to viability so long as they do not impose an undue burden, Section 5 of S.B. 8 requires state
in line with
regarding construction and severability of claims. S.B. 8 § 5 (to be codified at

S.B. 8 bucks the usual rules in Texas that govern where a lawsuit can be filed and when a case can be
transferred to a different county. Texas generally limits the venue where an action may be brought to one
where the events giving rise to a claim took place or where the defendant resides, see Tex. Civ. Prac. & Rem.
6

and witnesses and

id. § 15.002(b).
5

App.12

Tex. Gov. Code § 311.036); S.B. 8 §§ 171.209(c), (d)(2));

, 945

F.3d 265, 269 (5th Cir. 2019), cert. granted, No. 19-1392, 2021 WL 1951792 (U.S. May 17, 2021)
( States may regulate abortion procedures prior to viability so long as they do not impose an undue
bu

).
S.B. 8 further creates a novel fee-shifting regime slanted in favor of S.B. 8 claimants and

proponents, not only in S.B. 8 enforcement actions but in any challenges to the law, including in the
instant case. S.B. 8 § 30.022. Under Section 4 of S.B. 8 (

, not only may S.B. 8 claimants
plaintiffs and attorneys who participate in

lawsuits challenging abortion restrictions in Texas may be liable for
prevail on all of their initial claims, regardless of the ultimate outcome of the litigation. Id. Indeed,
Section 4 applies to any challenge, in state or federal court, to
that regulates or restricts
from participating in a public funding program. S.B. 8. S.B. 8 § 30.022.
Defendants in such a

but

resolution of the underlying case. Id. § 30.022(c), (d)(1). When resolvi
fees, judges are precluded from taking into account whether the court in the underlying case already
denied fees to the party defending the abortion restriction, or already considered the application of
Section 4 and

Id. § 30.022(d)(3).

Furthermore, those sued under S.B. 8 who prevail in their case are barred from recovering their
even

171.208(i)).

6

App.13

agencies are empowered to bring
administrative and civil enforcement actions against medical professionals who participate in
abortions that violate the six-week ban based on their state-issued licenses. S.B. 8. Tex. Occ. Code §§
164.053(a)(1)), 165.101; 243.011 .015, 245.012 .017; 301.10, 553.003, 565.001(a), 565.002. Because
subchapter H of S.B. 8, which includes the six-week ban, will be added to Chapter 171 of the Texas
Health and Safety Code, violations of the six-week ban trigger enforcement of other provisions of
Chapter 171, as well as regulations state agencies have jurisdiction to enforce based on a violation of
S.B. 8.
Under the Texas Medical Practice Act, for example,

must

initiate investigations and disciplinary action against, as well as refuse to issue or renew licenses to,
licensed physicians who violate a provision of Chapter 171. See, e.g., Tex. Occ. Code § 164.055(a)

Health and

see id. (
(3) (TMB,
Sections 164.051 through 164.054,

. review the medical

[healthcare-

related] lawsuits within a fiveuthority
to take disciplinary actions against those who violate S.B. 8. Tex. Occ. Code §§ 301.453(a) (TBN
, 301.452(b)(1),
565.001(a), 565.002 (empowering TBP to take disciplinary, administrative or civil action against
violators of the Texas Pharmacy Act); Tex. Health & Safety Code §§ 243.011 .015, 245.012 .017
7

App.14

(empowering HHSC to take disciplinary or civil action against licensed abortion facilities and
ambulatory surgic

. 25 Tex.

Admin. Code §§ 135.4(l) (requiring abortion-providing ASCs to comply with rules for abortion
facilities), § 139.60(c), (l); § 217.11(1)(A), 213.33(b) (imposing disciplinary measures for nurses who
fail to conform to . . . all federal, state, or local laws, rules or regulations
).
C. The Parties
1. Plaintiffs
Plaintiffs are comprised of those who provide abortion services, the Provider Plaintiffs, and
those who support patients in need of an abortion, the Advocate Plaintiffs.
The Provider Plaintiffs7 include reproductive healthcare providers across the state of Texas,
who bring this suit on behalf of themselves, their physicians, nurses, pharmacists, other staff, and
patients. (Dkt. 1, at 9
abortions performed in their facilities occur after the six-week ban imposed by S.B. 8. (See id.). As
such, the Provider Plaintiffs all perform abortions that will be proscribed by S.B. 8 when it takes
effect September 1, 2021. (Id. at 12). The Provider Plaintiffs allege that if S.B. 8 takes effect, they and

Id. at 34).

7

Bhavik Kumar, M.D. (together, the

12).
8

App.15

and

Since many
LMP, they allege they
Id. at 32). If the Provider Plaintiffs continued to offer abortions that they believe are
constitutionally protected, but are prohibited by S.B. 8, they and their staff will risk private
enforcement suits and professional discipline. (Id. at 32 33). Provider Plaintiffs further allege that
-shifting provision impacts
as
they bring lawsuits to vindicate their constitutional rights. (Id. at 33 34).
The Advocate Plaintiffs8 provide support to those in need of abortions and advocate for
reproductive rights within Texas and fear that
activities that may be alleged to aid and abet abortions prohibited by [S.B. 8], [they] face a credible
(Dkt. 1, at 12 14). The Advocate Plaintiffs allege that if S.B. 8 takes effect
September 1, they will be forced to redirect resources to support Texans who need to leave the state
to obtain an abortion after 6 weeks LMP. (Id. at 34). If the Advocate Plaintiffs continue to support
those seeking abortions banned by S.B. 8, they will likely face enforcement lawsuits for aiding and
t-protected speech and
Id. at 34 35). Specifically, Reverends Forbes and Kanter
worry that their efforts to provide spiritual and emotional
will expose them to

s

clergy members, counselors, and advisors (such as sexual assault and genetic counselors), as S.B. 8

8

Sadler, Reverend Daniel Kanter
(Dkt. 1, at 12 14).

, and Reverend Erika Forbes
9

App.16

the Advocate

incentivizes law

through

generous award of fees to successful claimants. (Id.).
2. Defendants
the judge for the 114th
District Court in Smith County, Texas, a court with jurisdiction over S.B. 8 claims. (Dkt. 1, at 15).

that role is charged with accepting civil cases for filing and issuing citations for service of process
upon the filing of a civil lawsuit. (Id.). Both Jackson and Clarkston are sued in their official capacities
and as representatives of two putative classes consisting of all state judges and clerks in Texas with
the authority to initiate S.B. 8 enforcement actions and exert their coercive power over Plaintiffs to
participate in and be sanctioned by S.B. 8 actions. (Id. at 15 16; see also Mot. Certify Class, Dkt. 32).
Defendant Jackson recently participated in a press conference regarding the instant suit, in which he
referred to himself as
Tr., Dkt. 53-1, at 4).
Defendant Stephen Brint Carlton is the Executive Director of the Texas Medical Board
that capacity serves as the chief executive and administrative officer of TMB. (Dkt.
1, at 16 17) (citing Tex. Occ. Code § 152.051). Defendant Katherine A. Thomas is the Executive
ies as required by the
Nursing Practice Act, and as designated by the TBN. (Id. at 17 18) (citing Tex. Occ. Code §
301.101). Defendant Allison Vordenbaumen Benz is the Executive Director of the Texas Board of
under the Texas Pharmacy Act, or
designated by the TBP. (Id. at 19) (citing Tex. Occ. Code § 553.003). Defendant Cecile Erwin Young

10

App.17

Provider Plaintiffs. (Id. at 18) (citing Tex. Health & Safety Code §§ 243.011, 245.012).
Defendant Ken Paxton is the Attorney General of Texas. He is empowered to
institute an action for a civil penalty against physicians and physician assistants licensed in Texas
who are in violation of or threatening to violate any provision of the Medical Practice Act,
including provisions triggered by a violation of S.B. 8. (Id. at 19 20) (citing Tex. Occ. Code §
165.101). 9
Defendant Mark Lee Dickson is a resident of Longview, Texas, who serves as the
Director of Right to Life East Texas. (Dkt. 1, at 16). Dickson has advocated for the adoption of
state and local laws prohibiting abortions and has expressed his intent to bring civil enforcement
actions as a private citizen under S.B. 8. (Id. at n.4, 33).
II. LEGAL STANDARDS
A. 12(b)(1)
Federal Rule of Civil Procedure 12(b)(1) allows a party to assert lack of subject-matter
jurisdiction as a defense to suit. Fed. R. Civ. P. 12(b)(1). Federal district courts are courts of limited
jurisdiction and may only exercise such jurisdiction as is expressly conferred by the Constitution and
federal statutes. Kokkonen v. Guardian Life Ins. Co. of Am., 511 U.S. 375, 377 (1994). A federal court
properly dismisses a case for lack of subject matter jurisdiction when it lacks the statutory or
constitutional power to adjudicate the case.

, 143

9

S.B. 8 through existing state laws, regulations, licensing and professional codes, including Stephen Brint
Carlton, Executive Director of the Texas Medical Board, Katherine A. Thomas, Executive Director of the
Texas Board of Nursing, Allison Vordenbaumen Benz, Executive Director of the Texas Board of Pharmacy,
Cecile Erwin Young, Executive Commissioner of the Texas Health and Human Services Commission, and
Ken Paxton, Attorney General of Texas.
11

App.18

Ramming v. United States, 281 F.3d 158, 161 (5th Cir. 2001), cert.
denied

intiff constantly bears the burden of proof that
Id. In ruling on a Rule 12(b)(1) motion, the court may consider any

one of the following: (1) the complaint alone; (2) the complaint plus undisputed facts evidenced in
the r

Lane

v. Halliburton, 529 F.3d 548, 557 (5th Cir. 2008).
B. Standing
Under Article III of the Constitution, federal court jurisdiction is limited to cases and
controversies. U.S. Const. art. III, 2, cl. 1; Raines v. Byrd, 521 U.S. 811, 818 (1997). A key element of
the case-or-controversy requirement is that a plaintiff must establish standing to sue. See Lujan v.
Defenders of Wildlife, 504 U.S. 555, 561 (1992).
To est
injury-in-fact, (2) that is fairly traceable to the challenged conduct of the defendant, and (3) that is
Id. at 560

Stringer v. Whitley, 942 F.3d 715, 721 (5th Cir. 2019) (quoting Susan B. Anthony List v. Driehaus,
573 U.S. 149, 158 (2014)). A plaintiff suffers injury-in-fact for purposes of
preenforcement suit when he has alleged an intention to engage in a course of conduct arguably
affected with a constitutional interest, but proscribed by a statute, and there exists a credible threat
Susan B. Anthony List, 573 U.S. at 160. A credible threat of enforcement
Babbitt v. United Farm
442 U.S. 289, 302 (1979).

the outcome of the controversy as to assure that concrete adverseness which sharpens the
12

App.19

,

Massachusetts v.
EPA, 549 U.S. 497, 517 (2007) (quoting Baker v. Carr, 369 U.S. 186 (1962) (internal quotation marks
removed)). [I]
-or-

Tex. Democratic Party v. Abbott,

No. 20-50407, 2020 WL 5422917, at *4 (5th Cir. Sept. 10, 2020) (quoting Texas v. United States, 945
F.3d 355, 377

-in-fact need

not be substantial; it need not measure more than an identifiable trifle. OCA-Greater Hous. v. Texas,
867 F.3d 604, 612 (5th Cir. 2017) (quotations omitted). This is because the injury-in-fact requirement
Id.
C. Sovereign Immunity

a state, a state agency, or a state official in his official capacity unless that state has waived its
sovereign immunity or Congress has clearl

Moore v. La. Bd. of Elementary & Secondary

Educ., 743 F.3d 959, 963 (5th Cir. 2014). However, under the Ex parte Young exception to sovereign
immunity, lawsuits may proceed in federal court when a plaintiff requests prospective relief against
state officials in their official capacities for ongoing federal violations. 209 U.S. 123, 159 60 (1908).
Ex parte Young lawsuit. The suit must: (1) be brought
against state officers who are acting in their official capacities; (2) seek prospective relief to redress
Williams ex rel. J.E. v. Reeves,
954 F.3d 729, 736 (5th Cir. 2020).
The Supreme Court has instructed lower courts evaluating whether state officials are subject
to suit under the exception to sovereign immunity to conduct a straightforward inquiry into
whether [the] complaint alleges an ongoing violation of federal law and seeks relief properly
characterized as prospective. Va. Office for Prot. & Advocacy v. Stewart, 563 U.S. 247, 253 (2011). If so,
13

App.20

the Court must then examine whether
connection with the enforcement of the [challenged] act, or else [the suit] is merely making him a
City of
Austin v. Paxton, 943 F.3d 993, 997 (5th Cir. 2019), cert. denied sub nom. City of Austin, Texas v. Paxton,
141 S. Ct. 1047 (2021) (quoting Young, 209 U.S. at 157). The Fifth Circuit has not established a clear
test for when a state official is sufficiently connected to the enforcement of a state law so as to be a
proper defendant under Ex parte Young. Texas Democratic Party v. Hughs, No. 20-50683, 2021 WL
1826760 (5th Cir. May 7, 2021); City of Austin, 943 F.3d at 997

What constitutes a sufficient

connection to enforcement is not clear from our jurisprudence

.

general duty to see that the laws of the
Texas Democratic Party, 961 F.3d at 400 01 (quoting Morris v. Livingston, 739
ily tasked with enforcing the
Young

City of Austin,

court] consider[s] whether the state official actually has the authority to enforce the challenged
Id.
S TO DISMISS
All Defendants filed motions to

them on jurisdictional

bases. (See SAD Mot. Dismiss, Dkt. 48; Jackson Mot. Dismiss, Dkt. 49; Dickson Mot. Dismiss, Dkt.
50; Clarkston Mot. Dismiss, Dkt. 51). The Court will address the motions to dismiss below.
A. SAD Motion to Dismiss
Provider Plaintiffs seek relief against the

based on their

authority to enforce other statutes and regulations against licensed abortion facilities, ambulatory
14

App.21

surgical centers, pharmacies, physicians, physician assistants, nurses, and pharmacists that are
triggered by a violation of S.B. 8

-shifting regime

in this or other challenges to S.B.

34). The SAD moved

to dismiss Provider Plain

them as barred by sovereign immunity and for lack of

standing. (See SAD Mot. Dismiss, Dkt. 48). Plaintiffs filed a response, (Dkt. 56), and the SAD filed a
reply, (Dkt. 63).
1. Sovereign Immunity
and do not fall
within the Ex Parte Young exception. (Mot. Dismiss, Dkt. 48, at 6). Specifically, the SAD argue that
S.B. 8 explicitly precludes enforcement actions to be brought by

executive or administrative

that any threat that the SAD will seek fees under Section 4 or
institute disciplinary actions through the health-related laws and regulations triggered by violations
of S.B. 8 are too speculative to establish a
48, at 6) (citing Morris v. Livingston, 739 F.3d 740, 746 (5th Cir. 2014)).
Plaintiffs respond that the SAD are in fact tasked with in enforcement of S.B. 8 and have the
seek
legal fees under Section 4 and can
action to constrain the Provider Plaintiffs and their physicians, nurses, and pharmacists from

(citing K.P. v. LeBlanc

, 627 F.3d 115, 124 (5th Cir. 2010)). The Court agrees and finds

Plaintif
enforcement capacity under S.B. 8 place them within the Ex Parte Young exception.

of
15

App.22

violation of S.B. 8, such as the Medical Practice Act, Nursing Practice Act, and Pharmacy Act. See,
e.g., Tex. Occ. Code §§ 301.453(a); 301.452(b)(1), 565.001(a), 565.002; Tex. Health & Safety Code §§
243.011 .015, 245.012 .017; Tex. Admin. Code § § 135.4(l), 139.60(c), (l); § 217.11(1)(A), 213.33(b)).
[n]o enforcement of this
subchapter, and no enforcement of Chapters 19 and 22, Penal Code, in response to violations of this
subchapter, may be taken or threatened by this state, a political subdivision, a district or county
attorney, or an executive or administrative officer or employee of this state or a political subdivision

SAD are correct that they are precluded from enforcing S.B. 8 Section 3 through the private
enforcement mechanism created under the law, nowhere does S.B. 8 indicate that it refers to the

to enforce such provisions under Chapter 171. The Court thus finds that there is no conflict
the SAD s private
enforcement authority under existing Texas laws that may be triggered by a violation of S.B. 8. See
City of Austin v. Paxton, 943 F.3d 993, 1001 (5th Cir. 2019), cert. denied sub nom. City of Austin, Texas v.
Paxton, 141 S. Ct. 1047 (2021)

direct enforcement of the challenged law. . .not required: actions

that constrain[] the plaintiffs [are] sufficient to apply the Young exception

K.P. v. LeBlanc

K.P. I ,

627 F.3d 115, 124 (5th Cir. 2010) ( Enforcement typically involves compulsion or constraint. )
Second, the Court finds that the SAD have the requisite connection to enforcement and
demonstrated willingness the enforce Section 4 and the state laws triggered by S.B. 8 violations so as
to bring their conduct within the Ex Parte Young exception to sovereign immunity. While the SAD
are correct that some of the disciplinary and civil actions triggered violations of Section 3 of S.B. 8
are within the discretion of the SAD to bring, others are mandatory. Compare Tex. Occ. Code §
165.001; see also id. § 165.101 (attorney general may institute an action for civil penalties against a
16

App.23

licensed physician for certain violations); id.

impose an

id. § 566.001(1) (same as to Board of Pharmacy); Tex. Health & Safety
administrative

with Tex. Occ. Code § 164.052(a)(5),

§ 164.001(b)(2) (3) (
provisions of the Texas Medical Act).
Plaintiffs argue that as in Air Evac EMS, Inc. v. Tex., De

, where

the Fifth Circuit held that Ex Parte Young applied to state officials who, though not empowered to
directly enforce challenged statute,

under the law through

administrative proceedings, here the SAD are similarly authorized and mandated to enforce
violations of existing Texas laws stemming from a violation of S.B. 8. 51 F.3d 507, 519 (5th Cir.
2017). Similarly, in K.P. v. LeBlanc

K.P. I , the Fifth Circuit found that state agency defendants

who reviewed abortion-related claims for medical malpractice coverage fell within the Ex Parte Young

627 F.3d 115, 124 (5th Cir. 2010); see also Air Evac, 851 F.3d 518 19 (noting
that board members in K.P.

).

The Court agrees and finds that the SAD have

directly enforce Section 4 and to

enforce Section 3 through disciplinary and civil actions against Provider Plaintiffs
authority to enforce S.B. 8 falls within the Ex Parte Young exception to sovereign immunity. City of
Austin, 943 F.3d at 1000
; Air Evac, 851 F.3d 518 19.
The parties dispute whether Provider Plaintiffs must demonstrate that the SAD have a
Ex Parte Young
exception. (Dkt. 48, at 8; Dkt. 56, at 16). Although it is unclear whether binding Fifth Circuit
precedent requires Provider Plaintiffs to show a demonstrated willingness by the SAD to enforce
17

App.24

Sections 3 and 4, the Fifth Circuit has nonetheless cited with approval, though has not fully
endorsed, such a requirement. See City of Austin 943 F.3d 993, 1000 (

e find that we need not
i.e., whether Attorney

General Paxton must have the particular duty to enforce the statute in question and a demonstrated
willingness to exercise that duty

; but see Morris v. Livingston, 739 F.3d

740, 746 (5th Cir. 2014) (
ar duty to enforce the statute in question and a
) (quoting Okpalobi v. Foster, 244 F.3d 405, 416 (5th
Cir. 2001)).
The Court finds that the Provider Plaintiffs have sufficiently alleged a demonstrated
willingness on the part of the SAD to enforce abortion restrictions through administrative actions
and that such actions are likely imminent here. First, the

ongstanding defense of their

enforcement authority under other abortion restrictions
the S.B. 8 to the extent they are empowered to do so. (Dkt. 56, at 18) (citing In re Abbott, 956 F.3d
696 (5th Cir. 2020), vacated as moot by Planned Parenthood Ctr. for Choice v. Abbott, 141 S. Ct. 1261 (2021)
(mem.) (COVID abortion ban);

, 978 F.3d 896 (5th Cir. 2020),

banc granted, vacated by 978 F.3d 974 (5th Cir. 2020) (mem.)). Indeed, in In re Abbott, the Fifth Circuit
threatened that [the anti-abortion statute] would be enforced
and law enforcement officials

health

existing intent to enforce abortion

restrictions through health officials such as the defendants named here. 956 F.3d at 709. The SAD
also have demonstrated their willingness to pursue professional discipline of medical professionals
who violate state laws, such as the Texas Medical Practice Act. See, e.g., Emory v. Texas State Bd. of
Med. Examiners, 748 F.2d 1023, 1025 (5th Cir. 1984) (violation of federal law by plaintiff triggered
h[o]ld a hearing in [

] absence and cancel[] his [medical] license ; Andrews v.
18

App.25

Ballard, 498 F. Supp. 1038, 1041 (S.D. Tex. 1980).

rior demonstrated willingness to

enforce anti-abortion laws through health officials and actual use of disciplinary proceedings against
medical professionals who violate laws that trigger such discipline is sufficient to establish that the
SAD have a demonstrated willingness to enforce S.B. 8 through health officials.
The parties do not dispute that the SAD have the authority to enforce Section 4 but rather
dispute whether the SAD have demonstrated a willingness to enforce the provision. See S.B. 8 § 4
(adding § 30.022, making Plaintiffs liable
Texas abortion restriction.). The Court rejects the

argument that they have not demonstrated

their willingness to enforce Section 4 because
be impossible for them to have already requested fees in this case or any other one related to S.B. 8
since the law has not yet taken effect. Furthermore, Plaintiffs may bring a pre-enforcement challenge
. (Reply,
Dkt. 63, at 5 6); see Susan B. Anthony List v. Driehaus, 573 U.S. 149, 164 (2014).
Indeed, the Provider Plaintiffs have demonstrated that the SAD have the power to exert

Provider Plaintiffs for violations of Texas law triggered by failure to comply with S.B. 8, and as
explained above, the SAD have previously defended their authority to enforce abortion restrictions.
Because the SAD have demonstrated their willingness to enforce abortion restrictions and may
enforce the slew of disciplinary, administrative and civil actions triggered by a violation of S.B. 8
six-week ban, the Provider Plaintiffs have sufficiently alleged that the SAD have more than
authority to enforce Sections 3 and 4 of S.B. 8 so as to satisfy Ex Parte
Young. City of Austin, 943 F.3d at 1000
.

19

App.26

For all these reasons, the Court finds that the

enforcement authority under S.B. 8

places them within the Ex parte Young exception to sovereign immunity as to the
claims against them.
2. Standing
The SAD also move to dismiss the Provider
standing. (Dkt. 48, at 9). First, the SAD argue that the Provider Plaintiffs have failed to plead an
imminent or ripe

al

time since the law has not taken effect. (Id. at 11 12). In the absence of a cognizable injury, the
claims fail for lack of standing, or alternatively, for lack of ripeness.
(Id. at 11 15). The SAD further argue that the Provider Plaintiffs lack third-party standing to bring
claims on behalf of their employees. (Id.
arguments in turn.
a. Cognizable injury and Ripeness
The SAD argue that Plaintiffs have not alleged a plausible threat of enforcement of S.B. 8 by
. (Id. at 12). They rely
on essentially the same arguments to suggest that this suit is not ripe since S.B. 8 has not taken effect
and, as such, the Provider Plaintiffs have not faced any enforcement actions. (Dkt. 48, at 12 13;
Reply, Dkt. 63, at 8).
The SAD first contend that the Provider

under Section 3 rely on a

because any such a disciplinary proceeding by the SAD would first require
a violation of S.B. 8 that is reported the applicable state agency, and would then have to decide to
investigate the violation and to impose liability on the offender. (Dkt. 48, at 12) (citing Clapper v.
, 568 U.S. 398, 410 (2013)). The SAD further argue that the Provider
claim is not ripe for the same reason

ontingent on multiple future
20

App.27

Id. at 13). The Provider Plaintiffs respond that they have demonstrated an imminent and
ripe injury stemming from the potential administrative actions the SAD may initiate against the
Provider Plaintiffs. (Dkt. 56, at 20). Because the Provider Plaintiffs provide abortions that will be
banned once S.B. 8 takes effect, they will either have to violate S.B. 8 and await disciplinary actions
against them by the SAD or cease to provide what they believe to be constitutionally-protected
healthcare, causing harm to their patients. (Id. at 21). Furthermore, the Provider Plaintiffs assert that
they need not wait until S.B. 8 takes effect, violate S.B. 8 by continuing to serve their patients, and
then face enforcement actions by the SAD in order to demonstrate an impending injury

especially

given that the SAD have not disavowed their ability or intent to enforce S.B. 8 through its public
enforcement mechanism. (Id. at 21) (citing MedImmune, Inc. v. Genentech, Inc., 549 U.S. 118, 128 29
(2007); Roark & Hardee LP v. City of Austin, 522 F.3d 533, 542 (5th Cir. 2008)).
The Provider Plaintiffs further
the SAD suggest because they are required to report healthcare-related lawsuits to licensing
authorities and private citizens may file complaints with the relevant disciplinary agencies and have
done so in the past. (Dkt. 56, at 22) (Linton Decl., Dkt. 19-

We thus expect complaints and

lawsuits filed against us and the staff if we provide abortions, including permitted abortions, after
September 1.

-3, at 3

are regularly harassed by anti-

abortion vigilantes, who file false complaints with licensing authorities to trigger government
investigations.

(Ferrigno Decl., Dkt. 19-

These protesters have also filed false complaints

against our physicians, attempting to provoke an investigation by the Texas Medical Board. We
typically have one complaint filed against a physician at each clinic every year
Dkt. 19-

I understand that my staff and I would risk ruinous licensure consequences,

because a violation of SB 8 could also trigger disciplinary action by the Texas Medical and Nursing
Board, and that the clinic could likewise potentially lose its license.
21

App.28

the Provider Plaintiffs

face a credible threat of enforcement whether they violate S.B. 8 or not beginning September 1, they
have alleged a cognizable injury for standing purposes and their Section 3 claims are ripe for
resolution.
The Provider Plaintiffs further argue that they have demonstrated standing a
fee-shifting provision because they face a credible threat of a future action for fees under S.B. 8,
which will immediately chill their First Amendment right to petition the courts to vindicate their
constitutional rights. (Dkt. 56, at 19) (citing Gilbert Decl., Dkt. 19ability to bring cases or present claims to vindicate the rights of ourselves and our patients, due to
fears that if we are not 100% successful, there will be serious financial consequenc
correctly point out that while their injury cannot be a byproduct of the current litigation, here the
Provider Plaintiffs challenge the constitutionality of the fee-shifting provision itself and the harm it
is likely to cause them, even in the instant action. (Dkt. 56, at 19 20) (citing Diamond v. Charles, 476
U.S. 54, 70 (1986); see also

, 695 F.3d 330, 341 (5th Cir.

2012).
Members of the Provider Plaintiffs submitted declarations averring that the possibility of fee
awards in S.B. 8 cases will have a chilling effect on their ability to engage in constitutionalityprotected activity, which is sufficient to establish an impending injury-in-fact for the purposes of
standing. (Dkt. 56, at 20); (Lambrecht Decl., Dkt. 19impact that S.B. 8. will have on the arguments we bring in litigation [due to] the possibility of huge
legal bills . . . every time we bring a claim that is well-founded and in g
Dkt. 19-11) (

;

Funeral Consumers, 695 F.3d at

and costs) is

related to this injury-in-fact because the plain language and undisputed purpose of the mandatory
22

App.29

dants from violating antitrust laws)
helps prevent the violation of the legally protected right. ).
Although the SAD emphasize that the Provider Plaintiffs have not identified any fee
requests or threats of such a request by the SAD, yet since S.B. 8 does not take effect until
September 1, it would be impossible for the Provider Plaintiffs to allege as much. (Dkt. 63, at 7).
The SAD also argue that the existence of the present lawsuit indicates that the Provider
ability to bring lawsuits challenging abortion restrictions will not be chilled by S.B. 8. (Id.). That is
not a logically sound argument. The Provider Plaintiffs specifically brought this lawsuit prior to S.B.
8 taking effect to prevent such a constitutional violation. (See Compl., Dkt. 1, at 46). Furthermore,
the Provider Plaintiffs may establish standing in a pre-enforcement suit challenging the
constitutionality of a state law by alleging a threat of future enforcement. See Susan B. Anthony List,
573 U.S. at 164 (credible threat of future enforcement sufficient to establish standing in preenforcement action); Holder v. Humanitarian L. Project, 561 U.S. 1, 15 16 (2010) (finding standing in a
pre-enforcement action). As noted above, the Provider Plaintiffs have demonstrated a credible
threat of an impending injury once S.B. 8 takes effect on September 1, and as such have
demonstrated that they have standing to challenge Section 4. (See, e.g., Gilbert Decl., Dkt. 19-1, at
11).
b. Third-party Standing
The SAD next argue that the Provider Plaintiffs have failed to demonstrate either
organizational or third-party standing to bring their claims on behalf of their employees and staff.
(Dkt. 48, at 15). As noted above, however,
-or-controversy
Tex. Democratic Party, 2020 WL 5422917, at *4 (5th Cir. Sept. 10, 2020); Planned
Parenthood of Greater Tex. Surgical Health Servs. v. Abbott, 748 F.3d 583, 589 (5th Cir. 2014). Here, at
23

App.30

least one of the physician-parties has standing to seek relief against each of the SAD based on their
performance of abortions S.B. 8 purports to ban. (See Gilbert Decl., Dkt. 19-

a

Staff Physician. . . [b]ecause S.B. 8 allows almost anyone to sue me, Southwestern, and the staff who
work with me, I fear that I will be subject to multiple frivolous lawsuits that will take time and
emotional energy

and prevent me from providing the care my pregnant patients need.

(Kumar

Decl., Dkt. 19-

other plaintiffs asserting the same claim for the purposes of issuing injunctive and declaratory relief.
Horne v. Flores, 557 U.S. 433, 446 (2009); Arlington Heights v. Metropolitan Housing Development Corp., 429
U.S. 252, 264, n.
standing

f who has demonstrated

ecause of the presence of this plaintiff, we need not consider whether the other

individual and corporate plaintiffs have standing to maintain the suit.
To the extent the Provider Plaintiffs are required to establish third-party standing for the
purposes of obtaining injunctive and declaratory relief on behalf of their employees, they have made
such a showing because the Provider Plaintiffs have demonstrated that they

their own rights. Kowalski v. Tesmer, 543 U.S. 125, 130 (2004).
First, the Provider Plaintiffs argue that under Fifth Circuit precedent, they may bring claims
on behalf of their employees because their int

While the SAD claim
that the

administratively sanction them

sufficiently aligned with their regulated employees

Provider Plaintiffs attached to their response several
24

App.31

(Dkt. 63,
at 10); (Dkt. 56, at 24) (Lambrecht Decl., Dkt. 19-5, at 8
care because serving patients was their calling. . . . S.B. 8 will prevent PPGTSHS and our dedicated
-7, at 6) (
physicians and staff will have to choose between subjecting themselves to these lawsuits or turning
10

As such, the Court finds

that the Provider Plaintiffs interests are sufficiently aligned with those of their employees so as to
confer third-party standing. Campbell v. Louisiana, 523 U.S. 392, 397 98 (1998).
The SAD argue that the Provider Plaintiffs have not demonstrated that their employees face
because they have not alleged a First
Amendment injury on behalf of their employees. (Dkt. 63, at 9) (quoting Kowalski, 543 U.S. 130).
The Provider Plaintiffs have provided evidence of the

that impede their

employees from joining this litigation, as they face violence and harassment due to the nature of
their work, and as such, do not want their names publicly identified in a lawsuit, which may cause
25) (citing
Lambrecht Decl., Dkt. 19-

-ending harassment from opponents of

abortion. They pass through lines of protestors, yelling at them (and at patients), just to do their
-6, at 6

See also Sadler Decl., Dkt. 19impact on our clinics. Our staff are worried that the clinics will be forced to close and they will be out of a
without whom I could not
provide abortion services to our patients. As in other areas of medicine, these professionals provide several
10

(Braid Decl., Dkt. 19-9, at 3
continue to perform abortions prohibited by SB 8, the clinic and I, as well as all of the nurses, medical
assistants, receptionists, and other staff that assist with providing, scheduling, billing, and/or counseling for
25

App.32

are worried about being named in harassing lawsuit

see id.

relentless harassment from abortion opponents, including [opponents] trying to follow staff home. .
. . As a result of these threats, and the increasing volume of threats and harassment to abortion
providers more broadly

and the increasing severity of threats (including homicide)

Decl., Dkt. 19-10, at 5

we have had

and forced into a Texas court

far away from home to defend themselves, and they are frightened that defending these cases will
financially ruin them and their families. . . Staff endure endless harassment from opponents of
abortion. . . These protestors often video record staff and patients as they enter and exit the health
centers, and we worry they are writing down staff license plates and/or other identifying
11

Plaintiffs

The significant risks of harassment and S.B. 8 enforcement against the Provider
supports a finding they are hindered in their ability to bring claim on their own

behalf. See Campbell, 523 U.S. at 397 98 (third-party standing existed where
party named in lawsuit had
those not before the court).
The Court thus finds that the Provider Plaintiffs have sufficiently demonstrated that they
their employees for the purposes of this lawsuit, and their
employees are hindered from bringing these claims themselves due to the rampant harassment and
violence they face from anti-abortion opponents as abortion providers.

11

See also Planned Parenthood Se., Inc. v. Strange, 33 F. Supp. 3d 133

Wis., Inc. v. Van Hollen, 94 F. Supp. 3d 949, 982 83 (W.D. Wis. 2015),
Inc. v. Schimel
of abortion.).
26

App.33

Planned Parenthood of
hood of Wis.,

B.

to Dismiss

Defendants Jackson

also move to
them12 for lack of subject matter jurisdiction. (Jackson Mot.

Dismiss, Dkt. 49; Clarkston Mot. Dismiss, Dkt. 51). Plaintiffs filed a consolidated response to the

66, 67).
The Court will analyze the

motions to dismiss together as they are both

members of the state judicial system, and their arguments in support of the motions to dismiss
largely overlap. (See Jackson Mot. Dismiss, Dkt. 49; Clarkston Mot Dismiss, Dkt. 51). The Judicial
t cognizable under Article III
because there is no case or controversy since the Judicial Defendants play an adjudicatory role in
. (Dkt. 49, at 5; Dkt. 51, at 10) (arguing that there is no case or controversy
between Plaintiffs and

standing to bring their claims. (Dkt. 49, at 5; Dkt. 51, at 13). Finally, the Judicial Defendants argue
that Plaintiffs claims against them are barred by sovereign immunity. (Dkt. 49, at 6; Dkt. 51, at 22).

motions to dismiss in his own mo
(Dkt. 50, at 16 22), the Court will address them here.
1. Case or controversy
The
either Judge Jackson nor Ms. Clarkston have a personal

12

J
27

App.34

stake in the outcome of S.B. 8 enforcement suits, neither of th

capacity

he case or controversy requirement of Article III of the

Constitution require
Bauer v. Texas, 341 F.3d 352, 359 (5th Cir. 2003).
The Judicial Defendants argue that their legal interests are not adverse to those of Plaintiffs
because their role in S.B. 8 enforcement actions is purely related to the adjudication of claims
brought under the law. (Dkt. 49, at 4); (Dkt. 51, at 11) (citing Bauer, 341 F.3d at 361

Section 1983

icative capacity, any

; (Dickson Mot. Dismiss, Dkt. 50, at 16 17). 13 The
Judicial Defendants further cite to Chancery Clerk of Chickasaw County v. Wallace for the proposition
that because state judges and clerks have no personal stake in the outcome of S.B. 8 enforcement
actions, they lack the requisite adversity to Plaintiffs, who as here, challenge the constitutionality of a
state statute. (Dkt. 51, at 11 12); 646 F.2d 151 (5th Cir. 1981). Plaintiffs respond that because

constitutional rights, the Judicial Defendants have demonstrated their personal stake in S.B. 8. (Dkt.
62, at 30 38). And because there are no other governmental authorities tasked with enforcement of
S.B. 8, Plaintiffs have demonstrated that their interests are sufficiently adverse to those of the
(Id.).

itation in any S.B.
8 case brought in her district renders
Jackson. (Dkt. 51, at 11).
However, unlike a postal carrier, who merely transmits a message, here Clarkston will exert coercive power
over defendants in S.B. 8 actions by issuing citations against them. Tex. R. Civ. P. 99(a).
13

28

App.35

Initially, the Court notes that Plaintiffs have likely demonstrated that their claims against the
requirement because while Judicial
Defendants have indicated that they believe they must accept and adjudicate private enforcement
actions brought under S.B. 8, Plaintiffs on the other hand claim that any such action would violate
their constitutional rights. (Dkt. 62, at 30; Clarkston Mot. Dismiss, Dkt. 51; Jackson Mot. Dismiss,
Dkt. 49). See Aetna Life Ins. Co. of Hartford v. Haworth, 300 U.S. 227, 242 (1937). 14
Moreover, in contrast to the cases cited by the Judicial Defendants, where the Fifth Circuit
found judges to be improper defendants in Section 1983 challenges to state statutes where other
government defendants were more properly named, here there are no other government enforcers
against whom Plaintiffs may bring a federal suit regarding S.B.

constitutionality. While in Wallace

and Bauer the Fifth Circuit found that state judges were not the proper defendants because other
state officials were more appropriately named as defendants due to their enforcement activities, here
S.B. 8 forecloses
this challenge.15 Bauer, 341 F.3d at 359

Our decision today does not foreclose Bauer or others from

directly challenging the constitutionality of Texas s guardianship statutes, as it does not reach the
question of whether these statutes are constitutional.

Wallace, 646 F.2d 151 (allowing plaintiffs to

While
adjudicating cases under S.B. 8, this assertion is belied by
press conference indicating that
to
seeing . . . the voice and vote of pro-1, at 4).
15 State Senator Bryan Hughes, a legislative sponsor of S.B. 8 has admitted that the legislature deliberately
14

4 Press Conf. Tr, Dkt. 53-1, at 5). S
because, like the recent Lubbock, Texas
-1, at 3).
29

App.36

the requisite personal stake in defending the state s interests
state civil commitment procedures).
Furthermore, courts have acknowledged that state judges may be proper defendants in
constitutional challenges to state statutes where, as here, it is not possible to enjoin any
parties with the authority to seek relief under the statute. In re Justices of the Supreme Court of Puerto
Rico, 695 F.2d 17 (1st Cir. 1982). Here, the naming of the Judicial Defendants is
Plaintiffs to seek fu

for

for the alleged violations of their constitutional rights that will occur if

the Judicial Defendants use their authority to force Plaintiffs to participate in S.B. 8 enforcement
actions. Id. at 23; see also Mitchum, 407 U.S. at 242

[F]ederal injunctive relief against a state court

proceeding can in some circumstances be essential to prevent great, immediate, and irreparable loss
).
Recognizing that their arguments would essentially prohibit Plaintiffs from naming any state
official in a federal lawsuit challenging the constitutionality of a state statute structured like S.B. 8,
the Judicial Defendants suggest that Plaintiffs should instead wait to be sued in state court, and then
raise the defenses available to them under S.B. 8 in such an enforcement action. (Dkt. 51, at 12).
This argument sidesteps the fact that if this Court were to dismiss the Judicial Defendants for lack of
a case or controversy, Plaintiffs would have no avenue to challenge the constitutionality of S.B. 8
outside of an enforcement action brought against them under S.B. 8

an action Plaintiffs allege

would violate their constitutional rights in the first place. (Dkt. 62, at 38). Even within an
enforcement action, Plaintiffs

to raise the defense that the law is unconstitutional is severely
. Tex. Health & Safety Code §§ 171.208(e)(2),

(3), 171.209(b).16

... a
unconstitutional or were unconstitutional. . . a

16

defendant
defendant
30

App.37

Although the Judicial Defendants are correct that state courts can consider constitutional
issues, the Court finds troubling
efenses available to them under the [same] statute when
is that S.B. 8 cannot be enforced against them at all without violating the
Constitution. (Dkt. 51, at 12). Because there are no other state officials against whom Plaintiffs
state judicial
defendants may be properly named in federal suits seeking equitable relief to vindicate federal
constitutional rights, the Court finds that the Judicial Defendants are sufficiently adverse to Plaintiffs
.17

in S.B. 8 actions

Furthermore, the Court finds that the Judicial Defendants play an enforcement role in S.B. 8
and thus are not immune from suit under Bauer, which only applies where judges a
adjudicative

341 F.3d at 361

purely in their
immune

from suits for declaratory or injunctive relief

that court decision had not been overruled when the defendant engaged in conduct that violates this
See, e.g., WXYZ, Inc. v. Hand, 658 F.2d 420, 427 (6th Cir. 1981) (affirming issuance of permanent injunction
against Michigan state court judge who was required by statute to issue a suppression order in a criminal
Caliste v. Cantrell, Civ. No. 17-6197,
2017 WL 6344152, at *3 (E.D. La. Dec. 12, 2017) (awarding declaratory relief and later entering a consent
decree against a magistrate judge of Orleans Parish who under Louisiana state law received a set percentage of
any bond amount collected from a forrole in setting bail and managing generated funds),
, 937 F.3d 525 (5th Cir. 2019); Strawser v. Strange, 100 F.
Supp. 3d 1276 (S.D. Ala. 2015) (awarding declaratory and injunctive relief against a defendant class of
Alabama probate judges who were directed by Alabama law to refuse to issue marriage licenses to same-sex
couples or recognize their out-of-state marriages); Tesmer v. Granholm, 114 F. Supp. 2d 603, 616 18, 622 (E.D.
Mich. 2000) (awarding declaratory relief initially, and injunctive relief subsequently, against a defendant class
of state court judges who were directed by a state statute to deny appellate counsel to indigent criminal
defendants who plead guilty),
, 333 F.3d 683 (6th Cir. 2003) (en
banc),
Tesmer, 543 U.S. 125 (2004); Kendall v. True, 391 F. Supp. 413, 420
(W.D. Ky. 1975) (awarding declaratory and injunctive relief against a class of county circuit court judges who
oversaw civil commitment proceedings pursuant to procedures set forth by Kentucky law); Blick v. Dudley, 356
F. Supp. 945, 953 54 (S.D.N.Y. 1973) (awarding injunctive relief against Administrative Judge and Chief
17

because only the clerks could expunge the records).
31

App.38

LeClerc v. Webb, 419 F.3d 405, 414 (5th Cir.
2005). Not only are the Judicial Defendants the only state officials tasked with directly enforcing S.B.
8 against Plaintiffs, but Jackson has even publicly stating that he is one
-1, at 4).

e

enforcement power state courts wield under S.B. 8, coupled with the provisions of S.B. 8 that so
obviously skew in favor of claimants, bring this case outside the scope of cases where the Fifth
Circuit has found that state judicial officers acted purely in their adjudicatory roles.
For example, while the Bauer court found that judges played a purely adjudicatory role in the
statute at issue in part because of the

before a guardianship could

be imposed,
341 F.3d 361. In fact, S.B 8 does just the opposite by purporting to dictate how state courts hear
S.B. 8 enforcement actions, including by eliminating non-mutual issue preclusion and claim

non-binding precedent or even assess whether a claimant has been injured 18 by a violation of S.B. 8.
See S.B. 8 § 5 (to be codified at Tex. Gov. Code § 311.036); Tex. Health & Safety Code §§
171.209(c), (d)(2)). Because Jackson has declared his enforcement authority under S.B. 8 and the
Judicial Defendants play a role in S.B. 8 cases that is more than purely adjudicatory, S.B. 8 renders
the Judicial Defendants judicial enforcers of S.B. 8 rather than neutral adjudicators. Id.; see, e.g., S.B. 8
§ 171.211.
Here, Plaintiffs have alleged that the Judicial

to

their own so as to satisfy the case of controversy requirement under Article III.

The Court finds it somewhat ironic that Judicial Defendants argue that Plaintiffs cannot show injury-in-fact
to support standing to challenge S.B. 8, a law that purports to remove such a requirement from private
enforcement proceedings brought under the law.
18

32

App.39

2. Sovereign Immunity

sovereign immunity. (Dkt. 49, at 6 8; Dkt. 50, at 17; Dkt. 51, at 22).19 Jackson contends that while
Ex Parte Young allows for equitable causes of action to be brought against state officials who act
this authority does not include the power to enjoin state courts.
(citing Ex Parte Young, 209 U.S. at 163.). Even if injunctive relief were available against state courts,
Jackson argues that the lack of sufficient statutory enforcement authority under S.B. 8 excludes him
from the Ex Parte Young exception. (Id. at 8) (citing City of Austin v. Paxton, 943 F.3d 993, 1000 (5th
Cir. 2019)). Dickson further contends that the Judicial Defendants cannot be sued under Ex Parte
Young

waiting to see if someone files a

lawsuit under Senate Bill 8

Instead, Dickson argues that Jackson could only be

sued under Ex Parte Young once he hears an enforcement

enters an actual

ruling that
Plaintiffs respond that the Judicial Defendants are not entitled to sovereign immunity
because they are sued in their official capacities to prevent future actions to enforce an allegedly
unconstitutional law. (Dkt. 62, at 28) (citing Green Valley Special Util. Dist. v. City of Schertz, 969 F.3d
460, 472 73 & n.22 (5th Cir. 2020); Warnock v. Pecos Cnty., 88 F.3d 341, 343 (5th Cir. 1996) (claims
against Texas judges seeking prospective relief against violations of federal law are not barred by
sovereign immunity). Indeed, as noted above, forcing Plaintiffs to wait until a state enforcement
action is brought against them to raise their constitutional concerns would leave Plaintiffs without
the ability to vindicate their constitutional rights in federal court before any constitutional violation

19

Clarkston argues that she is also entitled to sovereign immunity by adopting the arguments of her co-

the same reasons as Judge Jackson, and Judge
33

App.40

occurs. Supreme Ct. of Virginia v. Consumers Union of U.S., Inc., 446 U.S. 719, 737 (1980) (reasoning

putative plaintiffs would have to await the institution of statecourt proceedings against them in order to assert their federal constitutional claims. ).
Plaintiffs further point out that under more recent precedent than that cited by Judicial
Defendants, the Fifth Circuit has found that the availability of relief under Ex Parte Young, which
o sue a state official, in his official capacity, in seeking to enjoin enforcement of a
state law that conflicts with federal law

to Section 1983 challenges against state judicial

actors who play a role in enforcing state statutes, even through ministerial duties. (Dkt. 62, at 42 43)
(citing Air Evac EMS, 851 F.3d at 515;

, 521 U.S. 261, 281 (1997);

Green Valley, 969 F.3d at 473 n.22; Finberg, 634 F.2d at 54

[C]ourts often have allowed suits to

enjoin the

);

Supreme Ct. of Virginia v. Consumers Union of U. S., Inc., 446 U.S. 719, 735.
For example, in Supreme Ct. of Virginia, a Virginia court and its chief justice were found to not
be

wn inherent and

statutory enforcement powers

446 U.S. 719, 735. In fact,

Section 1983 was designed to allow individuals to challenge unconstitutional actions by members of
state government, whether they be part of the
state government. Mitchum, 407 U.S. at 242 (emphasis added) (quoting Ex parte Virginia, 100 U.S. at
346). In 1996, Congress even amended Section 1983 to make clear that an action brought seeking
declaratory relief may be
l capacity, and injunctive relief may be brought against a judicial officer who violates
a declaratory decree or against whom declaratory relief is not available. 42 U.S.C. § 1983; see also
Pulliam v. Allen, 466 U.S. 522, 540 (1984) (noting that Congress enacted Section 1983 in part because
34

App.41

courts were being used to harass and injure individuals, either because the state courts were
powerless to stop deprivations or were in league with those who were bent upon abrogation of
federally protected right

).

enforcement mechanism brings them within the carveouts courts have created to allow Section 1983
challenges to laws to proceed against state court officials under the Ex Parte Young exception to
sovereign immunity.
3. Standing
The Judicial Defendants next cha
Plaintiffs have failed to meet the standing requirements of injury-in-fact, traceability, and
redressability. While the Judicial Defendants argue that Plaintiffs have failed to meet any of these
standing requirements, (Dkt. 49, at 5 6; Dkt. 51, at 13), Plaintiffs contend that they have met all
standing criteria as to their claims against the Judicial Defendants. (Dkt. 62, at 16).
a. Injury-in-fact
The Judicial Defendants first argue that Plaintiffs cannot show an impending injury-in-fact
because there is no immediate threat of enforcement actions. (Dkt. 51, at 14). The Judicial
Defendants emphasize that there are no currently pending actions under S.B. 8

of course,

there could not be since the law does not take effect until September 1. (Dkt. 51, at 14 15). Dickson
once again argues that since Plaintiffs have not specifically alleged that they plan to violate S.B. 8 or
identified who would bring an enforcement action against them for such a violation apart from
Dickson

. (Dkt. 50, at 20 21). However, as

explained above, there need not be a pending enforcement action against Plaintiffs to confer
Plaintiffs standing over claims alleging imminent constitutional harm once S.B. 8 takes effect. See
Section A(2)(a); See, e.g., Babbitt, 442 U.S. 289, 298; Susan B. Anthony List, 573 U.S. at 158.
35

App.42

they intend to violate S.B. 8, such as admission is not in fact required to demonstrate an injury-infact for standing purposes. SBA List, 573 U.S. at 163; MedImmune, 549 U.S. at 129.
Even if required to allege an intent to violate S.B. 8, Plaintiffs have stated that they provide
abortions that would violate the six-week ban
and other forms of support banned by S.B. 8. (Compl., Dkt. 1, at 9 12, 32). As such, Plaintiffs
argue, the threat of lawsuits stemming from enforcement actions brought by private citizens in
-in-fact sufficient to confer Article III standing. (Dkt. 62, at
17); K.P. v. LeBlanc

K.P. I , 627 F.3d 115, 123 (5th Cir. 2010) (injury established where

probability of future suits

sufficiently likely that the physicians will face liability for

abortion-related procedures.
given that S.B. 8 specifically targets Plaintiffs by making their primary activities
subject to enforcement actions before Judicial Defendants. (Dkt. 62, at 17); SBA List, 573 U.S. at
160 (quoting Babbitt, 442 U.S. at 302). In addition, Plaintiffs contend that having to defend
themselves in S.B. 8 enforcement actions is an injury in and of itself. (Dkt. 62, at 6 8, 18).
In response to Dickso
they have not identified who will bring enforcement actions, Plaintiffs identify the Texas Right to
encouraging individuals to sue abortion providers and abortion
funds

Seago Decl., Dkt. 50-2, at 1). Furthermore, Plaintiffs note that last
own counsel filed eight lawsuits20 in just one day against some of the Plaintiffs in this

Blackwell v. The Lilith Fund for Reprod. Equity, No. 2020-147 (Tex. Dist. Ct. Rusk Cnty., filed July 16, 2020);
Byrn v. The Lilith Fund for Reprod. Equity, No. 12184-D (Tex. Dist. Ct. Taylor Cnty., filed July 16, 2020); Enge v.
The Lilith Fund for Reprod. Equity, No. 20-1581-C (Tex. Dist. Ct. Smith Cnty., filed July 16, 2020); Gentry v. The
Lilith Fund for Reprod. Equity, No. CV2045746 (Tex. Dist. Ct. Eastland Cnty., filed July 17, 2020); Maxwell v.
The Lilith Fund for Reprod. Equity, No. C 2020135 (Tex. Dist. Ct. Hood Cnty., filed July 16, 2020); Moore v. The
Lilith Fund for Reprod. Equity, No. 2020-216 (Tex. Dist. Ct. Panola Cnty., filed July 16, 2020); Morris v. The Lilith
20

36

App.43

lawsuit in counties across Texas, including Smith County where the Judicial Defendants are
located

suggesting that it is far from speculative to assume that those intending to file S.B. 8

actions will do so in as many Texas counties as possible. (Dkt. 62, at 18 19).
The fact that S
credibility of

alleged harm as those who are politically opposed to Plaintiffs are

empowered to sue them for substantial monetary gain. (Dkt. 62, at 19) (citing Susan B. Anthony List,
573 U.S. at 156). Indeed, S.B. 8 incentivizes anti-abortion advocates to bring as many lawsuits
against Plaintiffs as possible by awarding private enforcers of the law $10,000 per banned abortion.
Tex. Health & Safety Code § 171.208(b). Furthermore, Defendants themselves have confirmed the
immediacy of the threat of S.B. 8 enforcement actions in state courts. (Seago Decl., Dkt. 50-2, at 1)
knowledge that there are several individuals who intend to sue the abortionprovider plaintiffs and the abortion-

; Dickson Decl., Dkt.

50-1, at 2

iduals who intend to sue

the abortion-provider plaintiffs and the abortion-fund plaintiffs if they defy Senate Bill 8. . . ). Given
that Plaintiffs have demonstrated that the threat of enforcement actions under S.B. 8 is credible and
imminent, the Court finds that they have sufficiently demonstrated an injury-in-fact for the purposes
of establishing standing to bring their claims against the Judicial Defendants.
b. Causation
The Judicial Defendants next argue that Plaintiffs lack standing because they cannot show
that their alleged injuries are traceable to Judicial Defendants since S.B. 8 specifically empowers
private citizens, rather than any member of the State, to enforce its provisions. (Dkt. 51, at 16 18).
Clarkston cites to Okpalobi v. Foster, 244 F.3d 405, 426 27 (5th Cir. 2001) (en banc), and K.P. v.

Fund for Reprod. Equity, No. 200726270 (Tex. Dist. Ct. Hockley Cnty., filed July 16, 2020); Stephens v. The Lilith
Fund for Reprod. Equity, No. 12678 (Tex. Dist. Ct. Franklin Cnty., filed July 16, 2020).
37

App.44

LeBlanc

, 729 F.3d 427, 437 (5th Cir. 2013), for the proposition that any injury to Plaintiffs

caused by S.B. 8 enforcement actions is not fairly traceable to the Judicial Defendants because S.B. 8
statutorily tasks private citizens, rather than state officials, to enforce the six-week ban and feeshifting provisions. (Dkt. 51, at 17 22; Dkt. 50, at 21 22).
likewise not traceable to him since he has no authority to prevent a private plaintiff from bringing a
cause of action under S.B. 8. (Dkt. 49, at 6).
regarding causation, arguing that since

orcement action in

Smith County since he is not a resident there

ies are

independent actors not before the Court. (Dkt. 50, at 21 22).
Plaintiffs respond that their impending injuries are in fact traceable to the Judicial
Defendants because although only private parties may initiate the civil enforcement actions, the
Judicial Defendants actions will exert coercive authority over

forcing them into

unconstitutional enforcement actions
them to close their doors, regardless of whether the enforcement actions are ultimately successful.
(Dkt. 62, at 22 23; Compl., Dkt. 1, at 32, 35); see also Strickland v. Alexander, 772 F.3d 876, 885 86
(11th Cir. 2014) (injury imposed on plaintiff through garnishment proceeding fairly traceable to
docketing the garnishment affidavit [and] issuing
the summons of garnishment ; De Leon v. Perry, 975 F. Supp. 2d 632, 646 (W.D. Tex. 2014).
Plaintiffs further point out that absent relief from this Court, the Judicial Defendants will
take coercive actions to enforce S.B. 8 against them when private civil suits are filed in their courts.
(Dkt. 62, at 22 23). For example, Defendant Clarkston has stated that she will docket cases and
issue citations filed under S.B. 8 as is required by her under state law. (Dkt. 62, at 22) (citing Tex. R.
the filing of the petition, the clerk . . . shall forthwith issue a citation[.]
Similarly, the proposed defendant class of judges are charged with imposing sanctions under S.B. 8
38

App.45

that include injunctive relief and monetary penalties, which Plaintiffs similarly argue are coercive
enforcement actions by the State that will at least in part
23) (citing S.B. 8 § 171.208(b) (judges in
as well as monetary pe
).
Plaintiffs also contend that the involvement of private parties in the enforcement of S.B. 8
does not negate the role the Judicial Defendants will play in causing Plaintiffs
state-law duty to act on enforcement petitions submitted to them
makes them part of the injurious causal chain. (Dkt. 62, at 23) (citing K.P. I, 627 F.3d at 122 23;
Okpalobi, 244 F.3d at 426). Indeed, while only private individuals can file enforcement actions under
S.B. 8, it is only the Judicial Defendants who will exercise their coercive power on behalf of the State
to force Plaintiffs to participate in lawsuits they believe to be unconstitutional. (Dkt. 62, at 24) (citing
Strickland, 772 F.3d at 886). The
injuries nor do they need to be involved in every step of the causal chain to properly establish
causation. Instead, Judicial Defendants need only be

would contribute to

involvement. K.P. I., 627 F.3d at 123; Durham v. Martin, 905 F.3d 432, 434 (6th Cir. 2018)

Even if

that is, [plaintiff]
expulsion by the legislature

[plaintiff] still has standing to sue the administrators for their actions in

carrying out those consequences.

Strickland, 772 F.3d 886. Here, the Judicial Defendants are

integral in executing S.B. 8 enforcement measures by coercing Plaintiffs to participate in such suits
and issuing relief against those who violate S.B. 8. (Dkt. 62, at 24). Indeed, the Judicial Defendants
may be one of many individuals who may cause harm to Plaintiffs through S.B. 8, but that does
negate their role in causing the injuries Plaintiffs have alleged. Mitchum v. Foster, 407 U.S. 225, 242
39

App.46

(1972) (federal actions against state judges are particularly appropriate where risk of
).
Because Plaintiffs have alleged that Judicial Defendants will contribute to their injuries by
private enforcement suits, Plaintiffs have sufficiently
alleged that their injuries are traceable to Judicial Defendants so as to support a finding of standing.
c. Redressability
The Judicial Defendants further argue that any declaratory relief issued by this Court would
not redress the harm to Plaintiffs because they do not have the power to reject or refuse to
adjudicate lawsuits. (Dkt. 51, at 21). Clarkston suggests that any order from this Court requiring her
to decline to docket cases brought under S.B. 8
evaluate the legal basis for every single case filed in Smith
County (Dkt. 51, at 20). Because Clarkston is charged under state law with filing any lawsuit
initiated in Smith County, she argues that any order from this Court declaring S.B. 8 unenforceable
in state courts would force her to violate state law and threaten the principles of federalism. (Dkt.
51, at 20 21).
Plaintiffs respond that their injuries are in fact redressable by an order from this Court
enjoining the Judicial Defendants from initiating or adjudicating private enforcement actions under
S.B. 8. (Dkt. 62, at 26). For example, Plaintiffs argue that an order enjoining the proposed class of
clerks from docketing or issuing citations for any petitions for enforcement brought under S.B. 8
by preventing them from being forced to participate in a state
court proceeding initiated under an allegedly unconstitutional law. (Dkt. 62, at 26). 21 In addition,

21

See, e.g., Air Evac EMS, 851 F.3d at 514 (injunction against the state defendants involved in causing the

772 F.3d at 886 (injury could be redressed if the court were
requested
40

App.47

Plaintiffs argue that an order declaring S.B. 8 unconstitutional would deter private parties from
bringing enforcement actions under the law in the first place and would presumably preclude
Judicial Defendants from adjudicating lawsuits under a law declared unconstitutional. (Dkt. 62, at
27). Indeed, in Roe v. Wade, the Supreme Court issued only declaratory relief under the assumption
Texas prosecutorial authorities will give full credence to this decision that the present criminal
The Court assumes
any declaratory relief issued in this case would have the same impact on Judicial Defendants here.

injunction would force her to violate her state law duty to docket cases filed in her county. (Dkt. 51,
at 19 20). Yet
duty to act according to the Constitution, and in any event, an order from this Court would require
Air Evac EMS, 851 F.3d at 516. To the extent
her duty to act in accordance with the U.S. Constitution conflicts with her duties to docket petitions
and issue citations under state law, her state law duties must yield to federal law. Aldridge v. Mississippi
Dep t of Corr., 990 F.3d 868, 874 (5th Cir. 2021) ( [A]ny state law, however clearly within a State s
) (internal
citations removed).

ding the Constitution would present

a federalism issue, state officials are never absolved from violating the Constitution merely because
their state-mandated duties require them to act in an unconstitutional manner. Nashville Cmty. Bail
Fund v. Gentry, 446 F. Supp. 3d 282, 301 (M.D. Tenn. 2020).
argument that she is incapable as a non-lawyer of identifying petitions brought under S.B. 8

even if

she were incapable of reading a petition to identify whether it was brought under S.B. 8, she may

Kitchen v. Herbert, 755 F.3d 1193,

1201
41

App.48

obtain guidance from the state attorney general with regard to how to implement any injunction
from this Court. See Campaign for S. Equal. v. Bryant, 197 F. Supp. 3d 905, 909 (S.D. Miss. 2016).
Clarkston relies on Okpalobi to support her argument that Plaintiffs do not have standing to
sue public officials in challenges to laws that create private rights of actions against abortion
providers. 244 F.3d at 426 27. In Okpalobi,

general in a suit challenging the constitutionality of a statute creating tort liability against physicians
who provide abortions because the governor and attorney general played no role in the private tort
lawsuits. 244 F.3d at 409, 429. Clarkston also relies on K.P. II, where the Fifth Circuit held that the
same abortion providers could not challenge the same law by suing members of the oversight board
that reviewed patient tort claims to determine whether they would be covered by a medicalmalpractice fund because the board was not charged with enforcing the tort actions. 729 F.3d at 437.
Here, in contrast, the Judicial Defendants are involved in the S.B. 8 private enforcement actions in a
way that none of the defendants in Okapalobi and K.P. II were so as to support causation for the
purposes of standing, and the absence of other appropriate state official defendants means the
Judicial Defendants are the only state officials against whom relief from this Court might redress

In addition, Plaintiffs point out that in K.P. I, the Fifth Circuit found that abortion providers
had standing to sue members of an oversight board in a challenge against the same tort liability
provisions because under the statute the board could deny plaintiffs state-sponsored medical
malpractice coverage. 627 F.3d 115 (5th Cir. 2010). The Fifth Circuit found that causation was
satisfied because the board members, although unable to bring tort claims under the Louisiana law,
had the

s
wield influence at multiple points in the
42

App.49

Id. Here,
8, and

declaratory relief defining their constitutional obligations with respect to Plaintiffs would serve to
redress Plaintiffs alleged harm. Air Evac, 851 F.3d at 515 6. Accordingly, Plaintiffs have established
the requisite causal connection between their alleged harm and the Judicial Defendants because the
Judicial Defendants have coercive power over Plaintiffs in S.B. 8 enforcement actions.
Furthermore, the Court once again notes that the Fifth Circuit has never stated that there is
no proper defendant in challenges to anti-abortion laws that create private rights of action, but
rather that the defendants named in previous lawsuits were not properly named due to their lack of
enforcement power. See K.P. I, 627 F.3d at 124; Wallace, 646 F.2d 160. The Court thus does not read
these cases to say that Plaintiffs cannot name any state official whatsoever in their suit, as suggested
by the Judicial Defendants here. Such a finding would countenance any stratagem to relegate
enforcement of state laws to judges so as to avoid federal court review of unconstitutional state
statutes. As such, absent guidance from the Fifth Circuit or the State regarding who would be the
proper government defendant in a lawsuit challenging the constitutionality of a state statute
primarily enforced through a private actors, the Court must find that the Judicial Defendants are the
proper defendants here. To find otherwise would be to tell Plaintiffs that there is no state official
against whom they may bring a challenge in federal court to vindicate their constitutional rights.
d. Prudential Standing
Clarkston further argues that even if Plaintiffs have demonstrated the three elements of

impermissibly monitor the
(Dkt. 51, at 15 16) (citing Bauer, 341 F.3d at 358). However,

to clarify the Judicial

and avoid violating

43

App.50

Plaintiffs rightly argue that all state statutes must be enforced through some form of State
its legislative, its executive, or its judicial authorities.
(citing Shelley v. Kraemer, 334 U.S. 1, 14 (quoting Ex parte Virginia, 100 U.S. 339, 347 (1880)). Because
the State has crafted S.B. 8 in such a way as to purposefully avoid enforcement by the legislative or
executive branches of the government, the only State authority able to enforce the law are members
of the proposed classes of Judicial Defendants who exert their official power to open the actions in
the docket and issue citations compelling those sued under S.B. 8 to respond to the lawsuit
exert the compulsive power of the state to force those sued under S.B. 8 to comply with the statute
through an injunction and other penalties. (Dkt. 62, at 12) (citing S.B. 8 § 171.208(a) (b)). As such,
lone government officials
responsible for directly coercing compliance with S.B. 8
this action. (Dkt. 62, at 12).
The Court agrees that absent further instruction from the State or the Fifth Circuit regarding
who would be the proper the defendant in this pre-enforcement suit for equitable relief, the Court
finds that Supreme Court precedent dictates that the Judicial Defendants are the proper defendants.
Shelley v. Kraemer, 334 U.S. 1. Indeed, the Judicial Defendants are the only members of the State
immediately connected with the enforcement of S.B. 8 and an order from this Court precluding
them from instituting or adjudicating private enforcement actions under S.B. 8 would serve the
Indeed

there is no one [from the

State] who can be sued to block enforcement

the law was drafted to avoid

federal review of its constitutionality. (Dkt. 62, at 14).
C. Dickson Motion to Dismiss
D

because S

provision requires Plaintiffs to establish standing as to every provision of S.B. 8 and that, in any
44

App.51

event, Plaintiffs have failed to meet show an injury-in-fac
enforcement mechanism. (See Dickson Mot. Dismiss, Dkt. 50). Plaintiffs filed a response, (Dkt. 57),
and Dickson filed a reply. (Dkt. 64).
1. Severability
Dickson argues that because S.B. 8 contains severability provisions, Plaintiffs must allege an
injury with regard to each provision of the law to establish standing over their claims against him.
(Dkt. 50, at 7 10) (citing Senate Bill 8, 87th Leg., §§ 3, 5, 10)). Because certain provisions of S.B. 8
are not
those provisions as against him. (Dkt. 50, at 9). According to Dickson, Plaintiffs only have standing
in connection with Sections 3 and 4 of S.B. 8, which empower private citizens to bring lawsuits and
those who participate in abortions the law purports to ban. (Id.)
Only sections 3 and 4
civil litigation and those are the only provisions in Senate Bill 8 that the plaintiffs can conceivably
challenge in a lawsuit against Mr. Dickson.
Yet as Plaintiffs point out, the issue of severability is a question of remedy, [to be]
considered only after a legal violation has been established on the merits.
Ayotte v. Planned Parenthood of N. New England, 546 U.S. 320, 328 29 (2006)). Despite his insistence
unless it applies
requirements

tating that severability and

standing are not to be analyzed together. (Dkt. 50, at 8) (citing In re Gee, 941 F.3d 153, 160 (5th Cir.
2019). Indeed, in Gee, the Court assessed standing and severability separately, stating that
everability obviously governs the remedy after the finding of a constitutional violation; it plays no
part in finding a constitutional violation. Gee, 941 F.3d at 173; see also Ayotte v. Planned Parenthood of
N. New England, 546 U.S. at 328 29.
45

App.52

To the extent Dickson argues that Plaintiffs must demonstrate standing for each and every
provision they challeng

Plaintiffs have met this burden by showing they have standing as to

Sections 3 and 4, the only sections Plaintiffs challenge as against Dickson. (Compl., Dkt. 1, at 46);
Gee, 941 F.3d at 160.
to provisions of S.B. 8 that they do not challenge as against Dickson to sustain their claims against
him. Because the Court properly addresses severability after a constitutional violation has been
. Gee, 941 F.3d at 173.
Moreover, the Court notes that severability provisions do not necessarily preclude a finding that, if
six-week ban on abortions is found to be unconstitutional, other provisions of the law
found to be

provisions challenged here also would be unconstitutional.

See SisterSong Women of Color Reprod. Just. Collective v. Kemp, 472 F. Supp. 3d 1297, 1324 (N.D. Ga.
2020) (remaining provisions of Georgia abortion law with severability provision invalid where
.
2. Standing
Dickson next claims that Plaintiffs have no standing to bring their claims against him
because they have not demonstrated an impending injury-in-fact traceable to Dickson that could be
redressed by an injunction against him. (Dkt. 50, at 10 16).
Dickson first argues

iffs under Section 3 of S.B. 8

he is expecting each of the plaintiffs to comply with the statute rather than expose
themselves to private civil-enforcement lawsuits.
Plaintiffs have not indicated whether they intend to violate S.B. 8 when it takes effect, apparently

establish standing. (Dkt. 50, at 11 12). As such, Dickson argues that there is no impending injury

46

App.53

1).
Plaintiffs respond that they need not specifically allege that they plan to violate S.B. 8 to
establish standing and, in any event, have demonstrated a credible threat of enforcement by
Dickson. (Dkt. 57, at 13 14). Plaintiffs are correct that they need not allege they intent to violate a
challenged statute to confer standing. Indeed, the Supreme Court has repeatedly stated that plaintiffs
need not plead that they plan to violate a law to have standing to challenge its constitutionality. SBA
List, 573 U.S. at 163 (
); Holder v.
Humanitarian L. Project, 561 U.S. 1, 15 16 (2010) (finding standing in a pre-enforcement action based
on
Vantage Trailers, Inc. v.
Beall Corp., 567 F.3d 745, 748 (5th Cir. 2009). Dickson has cited no contrary authority, and the Court
thus rejects his argument that Plaintiffs have failed to properly allege an injury-in-fact against him by
not admitting that they will violate S.B. 8 after September 1.
Additionally, Dickson has demonstrated his intent to enforce S.B. 8 if Plaintiffs violate the
law. (Dickson Decl., Dkt. 50-1, at 1)

] that the mere threat of civil

lawsuits under section 171.208 will be enough to induce compliance
(Dickson Mar. 29, 2021 Facebook Post, Dkt. 57-2, at 7)

[S.B. 8] you will be able to

bring many lawsuits later this year against any abortionists who are in violation of this bill. Let me
know if you are looking for an attorney to represent you if you choose to do so. Will be glad to
id. at 4 (stating with respect to the then-pending S.B.
bill you will be able to bring many lawsuits later this year against any at WWH [i.e., Plaintiff Whole
; (Dickson May 5, 2021 Facebook Post, Dkt. 5747

App.54

tbeat Bill is being said to make everyone in Texas an attorney general going after
B

the private

enforcement of Section 3 should Plaintiffs continue to provide the banned abortions after
a significant possibility of
f

in the form of an enforcement action by Dickson under Section 3 to support their

standing against him. City of Austin v. Paxton, 943 F.3d 993, 1002 (5th Cir. 2019).
Dickson also argues that any alleged injury to Plaintiffs caused by

Section 3 cannot

be redressed by this Court because even if Dickson is enjoined from bringing an enforcement
enforcement actions under S.B. 8. (Dkt. 50, at
13 14). As Plaintiffs point out, however,

these [private] penalties and

demonstrated standing as to Dickson. (Dkt. 57, at 17) (citing Allstate Ins. Co. v. Abbott, 495 F.3d 151,
159 (5th Cir. 2007); see also Massachusetts v. EPA, 549 U.S. 497, 525 (2007)

[P]laintiff need not show

that a favorable decision

an

injunction preventing Dickson from bringing enforcement actions under S.B. 8 would redress their
injuries, at least in part, by preventing Dickson
on Plaintiffs.

suing and imposing significant litigation costs

Moreover, any injunction by this Court would serve
der S.B. 8 and allow

defendants in S.B. 8 proceedings in state court to bring counterclaims under Section 1983. (Dkt. 57,
at 18). Preventing Dickson and discouraging others from filing S.B. 8 enforcement actions would
also prevent the discrete harm of forcing Plaintiffs to shut down completely to comply with S.B. 8.
(Id. at 16 17).
Dickson similarly argues that Plaintiffs alleged injury under Section 4
confer standing because he has not been deemed a
48

App.55

n any relevant lawsuit and

Plaintiffs do not allege that he will be a prevailing party in this lawsuit. (Dkt. 50, at 14 15). Dickson

under 42 U.S.C. § 1988(b), rather than under
enforcing Section 4. (Dkt. 50, at 14

Dickson has not yet decided, however, whether he will sue

the plaintiffs under section 4 if he is unsuccessful in recovering fees under 42 U.S.C. § 1988(b)
Plaintiffs respond that Dickson has not disputed that Section 4

event Plaintiffs are not successful in every claim. (Dkt. 57, at 18 19). Plaintiffs argue that Dickson
Dickson has no colorable basis for
fees under Section 1988

nst him are well-founded. (Dkt. 57, at 19). The

Court agrees.
Fees are available to defendants under 42 U.S.C § 1988 only if the court finds the action is
. Christiansburg Garment Co. v. EEOC, 434 U.S. 412,
421 (1978). The Court finds that Dickson has not met

difficult standard

groundless or without foundation. Mitchell v. City of Moore, Oklahoma, 218 F.3d
1190, 1203 (10th Cir. 2000) (

standard to meet, to the point that rarely will a case
). Having withstood the

motions to dismiss phase against all Defendants,
par

an indisputably meritless legal theory, the Court

finds that Dickson will not be able to rely on Section 1988 to recover fees in this action. See Doe v.
Silsbee Indep. Sch. Dist., 440 F. App x 421, 425 (5th Cir. 2011)

[T]he dismissal of a plaintiff s claims

before they reach the jury is insufficient by itself to support a finding of frivolit
In any event, Dickson has demonstrated his intent to re
and in the absence of relief available to him under Section 1988, he will necessarily need to rely on
49

App.56

Section 4 in making such a request. (Dickson Decl., Dkt. 50-

If I am unsuccessful in

recovering fees under 42 U.S.C. § 1988(b) at the conclusion of this litigation, then I will consider at
that time whether to sue the plaintiffs under section 30.022 of the Texas Civil Practice and Remedies
Code, in consultation with my attorneys.

Moreover, as described above, Plaintiffs need not wait,

as Dickson su

to

recover fees under Section 1988 to seek a pre-enforcement remedy
future exercise of Section 4 in this case or others. See Susan B. Anthony List, 573 U.S. at 160.
Next, Dickson argues that Plaintiffs lack standing to seek an injunction to prevent
enforcement of S.B. 8 against parties not named in this lawsuit and in the absence of a plaintiff class,
which would presumably represent every person who might be sued under S.B. 8 in the future. (Dkt.
50, at 22
behalf of those not before this Court. (Dkt. 50, at 24). The Court finds that Plaintiffs have clearly
sought relief on behalf of themselves and do not purport to bring their claims on behalf of others
not before this Court. (Compl., Dkt.1, at 39 47). The Court
. Lastly, Dickson argues that this Court has
no power to formally revoke legislation or delay its effective start date
named defendants from enforcing the statute. (Dkt. 50, at 24 26). The Court again finds this
argument perplexing given that Plaintiffs have specifically sought an injunction preventing the
named defendants in this lawsuit from enforcing S.B. 8. (See, e.g., Dkt. 1, at 46) (requesting that the
permanent, and if necessary, preliminary injunctive relief . . . restrain[ing] Defendant
Mark Lee Dickson, his agents, servants, employees, attorneys, and any persons in active concert or
participation with him, from enforcing S.B. 8 in any way
unavailing. Accordingly, the Court finds that

Court finds this argument
s must be denied.

50

App.57

IV. CONCLUSION
For the reasons given above, IT IS ORDERED that

dismiss,

(Dkts. 48, 49, 50, 51), are DENIED.
SIGNED on August 25, 2021.

_____________________________________
ROBERT PITMAN
UNITED STATES DISTRICT JUDGE

51

App.58

United States Court of Appeals
for the Fifth Circuit
___________
No. 21-50708
___________

FILED

In re: Penny Clarkston; Mark Lee Dickson,
Petitioners.
______________________________
Petition for a Writ of Mandamus
to the United States District Court
for the Western District of Texas
USDC No. 1:21-CV-616
______________________________
Before Southwick, Graves, and Costa, Circuit Judges.
Per Curiam:
Petitioners seek a writ of mandamus primarily for the purpose of
requiring the petitioners to respond to a motion for summary judgment. We
do not further detail the petition. After entering an administrative stay,
which will end with this order, we received a response from the plaintiffs in
the case, a reply from petitioners, and a statement from the district court.
We conclude that the essence of what petitioners request is that this
court alter the schedule established by the district court for briefing. We
dismiss will be issued no later than any order as to summary judgment. We
do not
of a writ of mandamus simply to direct the timing of briefing.

App.59

21-50708

IT IS ORDERED that the administrative stay earlier entered by this
court is WITHDRAWN.
IT IS ORDERED that the petition for writ of mandamus is DENIED.
emergency motion to stay the district court proceedings is DENIED.

2

App.60

App.61

App.62

App.63

App.64

App.65

App.66

App.67

App.68

App.69

App.70

App.71

App.72

App.73

App.74

App.75

App.76

App.77

App.78

App.79

App.80

App.81

App.82

App.83

App.84

App.85

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
WHOLE WOMAN S HEALTH, et al.,
Plaintiffs,
v.
AUSTIN REEVE JACKSON, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

CIVIL ACTION
CASE NO. _______________

DECLARATION OF ALLISON GILBERT, M.D., IN SUPPORT OF
FOR SUMMARY JUDGMENT
ALLISON GILBERT, M.D., declares under penalty of perjury that the following
statements are true and correct:
1.

I am the Co-Medical
, a licensed ambulatory surgical center in Dallas. I am also a Staff Physician at

Southwestern.
for Summary Judgment

2.

offer are based on my education, training, and practical experience as an OB/GYN and an
abortion provider; my expertise as a doctor and abortion provider; my personal knowledge; my
review of Southwestern

business records and information obtained through the course of my

duties at Southwestern; and my research and familiarity with relevant medical literature
recognized as reliable in the medical profession.

1

App.86

My Background
3.

I am licensed to practice medicine in Texas, Alabama, and Massachusetts, and am

board-certified in Obstetrics and Gynecology. I am a member of the American College of
the Texas Medical
Association, and the Dallas County Medical Association. I provide the full spectrum of
reproductive health care to women and pregnant people, including obstetric care for low-,
medium-, and high-risk pregnancies, and am trained to provide abortion care up to 24 weeks as

4.

I graduated from the University of Oklahoma College of Medicine with an M.D.

in 2014. I completed my internship in obstetrics and gynecology in 2015 and my residency in
obstetrics and gynecology in 2018, both at the University of Alabama at Birmingham. After
residency, I completed a twoHospital in Boston, Massachusetts. I also graduated from the Harvard T.H. Chan School of
Public Health with a Master in Public Health degree in 2019. My curriculum vitae, which sets
forth my experience and credentials, is attached as Exhibit 1.
5.

I began working at Southwestern in August of 2020, as a Staff Physician and as

Co-Medical Director. I moved to Texas because I wanted to increase abortion access for
underserved populations in the South.
6.

As Co-

procedures, guided by evidence-based medicine, to ensure that we are following current and best
practices. I also

to make sure that Southwestern is following those

procedures, and I review any patient complications in the rare circumstances in which they arise.

2

App.87

7.

In my role as Co-Medical Director, I work closely with the OB/GYN program

directors at several medical residency programs throughout the state to provide training in
abortion care to OB/GYN and family medicine residents during their clinical rotations at
Southwestern. I occasionally teach residents from other in-state residency programs as well as
medical students and fellows from out-of-state programs. Southwestern has a robust training
program for residents, and I have personally worked with approximately twenty residents over
the last year.
8.

In addition to my management responsibilities, I am also a full-time Staff

Physician at Southwestern. As a Staff Physician, I provide a wide range of gynecological care to
our patients, including but not limited to, abortion care, contraception, pregnancy testing, STI
testing, and diagnosis of ectopic pregnancies. I spend approximately three days a week providing
clinical care at Southwestern and an additional day doing administrative work at the clinic.

9.

Southwestern operates a licensed ambulatory surgical center in Dallas, Texas. The

clinic provides medication abortion and procedural abortion care, as well as miscarriage
management and contraceptive services.
10.

The clinic typically performs approximately 9,000 abortions on an annual basis. I

personally perform between 2,000 and 3,000 abortions at Southwestern each year.
11.

Southwestern provides both medication and procedural abortions. In a medication

abortion, the patient takes two medications, mifepristone and misoprostol, that together cause a
pregnancy termination in a process similar to a miscarriage.
12.

Procedural abortion is performed using gentle suction, sometimes along with
After approximately 18 weeks LMP, a procedural

3

App.88

abortion may involve two separate appointments

along with an additional state-mandated

counseling and ultrasound appointment1 to prepare the cervix for the abortion and then perform
the procedure.
Southwestern provides medication abortion up to 10 weeks LMP and procedural

13.

abortions through 21 weeks and 6 days LMP.
The vast majority of abortion patients at Southwestern are 6 or more weeks LMP.

14.

In 2020, Southwestern performed only 936 abortions for patients up to 5 weeks, 6 days LMP
only 10% of the 8,623 abortions the clinic provided in total.
S.B. 8 Bans Abortion Before Viability.
I have reviewed the provisions of S.B. 8,

15.

others who aid or abet the provision of that care. 2 S.B. 8
activity or the steady and repetitive rhythmic contraction of the fetal heart within the gestational
3

My understanding is that exceptions to S.B. 8 are very narrow. A physician could

16.

emergency,
which Texas law defines as

-threatening physical condition aggravated by, caused by, or

arising from a pregnancy that, as certified by a physician, places the woman in danger of death or
a serious risk of substantial impairment of a major bodily function unless an abortion is
performed.

4

1

Tex. Health & Safety Code §§ 171.011-171.016.
Tex. Health & Safety Code §§ 171.204, 171.208.
3
Tex. Health & Safety Code § 171.201(a).
4
Tex. Health & Safety Code §§ 171.204(a), 171.205(a), 171.002(3).
2

4

App.89

17.

In the field of medicine, physicians measure pregnancy from the first day of a patient
Fertilization of the egg typically occurs at two weeks LMP.
Pregnancy begins one week later, at three weeks LMP, when the fertilized egg implants in the
uterus and lasts until 40 weeks LMP. For the first nine weeks LMP, an embryo develops in the
uterus. It is not until approximately 10 weeks LMP that clinicians recognize the embryo as a
fetus.
18.

In a typically developing embryo, cells that form the basis for development of the

heart later in gestation produce cardiac activity that can be detected with ultrasound. Detection of
this cardiac activity happens very early in pregnancy at approximately 6 weeks, 0 days LMP, and
sometimes sooner.5 At this point in pregnancy, an ultrasound may reveal a fluid-filled sac
gestational sac

or

within the uterus. An ultrasound at this early gestation may also show a dot

within the gestational sac, which represents the developing embryo, and an electrical impulse
that appears as a visual flicker within that dot. No fully developed heart is present at this time.
19.

medical sense, but also early electrical impulses present before the full development of the
cardiovascular system.
20.

Viability is medically impossible at 6 weeks LMP, the time at which early cardiac

activity is generally detectable and at which S.B. 8 bans abortion. Viability is generally
understood as the point when a fetus has a reasonable likelihood of sustained survival after birth,

5

I personally have observed cardiac activity as early as 5 and a half weeks LMP.
5

App.90

with or without artificial support. This is an individual medical determination that occurs much
later in pregnancy
21.

at approximately 24 weeks LMP

if at all.6

Many patients do not know they are pregnant at 6 weeks LMP and thus seek

abortion care only after cardiac activity is detectable. That is because the commonly known
markers of pregnancy

a missed menstrual period and pregnancy symptoms

are not the same

for all pregnant people.
22.

First, not every pregnant person can rely on a missed menstrual period to

determine whether they are pregnant. In people with an average menstrual cycle (e.g., a period
every 28 days), fertilization begins at 2 weeks LMP, and they miss their period at 4 weeks LMP.
Many people do not experience average menstrual cycles, though. Some people have regular
menstrual cycles but only experience periods every 6 to 8 weeks, or even further apart. Others do
not know when they will experience their next period because they have irregular cycles, which
are caused by a variety of factors, including polyps, fibroids, endometriosis, polycystic ovary
syndrome, eating disorders, and other anatomical and hormonal reasons. Some people may have
irregular menstrual cycles because they are taking contraceptives or are breastfeeding. As a
result, many people may not suspect they are pregnant until much later than 4 weeks LMP.
23.

Second, many people will not exhibit the commonly known symptoms of

pregnancy. For instance, people may have negative results from over-the-counter pregnancy tests
even when pregnant because these tests often cannot detect a pregnancy at 4 weeks LMP or
earlier. Additionally, symptoms such as nausea or fatigue differ for each pregnant person, and
some people never experience those symptoms. Further complicating early detection of

6

Some fetuses are never viable, such as those in ectopic pregnancies and those with certain fetal
diagnoses.
6

App.91

pregnancy, it is common for pregnant people to experience light bleeding when the fertilized egg
is implanted in the uterus and mistake that bleeding for a menstrual period.
24.

In Texas, physicians are required to perform an ultrasound on a patient before

performing an abortion. Ultrasounds typically cannot detect a pregnancy before 4 weeks LMP.
25.

As a practical matter, S.B. 8 is a near total ban on abortion. It prohibits abortion

care at the earliest moments that a pregnancy may be detected and often before a patient has any
reason to suspect that they may be pregnant.
26.

Even under the best circumstances, if a Texan determines they are pregnant as

soon as they miss their period, they would have roughly two weeks to decide whether to have an
abortion, comply with state-mandated procedures for obtaining an abortion, resolve all financial
and logistical challenges associated with abortion care in Texas, and obtain an abortion.
27.

If S.B. 8 goes into effect, the many pregnant people who do not learn that they are

pregnant until after 6 weeks LMP may never access abortion in Texas.
S.B. 8 Will Be Devastating for Pregnant People in Texas.
28.

Abortion is a common procedure. Approximately one in four women in this

country will have an abortion by the age of forty-five.7 Providers in Texas performed over
50,000 abortions last year, 8 and others in the state self-manage their abortions. 9

7

Rachel K. Jones & Jenna Jerman, Population Group Abortion Rates and Lifetime Incidence of
Abortion: United States, 2008-2014, 107 Am. J. Pub. Health 1904, 1907 (2017).
8
hhs/records-statistics/data-statistics/itop-statistics.
9
-Managed
See Liza Fuentes et al.,
Abortion
7

App.92

29.

Abortion is also one of the safest medical procedures. 10 Fewer than 1% of

pregnant people who obtain abortions experience a serious complication. 11 And even fewer
abortion patients

only approximately 0.3%

experience a complication that requires

hospitalization. 12
30.

Abortion is far safer than pregnancy and childbirth. 13 The risk of death from

carrying a pregnancy to term is approximately 14 times greater than the risk of death associated
with abortion. 14 In addition, complications such as blood transfusions, infection, and injury to
other organs are all more likely to occur with a full-term pregnancy than with an abortion.
31.

Pregnant patients have a multitude of reasons for seeking abortion care. For many,

maternal health concerns make abortion desirable and even necessary. Pregnancy, including an
uncomplicated pregnancy, significantly stresses the body, causes physiological and anatomical
changes, and affects every organ system. It can worsen underlying health conditions, such as
diabetes and hypertension. Some people develop additional health conditions simply because
they are pregnant

conditions such as gestational diabetes, gestational hypertension (including

preeclampsia), and hyperemesis gravidarum (severe nausea and vomiting). People whose
pregnancies end in vaginal delivery may experience significant injury and trauma to the pelvic
floor. Those who undergo a caesarean section (C-section) give birth through a major abdominal
surgery that carries risks of infection, hemorrhage, and damage to internal organs.

10

See, e.g.
The Safety
and Quality of Abortion Care in the United States 10, 59, 79 (2018).
11
Ushma Upadhyay, et al., Incidence of Emergency Department Visits and Complications After
Abortion, 125 Obstetrics & Gynecology 175, 175 (2015).
12
Id.
13
E.G. Raymond & D.A. Grimes, The Comparative Safety of Legal Induced Abortion and
Childbirth in the United States, 119 Obstetrics & Gynecology 215, 215-19 (2012).
14
See id. at 215.
8

App.93

32.

Others seek abortion because they do not wish or do not have the resources to add

an additional child to their family. Some patients choose to have an abortion because their
pregnancies are the result of rape, incest, or other intimate partner violence. Still other Texans
obtain an abortion because they receive a fetal anomaly diagnosis, which can be severe or even
lethal. These diagnoses are made later in pregnancy
33.

well after 6 weeks LMP.

If S.B. 8 goes into effect, many pregnant Texans who seek abortions will have to

travel out of state to receive healthcare they want and need, adding tremendous cost to a
procedure that is common, safe, and medically appropriate.
S.B. 8 Will Be Devastating for Abortion Providers in Texas.
34.

S.B. 8 is intended to take away my ability as a highly trained OB/GYN to provide

the care to patients which I have been licensed by the State of Texas to provide. I moved to
Texas because I am morally compelled to provide abortion care to patients in need. Not being
able to do the job that I spent years being trained to do is personally devastating. I am deeply
concerned about what S.B. 8 will mean for my chosen profession, for the certifications I worked
so hard to obtain, and for my future as both a doctor and a Texan.
35.

The civil penalties threatened by this ban are severe and will sooner or later

prevent all abortion providers from carrying out our medical and ethical duties. Because S.B. 8
allows almost anyone to sue me, Southwestern, and the staff who work with me, I fear that I will
be subject to multiple frivolous lawsuits that will take time and emotional energy

and prevent

me from providing the care my pregnant patients need. These lawsuits also carry heavy financial
consequences even if they are ultimately unsuccessful. I also understand that the Texas Medical
Board may be able to bring disciplinary action against me for violations of S.B. 8 and the Texas
. And most

9

App.94

importantly, court orders in successful suits under S.B. 8 would prevent me from providing
abortion care in Texas after 6 weeks LMP. It is not clear how long I will be able to provide
abortions for my patients or how long Southwestern will be able to keep its doors open if this ban
goes into effect.
-Shifting Provision Will Also Harm Southwestern.
36.

I also understand that another provision of S.B. 8 makes parties and their attorneys
in cases challenging Texas laws that restrict or

regulate abortion if they do not succeed on every claim they bring in the case.
37.

To continue providing patients with safe and medically appropriate abortion care,

Southwestern has repeatedly had to challenge laws that restrict or regulate abortion care in Texas.
See e.g., In re Abbot, 954 F.3d 772 (5th Cir. 2020), cert. granted, judgment vacated as moot by
Planned Parenthood Ctr. for Choice v. Abbott, 141 S. Ct. 1261 (2021) (mem.) (COVID abortion
ban);

lth v. Paxton, 978 F.3d 896 (5th Cir. 2020),

vacated by 978 F.3d 974 (5th Cir. 2020) (ban on common method of abortion); and Planned
Parenthood of Greater Tex. Surgical Health Servs. v. Abbott, 748 F.3d 583 (5th Cir. 2014),
en banc denied, 769 F.3d 330 (5th Cir. 2014) (decision on admitting-privileges, medication-abortion regulations).
38.

If Southwestern is responsible for

chill our ability to bring cases or present claims to vindicate the rights of ourselves and our patients,
due to fears that if we are not 100% successful, there will be serious financial consequences.

10

App.95

App.96

Exhibit 1

App.97

ALLISON LYNNE GILBERT, MD, MPH
8616 Greenville Ave, Ste 101
Dallas, TX 75243
agilbert@southwesternwomens.com
(214) 742-9310 (p)
(214) 969-946 (f)
__________________________________________________________________________________________________________
EDUCATION
July 2018-May 2019

Master of Public Health
Harvard T.H. Chan School of Public Health
Boston, MA

Aug 2010-May 2014

Doctor of Medicine
University of Oklahoma College of Medicine
Oklahoma City, OK

Aug 2006-May 2010

Bachelor of Arts in Biology
Colorado College
Colorado Springs, CO
__________________________________________________________________________________________________________
POST-DOCTORAL TRAINING
July 2018-June 2020

Family Planning Fellowship
Division of Family Planning,
Department of Obstetrics, Gynecology and Reproductive Biology
Boston, MA

June 2014-June 2018

Obstetrics and Gynecology Residency
Department of Obstetrics and Gynecology
University of Alabama at Birmingham
Birmingham, AL
__________________________________________________________________________________________________________
CLINICAL WORK EXPERIENCE
August 2020-Present

Co-Medical Director & Staff Physician
Dallas, TX

July 2018-June 2020

Clinical Fellow
Department of Obstetrics, Gynecology and Reproductive Biology
Boston, MA

July 2018-June 2020

Physician (part-time)

Newton Wellesley Hospital
Newton, MA
__________________________________________________________________________________________________________
BOARD CERTIFICATION AND LICENSURE
2020
2020
2020
2018
2018
2015

Advanced Cardiac Life Support (ACLS)/Basic Life Support (BLS)
Texas Medical License, Active
American Board of Obstetrics and Gynecology Certifying Examination, passed
Massachusetts Medical License, Active
American Board of Obstetrics and Gynecology Qualifying Examination, passed
Alabama Medical License, Active

App.98

Last updated 9.17.20

__________________________________________________________________________________________________________
HONORS AND AWARDS
2020

2018

Outstanding Medical Student Teaching
Department of Obstetrics, Gynecology and Reproductive Biology
s Hospital
Harvard Medical School
Boston, MA
Department of Obstetrics and Gynecology
University of Alabama at Birmingham
Birmingham, AL

2018

Best Teaching Chief Resident
Department of Obstetrics and Gynecology
University of Alabama at Birmingham
Birmingham, AL

2018

Alpha Omega Alpha Honor Society
University of Alabama at Birmingham
Birmingham, AL

2017, 2018

The Society for Academic Specialists in General Obstetrics and Gynecology
Resident Award for Academic Excellence
Department of Obstetrics and Gynecology
University of Alabama at Birmingham
Birmingham, AL

2015, 2018

Resident Research Award
Department of Obstetrics and Gynecology
University of Alabama at Birmingham
Birmingham, AL

2015, 2016

Resident Teaching Award
Department of Obstetrics and Gynecology
University of Alabama at Birmingham
Birmingham, AL

__________________________________________________________________________________________________________
RESEARCH INTERESTS
2018-Present

Medication abortion management in the setting of pregnancy of unknown location

__________________________________________________________________________________________________________
PUBLICATIONS
Goldberg A, Hofer R, Cottrill A, Fulcher I, Fortin J, Dethier D, Gilbert A, Janiak E, Roncari D. Mifepristone and misoprostol abortion for
Contraception. 2021; 103 (5): 373-375.
undesired pregnancy of unknown
Gilbert A, Barbieri R. When providing contraceptive counseling to women with migraine headaches, how do you identify migraine with
aura? OBG Manag. 2019 October; 31 (10): 10-12.
Gilbert A, Goepfert A, Mazzoni S. Bixby Postpartum LARC Program. UAB Department of OBGYN Evidence-Based Guidelines: Protocols
and Policies. 8 May 2017.
Becker D, Thomas E, Gilbert A, Boone J, Straughn JM, Huh W, Bevis K, Leath C, Alvarez R. Improved outcomes with dose-dense paclitaxelbased neoadjuvant chemotherapy in advanced epithelial ovarian carcinoma. Gynecologic Oncology. 2016 Jul; 142 (1): 25-29.
Van Arsdale A, Arend R, Mitchell C, Gilbert A, Leath C, Huang G. Evaluation of circulating neutrophils as a biomarker for outcomes in
uterine carcinosarcoma. J Clin Oncol 34, 2016 (suppl; abstr e17121).

App.99

Last updated 9.17.20

__________________________________________________________________________________________________________
POSTERS
-gynecologic
Gilbert A,
specialties. Poster presented at: Society for Maternal Fetal Medicine Annual Clinical Meeting; Las Vegas, NV; Feb 2019.
Becker D, Thomas E, Gilbert A, Boone J, Straughn JM, Huh W, Bevis K, Leath C, Alvarez R. Improved outcomes with dose-dense paclitaxelbased neoadjuvant chemotherapy in advanced epithelial ovarian carcinoma. Poster presented at: Society of Gynecologic Oncology
Annual Clinical Meeting; San Diego, CA; March 2016.
Bryant C, Gilbert A, Arnold K, Nightengale L. Improving awareness and knowledge of advocacy and impacting outcomes in the local
medical community. Poster presented at: Doctors for America Leadership Conference; Washington, D.C.; March 2014.
__________________________________________________________________________________________________________
TEACHING AND PRESENTATIONS
2021
2021
2021
2020
2020
2020
2020
2020
2019
2019
2019
2019
2019
2019
2019
2019
2019
2019
2019
2017
2017
2016
2016

Family planning Jeopardy! Resident lecture given at: University of Oklahoma, Dept. Ob/Gyn,
Oklahoma City, OK
Providing abortions in a hostile state. Family Planning Division lecture given at: Brigham and
Abortion complications and management. Resident lecture given at: University of Oklahoma,
Dept. Ob/Gyn, Oklahoma City, OK
Medical management of early pregnancy loss. Grand Rounds given at: Newton Wellesley
Hospital, Dept. Ob/Gyn, Newton, MA
Contraception for those with medical co-morbidities. Resident lecture given at: Tufts Medical
Center, Boston, MA
Pregnancy options counseling and difficult patient cases. Medical student lecture given at:
Harvard Medical School, Boston, MA
Abnormal uterine bleeding. Medical student lecture given at: Harvard Medical School, Boston, MA
Anticoagulation and abortion. Family Planning Division l
Hospital, Boston, MA
Pregnancy options counseling and difficult patient cases. Resident lecture given at: University of
Oklahoma, Oklahoma City, OK
Introduction to OR Culture and Skills, Transitions to the PCE (PWY150). Medical student simulation
given at: Harvard Medical School, Boston, MA
lecture (1500
Gynecologic office practice. Resident s
,
Boston, MA
Vasectomy and updates in male contraception. Family Planning Division lecture given at: Brigham
, Boston, MA
Contraception in women with cardiovascular disease. Cardiology Division lecture given at:
, Boston, MA
Combination oral contraceptives. Resident lecture given at: Tufts Medical Center, Boston, MA
Contraceptive technology. Undergraduate lecture given at: Massachusetts Institute of
Technology, Cambridge, MA
Following declining human chorionic gonadotropin values in pregnancies of unknown location:
When is it safe to stop? Regional journal club given at: Planned Parenthood League of
Massachusetts, Boston, MA
Natural family planning methods. Family Planning division lecture given at: Brigham and
, Boston, MA
LARCs, papaya and post-abortion hemorrhage workshop. Resident simulation given at: Brigham
Hospital, Boston, MA
Combination oral contraceptives. Resident lecture given at: University of Alabama at Birmingham,
Birmingham, AL
Anticoagulation and abortion. Family Planning Division lecture given at: University of North
Carolina Chapel Hill, Chapel Hill, NC
Secondary amenorrhea. REI Division lecture given at: University of Alabama at Birmingham,
Birmingham, AL
Postoperative PCA management. Resident lecture given at: University of Alabama at Birmingham,
Birmingham, AL

App.100

Last updated 9.17.20

__________________________________________________________________________________________________________
LEADERSHIP
2017-2018

Administrative Chief of Education
Department of Obstetrics and Gynecology
University of Alabama at Birmingham
Birmingham, AL

2016-2018

Young Professionals Council
Planned Parenthood Southeast
Birmingham, AL

2016-2018

Resident Coordinator for Immediate Postpartum LARC Program
Department of Obstetrics and Gynecology
University of Alabama at Birmingham
Birmingham, AL

2016-2017

Resident Selection Committee Chair
Department of Obstetrics and Gynecology
University of Alabama at Birmingham
Birmingham, AL

2015-2016

Philanthropy Committee Co-Chair
Department of Obstetrics and Gynecology
University of Alabama at Birmingham
Birmingham, AL

2016-2017
2015-2016
2015-2016
2014-2015

American College of Obstetrics and Gynecology
District VII Junior Fellow Secretary and Treasurer
District VII Junior Fellow Advocacy Chair
Alabama Section Junior Fellow Chair
Alabama Section Junior Fellow Vice Chair

__________________________________________________________________________________________________________
PROFESSIONAL MEMBERSHIPS
2021-Present
2021-Present
2018-Present
2012-Present

Dallas County Medical Association
Texas Medical Association
Society of Family Planning
American College of Obstetricians and Gynecologists

App.101

Last updated 9.17.20

App.102

App.103

App.104

App.105

App.106

App.107

App.108

App.109

App.110

App.111

App.112

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
WHOLE WOMAN S HEALTH, et al.,
Plaintiffs,
v.
AUSTIN REEVE JACKSON, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

CIVIL ACTION
CASE NO. _______________

DECLARATION OF ANDREA FERRIGNO
FOR SUMMARY JUDGMENT
ANDREA FERRIGNO hereby declares under penalty of perjury that the following statements
are true and correct:
1. I am the Corporate Vicethis case.
2. WWH currently operates three licensed abortion facilities in Texas, in Fort Worth (the
C

,

C

and

North Texas

Clinic . WWH also operates abortion clinics in Baltimore, Maryland; Bloomington, Minnesota;
and Alexandria, Virginia.
3. My responsibilities as Corporate Vice-President include ensuring that each clinic
complies with all statutes and regulations concerning the provision of the health services they
offer, including abortion care, as well as recruiting physicians. I also lead Growth and
Acquisitions for WWH, which involves incorporating new models of care into our clinics and
expanding to new areas of care.

1

App.113

4. I have worked at WWH in a variety of roles since 2004, when I first joined as a Patient
Advocate. As a result, I am well-versed in abortion clinic operations and patient care.
5.
business records.
Provision of Abortion Care at the WWH Clinics in Texas
6. Both the Fort Worth and McAllen clinics offer procedural abortions up to 17.6 weeks
LMP

All three

clinics also offer medication abortions up to 10 weeks LMP.
Impact of Senate Bill 8 on WWH Physicians and Staff
7. My understanding of Senate Bill 8 (S.B. 8) is that it prohibits a physician from providing
an abortion if they have detected fetal or embryonic cardiac activity or if they have failed to test
for cardiac activity. Cardiac activity is typically detectable in an embryo around 6 weeks LMP.
8. It is my understanding that after September 1, 2021, if any person believes that a
physician at the clinics has violated S.B. 8, they can bring a civil action against them.
9. Furthermore, because the penalties also apply to anyone who aids or abets the
performance of an abortion, it seems possible that the clinics or
could also be sued.
10. We have a number of protesters who regularly gather outside the clinics. On slower days,
we have 5-25 protesters, but we have had over 100 protesters when they have marches or rallies
in front of the clinics. These protesters have also filed false complaints against our physicians,
attempting to provoke an investigation by the Texas Medical Board. We typically have one
complaint filed against a physician at each clinic every year. Though these complaints have

2

App.114

always been found to be without merit and dismissed
operations and a means of threatening our physicians.
11. Because lawsuits under S.B. 8 can be filed by any person, including the protesters and
other individuals with no relationship to the patients, it is very likely that lawsuits will be filed
against our clinics, physicians, and/or staff members. They will have to hire lawyers, travel to
the counties where the lawsuits are filed, and spend months, or even years, defending themselves
against the lawsuits.
12. If our clinics, physicians and/or staff members are found to have violated S.B. 8, they
will be banned from providing abortions or assisting in the performance of an abortion in
violation of S.B. 8 and will have to pay a minimum of $10,000 per prohibited procedure, as well
I also understand that they may be subject to disciplinary action by
the Texas Medical and Nursing Boards.
13. These lawsuits would be enormously burdensome for the individual physicians and staff
members, financially, logistically, and emotionally, but they would also be disastrous for the
clinics. We cannot continue to operate if our physicians and staff are being sued around the state
and are barred from doing their jobs.
14. Further, there is no practical way for us to comply with S.B. 8 and continue providing
abortion care for most of our patients. Currently, only around 10% of our patients obtain an
abortion before six weeks LMP. This is because medically, there is very little time between when
a pregnancy can be detected and when cardiac activity is detectible by ultrasound. In that small
window, few patients are able to make the necessary two trips to the clinic, first for a mandatory
ultrasound and counseling, and second for their abortion (which must be at least 24 hours later
for patients who live fewer than 100 miles from the closest abortion provider). In addition, many
3

App.115

of our patients do not even know they are pregnant before six weeks. Thus, S.B. 8 is effectively a
prohibition on the vast majority of abortions we currently provide.
15. Ultimately, this law puts our clinics in an impossible situation. We can either turn away a
majority of our patients seeking care, which will eventually cause us to go out of business, or we
can continue providing abortions in violation of S.B. 8, knowing that our physicians and staff
will be sued and potentially barred from providing care after 6 weeks LMP anyway, again
making it difficult for us to keep our doors open. Either way, S.B. 8 is designed to put us out of
business entirely.
16. WWH has been subjected to clinic shut-down laws in Texas before. In 2013, Texas
passed House Bill 2, a law that required all abortion facilities to be licensed ambulatory surgical
facilities and all abortion providers to have local hospital admitting privileges. Because WWH
lacked sufficient physicians with admitting privileges in Beaumont and Austin, we had to shut
those clinics down. Additionally, our clinic in McAllen was shut down for eleven months and
was only reopened because of an injunction awarded by the United States District Court for the
Western District of Texas. Ironically, one of our physicians in Austin was able to obtain
admitting privileges in Fort Worth, and so he commuted by plane in order to keep our clinic in
Fort Worth open. The cost of flights put further economic pressure on WWH.
17. While HB 2 was ultimately struck down in 2016 as unconstitutional by the Supreme
Court, WWH was severely strained by the litigation. And things have only gotten worse since
2013, as WWH has been forced to litigate three additional severe abortion restrictions since
2016.
18. Because the regulatory environment in Texas is so hostile, the clinics shuttered by HB 2
have largely not reopened. In fact, the WWH clinic in Austin (now operated by W
4

App.116

Health Alliance) is the only WWH clinic closed by HB 2 to have reopened since the Supreme
Court struck it down.
Impact on WWH Patients
19. A majority of patients at our Fort Worth Clinic are people of color and Spanish speakers.
They hail from all over Texas.
20. A majority of patients at our McAllen Clinic are Spanish speakers and many face
immigration-related restrictions on traveling outside of the Rio Grande Valley. 1
21. The patients at the clinics seek abortion care for a variety of reasons. Many have low
incomes, are uninsured, and are the parents of dependent children. Having access to abortion
care in their community is incredibly important for our patients.
22. Our patients regularly rely on friends, family members, and social support networks to
aid them in obtaining an abortion. Under S.B. 8, any friend, family member, or other person who
helps the patient could open themselves up to the threat of lawsuits. Some patients will have to
choose between being forced to remain pregnant or subjecting their loved ones to the risk of a
lawsuit with serious financial consequences.
23. If the clinics are not able to continue providing abortions after six weeks LMP, it will be
devastating for the patients we serve. It will be impossible for most of these patients to obtain an
abortion before six weeks LMP.
24. Our patients already have to overcome many obstacles and navigate complicated logistics
simply to get to us. Traveling to
24-hour delay law, is expensive and difficult for these patients. They have to arrange for
1

The North Texas Clinic opened so recently that we have not yet identified patient trends.
5

App.117

transportation back and forth from our clinics twice, secure childcare if they already have
another child, and take time off work. If they lack paid sick leave, they also lose wages. For
patients who have to travel longer distances to obtain care, some need to pay for lodging for a
multiple-day stay, which then requires additional, costly logistical arrangements, including being
away from home and work for longer and needing more childcare. We offer funding and
transportation assistance to these patients, but the need is still significant. All of these costs and
logistical challenges often force patients to delay obtaining care by weeks after they have already
decided to have an abortion. It will be nearly impossible for them to overcome these challenges
in the limited time between when they discover they are pregnant and six weeks LMP. And
again, many patients do not even discover they are pregnant until after six weeks LMP.
25. The challenges are heightened for younger patients. Texas requires patients under the age
of eighteen to obtain written parental authorization for an abortion or get a court order. We see
minor patients at our clinics and this restriction often delays them in obtaining care.
26. We see patients at our clinics who are victims of rape or incest. These patients are
sometimes delayed getting care due to ongoing physical or emotional trauma, making it difficult
for them to obtain an abortion before six weeks LMP.
27. If they cannot obtain an abortion in Texas, some of our patients may be able to access
care out of state. They will be further delayed and forced to live with an unwanted pregnancy for
an indefinite amount of time

which, in addition to the profound stress and anxiety of being in

such limbo, also subjects patients to the physical and mental health symptoms and risks of
continuing pregnancy, and for some, the increased possibility that an abusive partner or family
member will learn of the pregnancy.

6

App.118

28. However, most of our patients will not be able to travel out of state. It is simply too
logistically challenging and expensive. It is also very risky for those who are undocumented. I
have heard from many patients that there is an immigration checkpoint in Falfurrias, Texas,
about 75 miles north of McAllen, that makes it very difficult for those in the southern part of
Texas to travel north for care if they are undocumented or on a restricted visa.
29. These patients will be forced to carry pregnancies to term against their will or seek ways
to end their pregnancies without medical supervision, which may be unsafe. Forcing our patients
to continue pregnancies against their will poses risk to their physical, mental, and emotional
health, and even their lives, as well as to the stability and wellbeing of their families, including
their existing children.
30. In these ways, S.B. 8 will cause WWH patients to suffer in significant and lasting ways.

31. I further understand that S.B. 8 makes parties and their attorneys liable to pay the costs

32. WWH has frequently litigated
, the case in which the Supreme Court struck down as
unconstitutional the two provisions of HB 2 that threatened to close our clinics. The cases we
have been involved with include: In re Abbot, 954 F.3d 772 (5th Cir. 2020), cert. granted,
judgment vacated as moot by Planned Parenthood Ctr. for Choice v. Abbott, 141 S. Ct. 1261
, 978 F.3d 896 (5th Cir.

(2021) (mem.) (COVID abortion ban);
2020),

, and argued, 978 F.3d 974 (5th Cir. 2020) (ban on

common method of abortion);

Smith, 338 F. Supp. 3d 606 (W.D. Tex.

2018), appeal docketed and argued, No. 18-50730 (5th Cir.) (requirement for interment or
7

App.119

cremation of embryonic and fetal tissue);

, 136 S. Ct. 2292

(2016) (decision on admitting-privileges and ASC requirements); and Planned Parenthood of
Greater Tex. Surgical Health Servs. v. Abbott, 748 F.3d 583 (5th Cir. 2014),
denied, 769 F.3d 330 (5th Cir. 2014) (decision on admitting-privileges, medication-abortion
regulations)
33. Litigation is critical not only to keeping our doors open, but to fulfilling our mission to
serve patients seeking abortion in Texas. I am concerned that the fee-shifting provision of S.B. 8
is intended to intimidate us and discourage us from using litigation to vindicate the constitutional
rights of our patients and keep the doors of our clinics open.

8

App.120

Dated: 7/9/2021
___________________
Andrea Ferrigno
Corporate Vice-President

9

App.121

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
WHOLE WOMAN S HEALTH, et al.,

)
)
)
)
)
)
)
)
)

Plaintiffs,
v.
AUSTIN REEVE JACKSON, et al.,
Defendants.

CIVIL ACTION
CASE NO. _______________

DECLARATION OF JESSICA KLIER
SUMMARY JUDGMENT

FOR

JESSICA KLIER, declares under penalty of perjury that the following statements are true
and correct:
1.

I am the Administrator
, a position that I have held for 16 years. Along with the Medical

Director, I provide overall leadership for the clinic. My responsibilities include carrying out the
organizational goals, developing and implementing clinic policies and procedures with
operational oversight of financial and budgetary activities, and ensuring compliance with all
regulatory agencies governing health care delivery.
2.

icensed abortion facility and Brookside
Together, these two
) have provided high-quality reproductive services to

Texas women for over 40 years.

medication abortion up to 70 days of

gestation and procedural abortions

up to 17

weeks, 6 days as dated from the f

. Austin

contraception, miscarriage management, and gynecologic surgical
1

App.122

procedures, including colposcopies, biopsies, and loop electrosurgical excision procedures
removed to diagnose and treat cancer or
precancerous cells.
3.

I

Motion for Summary Judgment.

4.
business records, information obtained in the course of my duties at
personal knowledge that I have acquired through my service at
5.

, and
.

My unders

performing an abortion if they can detect embryonic or fetal cardiac activity or if they have failed
to check for cardiac activity. I understand that any person may sue a physician who violates this
law and if they are successful, the physician is blocked from violating the law again, and must

6.
prohibited abortion, including clinics, can also be sued and would face the same penalties as the
physicians.
7.

Embryonic or fetal cardiac activity can generally be detected as early as six weeks

LMP. Therefore, S.B. 8 bans abortion in Texas after approximately six weeks LMP.
8.

If we continue providing abortions after six weeks LMP, the threat of lawsuits
hysicians, and staff. Our patients

will be burdened in their decision-making because their friends, family, and support networks
could be sued for allegedly

2

App.123

9.

I believe it is very likely that Austin

physicians and/or staff

members will be sued by the anti-abortion individuals who are constantly threatening abortion
access in this state and who are opposed to our provision of abortion care.
10.

S.B. 8 is designed to prohibit the majority of abortion care we provide and put our

future at risk. Staff or physicians who are sued will be forced to defend themselves against
lawsuits that will be emotionally, logistically, and financially burdensome. I understand that they
may also face disciplinary action by the Texas Medical and Nursing Boards. We will not be able
to continue operating if our staff and physicians are prohibited from performing their jobs. Staff
have already come to me, concerned about their jobs, about our long-term sustainability, and
fearful for the repercussions S.B. 8 will have for them personally.
11.

It will also be devastating for the patients we serve if we cannot continue offering

abortions after six weeks LMP.
12.

For multiple reasons, ten percent or less of our patients obtain an abortion before

six weeks LMP. It is extremely difficult to arrange the necessary logistics and finances and
comply with the many burdensome Texas laws that the state has placed on abortion, all before
the patient reaches six weeks LMP.
13.

If these patients are prevented from getting abortion care in Texas, many will be

unable to access abortion at all. Those who are able to travel out of state will suffer increased
risks to their health by the delay in ending their pregnancies. Many will also face increased costs
related to abortion, as their abortion access is pushed to later gestational points when abortion is
more expensive and may require a two-day procedure, instead of one.
14.

I am all too familiar with laws like S.B. 8 that are intended to close clinics. While

later ruled unconstitutional, House Bill 2 of 2013 succeeded in closing down more than half of

3

App.124

the abortion clinics in Texas, including our sister clinic in Killeen. Our clinic in Killeen has
never reopened.
15.

I am worried for myself, my staff, the doctors I work with, and the patients we

serve. We have been providing high-quality medical care to patients in Texas for 40 years, under
constant threat from those who oppose the work we do. Yet I have never been more concerned
for our future than I am today.
16.

I also understand that S.B. 8 requires those who challenge abortion restrictions or
not

succeed on.
17.
abortion laws, including: In re Abbot, 954 F.3d 772 (5th Cir. 2020), cert. granted, judgment
vacated as moot by Planned Parenthood Ctr. for Choice v. Abbott, 141 S. Ct. 1261 (2021)
(mem.) (COVID abortion ban);

, 338 F. Supp. 3d 606 (W.D.

Tex. 2018), appeal docketed and argued, No. 18-50730 (5th Cir.) (requirement for interment or
cremation of embryonic and fetal tissue); Whole

, 136 S. Ct. 2292

(2016) (decision on admitting-privileges and ASC requirements); and Planned Parenthood of
Greater Tex. Surgical Health Servs. v. Abbott, 748 F.3d 583 (5th Cir. 2014),
denied, 769 F.3d 330 (5th Cir. 2014) (decision on admitting-privileges, medication-abortion
regulations).
18.

has stayed open because of litigation we have brought against

unconstitutional laws.

when

we do not succeed on every claim we bring, even if we obtain our desired relief, this will make it

4

App.125

constitutional rights.

5

App.126

6

App.127

App.128

App.129

App.130

App.131

App.132

App.133

App.134

App.135

App.136

App.137

App.138

App.139

App.140

App.141

App.142

App.143

App.144

App.145

App.146

App.147

App.148

App.149

App.150

App.151

App.152

App.153

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
WHOLE WOMAN S HEALTH, et al.,
Plaintiffs,
v.
AUSTIN REEVE JACKSON, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

CIVIL ACTION
CASE NO. _______________

DECLARATION OF AMY HAGSTROM MILLER
MOTION FOR SUMMARY JUDGMENT
AMY HAGSTROM MILLER hereby declares under penalty of perjury that the
following statements are true and correct:
1. I am the President and Chief Executive Officer ( CE
Alliance

) of Whole Woman s Health

WWHA , a plaintiff in this case.

2. WWHA is a nonprofit organization incorporated under Texas law. Its mission is to
provide abortion care in underserved communities and shift the stigma around abortion in our
culture.
3. WWHA currently operates an abortion clinic in Austin, Texas (the Austin clinic ), as well
as abortion clinics in Indiana and Virginia. The Austin clinic opened in 2017 and is a licensed
abortion facility.
4. As President and CEO of WWHA, I oversee all aspects of the organization s work.
5. I have been working in the abortion care field since 1989. Prior to my work at
WWHA, I founded a consortium of limited liability companies involved in the provision of
abortion care throughout the United States. These companies do business under the name

1

App.154

Whole Woman s Healt

I continue to serve as President and CEO of WWH,

which opened its first abortion clinic in 2003.
6. I am thoroughly familiar with all aspects of abortion clinic operations and patient care.
7. I provide the following testimony based on my personal knowledge and review of
WWHA

records.

Provision of Abortion Care at the Austin Clinic
8. The Austin clinic provides procedural abortions up to 17.6 weeks of pregnancy as
measured from the first day of a patient last menstrual period ( LMP ). Under Texas law, licensed
abortion facilities are not permitted to provide procedural abortions beyond this gestational age.
See Tex. Health & Safety Code § 171.004.
9. The Austin clinic provides medication abortions up to 70 days LMP. Under Texas law,
medication abortions are prohibited after this gestational age.

See Tex. Health & Safety Code §

171.063(a)(2).
10. In a typical week, the Austin clinic provides abortions to approximately 60 patients. Only
around 10% of patients who seek care at the Austin clinic are under six weeks LMP.
11. Texas law requires abortion patients who reside within 100 miles of a licensed
abortion clinic to make two separate visits to the clinic to obtain care, at least 24 hours apart. See
Tex. Health & Safety Code § 171.012(a)(4), (b). During the first visit, we must provide the
patient with certain state-mandated information and perform an ultrasound examination. See id.
During the second visit, we provide abortion care. Most of our patients reside within 100 miles
of the Austin clinic.
12. The Austin Clinic originally opened as a WWH clinic in 2003. It was shuttered by House
Bill 2 of 2013 and was only able to reopen as a WWHA clinic in 2017 due to years of hard2

App.155

fought litigation, culminating in a victory at the U.S. Supreme Court in Whole Woman's Health
v. Hellerstedt. Less than two years after reopening, we were forced to close again because an
anti-abortion pregnancy crisis center, Austin LifeCare, bought out the lease for our existing
building. The Austin Clinic had to find a new location and relocate our operations, reopening
again in February 2019.
Senate Bill 8
13.
See Tex. Health & Safety Code § 171.203(b).
r it, they are prohibited from performing
the abortion. See Tex. Health & Safety Code § 171.204(a).
14. Fetal or embryonic cardiac activity can be detected as early as six weeks LMP. By banning
abortions at or after six weeks LMP, S.B. 8 bans approximately 90% of the abortions we perform
at the Austin clinic.
15. I further understand that a private right of civil action can be brought by any person against
a) someone who performs an abortion in violation of S.B. 8; b) someone who aids or abets the
performance of an abortion in violation of S.B. 8; or c) someone who intends to engage in a) or b).
See Tex. Health & Safety Code § 171.208(a). If the person suing is a Texas resident, they can file
the case in a court in their home county. See Tex. Health & Safety Code § 171.210(a)(4).
16. I understand that if that individual wins their lawsuit under S.B. 8, they will be granted

See Tex. Health & Safety Code §
171.208(b).

3

App.156

Impact of S.B. 8
17. It is very difficult for patients to obtain an abortion before six weeks LMP. Patients are
already four weeks LMP when they miss their period, which is generally the first indication that
the patient might be pregnant. Many patients do not confirm pregnancy until many weeks later,
particularly if they have irregular periods. Under Texas law, our patients must come to the clinic
for a mandatory ultrasound, wait 24 hours if they live less than 100 miles from the nearest abortion
provider, and then come back to have an abortion from the same physician. See Tex. Health &
Safety Code § 171.012(a)(4). Our patients have to rearrange their work or school schedules,
arrange for childcare, and raise the money necessary to have an abortion, as insurance generally
does not cover abortion in Texas. It is extremely challenging for our patients to do all of this in a
matter of days or weeks.
18. I further understand that under S.B. 8, any person can sue both our physicians for

abortion, which could potentially include the Austin Clinic and our staff.
19. I have no doubt that WWHA, our physicians, and possibly our staff will be targeted by
individuals opposed to abortion who will file lawsuits under S.B. 8, including the protesters who
frequently picket the Austin Clinic. Indeed, the threat of lawsuits has already begun.
20. In late May, an individual sneaked into the Austin Clinic by following a patient through
the front door to evade our security. Once inside, the individual distributed a letter about S.B. 8
to our Austin Clinic staff and those present in the reception area. This letter is attached as Exhibit
1 to my declaration. The individual was asked to leave, but once outside, the individual was joined
by another person and both individuals continued to distribute the letter to staff outside, still on
This letter informs staff that they can be sued for providing or
4

App.157

facilitating abortions
colleagues to th

and encourages them to report their
K+W Partnership. The letter gives a phone number and email

address for individuals to use to report violations of S.B. 8
at any time.

please call or send us a text

If anti-abortion individuals would go to this length to encourage lawsuits several

months before S.B. 8 is scheduled to take effect, I have no doubt that they will bring suits against
us in September.
21. Even if there is no basis for these suits, our physicians and staff will be forced to travel to
the

home county, hire a lawyer, and spend months, if not years, defending themselves.

If the claimant is successful, our physicians and staff will be banned from providing abortions
prohibited by S.B. 8 and subject to very serious financial penalties. I also understand that they
may be subject to disciplinary action by the Texas Medical and Nursing Boards.
22. This will be extremely burdensome to our physicians and staff
and financially

emotionally, logistically,

and it will also have very serious impacts on the Austin Clinic. Our physicians

and staff will have to choose between subjecting themselves to these lawsuits or turning away the
majority of our patients, putting us in an impossible situation.
23. S.B. 8 is designed to shut us down and stop us from providing needed care to Texans.
Indeed, afraid for job security given the impending effective date of S.B. 8, some staff at the Austin
Clinic have started looking for other work, and some have already quit. If S.B. 8 is not blocked
from taking effect, the Austin Clinic will inevitably close.
24. Our patients will suffer if they cannot obtain abortion care in Texas after six weeks LMP.
S.B. 8 will also exacerbate the shame, stigma, and confusion surrounding abortion access in Texas,
as patients are already regularly calling us to ask if abortion is still legal in the state.

5

App.158

25. Many of the patients who seek care at the Austin clinic have low incomes, and many are
parents of dependent children. The majority are uninsured.
26. Our patients seek abortion care for a variety of reasons. Many do not have the resources
to add an additional child to their family. Some are students who want to complete their education
before having children. Some do not want to be tied financially or emotionally to the putative
father, or fear abuse if their pregnancy is discovered.
27. Many of our patients will not be able to travel out of state to obtain an abortion due to their
work, school, family, or childcare responsibilities and the high costs.
28. Some of our patients may be able to travel out of state but they will be delayed in obtaining
care.
29. Being forced to delay a wanted abortion is nerve-wracking. Patients who are delayed from
accessing abortion must continue to cope with the physical symptoms of pregnancy, which for
many include debilitating nausea and vomiting. The longer a patient remains pregnant, the more
likely it is that others will discover the pregnancy, including abusive partners or family members.
The cost of abortion care (as well as the medical risks of pregnancy and abortion) increase
significantly with gestational age.
30. Patients who are delayed from accessing abortion must also cope with the fear of not being
able to obtain abortion care in time

and of the life-altering consequences of having to carry an

unwanted pregnancy to term and go through childbirth against their will.
31. Inevitably, if S.B. 8 is not blocked, many Texans will be forced to carry pregnancies to
term against their will.

6

App.159

Shifting Provision
32.

I further understand that S.B. 8 makes parties and their attorneys liable to pay the
in cases challenging Texas laws that restrict abortion.

33.

WWHA has been involved in several cases challenging abortion restrictions in

Texas, including:

Paxton, No. 1:18-CV-00500 (W.D. Tex.)

(various laws regulating abortion); and In re Abbot, 954 F.3d 772 (5th Cir. 2020), cert. granted,
judgment vacated as moot by Planned Parenthood Ctr. for Choice v. Abbott, 141 S. Ct. 1261
(2021) (mem.) (COVID abortion ban).
34.

Litigation is critical to our mission to provision abortion access to patients in Texas

and reduce the shame and stigma associated with abortion. I am concerned that the fee-shifting
provision of S.B. 8 is intended to intimidate us and discourage us from using litigation to vindicate
the constitutional rights of our patients and keep the doors of our clinic open.

7

App.160

App.161

Exhibit 1

App.162

App.163

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
WHOLE WOMAN S HEALTH, et al.,
Plaintiffs,
v.
AUSTIN REEVE JACKSON, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

CIVIL ACTION
CASE NO. _______________

DECLARATION OF ALAN BRAID, M.D., IN SUPPORT OF
SUMMARY JUDGMENT
ALAN BRAID, M.D., declares under penalty of perjury that the following statements are
true and correct:
1.

I am a board-certified obstetrician/gynecologist licensed to practice in Texas. I am

the part owner of
Services

in San Antonio

HWRS

in

Houston. I also provide abortion services at Alamo.
2.

I graduated from the University of Texas Health Science Center at San Antonio

with an M.D. in 1972. I completed my internship in obstetrics and gynecology in 1973 at Bexar
County Hospital District and my residency in obstetrics and gynecology in 1976. I have
extensive experience and training in those fields and have provided reproductive health care,
including abortions and obstetrical care, in San Antonio as a private practitioner since 1978.
3.

I submit this

Motion for Summary Judgment.

4.
HWRS

business records, information obtained in the course of my duties at Alamo and HWRS,

1

App.164

and personal knowledge that I have acquired through my work at and management of Alamo and
HWRS.
and
5.

Reproductive Services

Alamo operates a licensed ambulatory surgical center in San Antonio, Texas,

open since June of 2015. Alamo provides medication abortion through 10 weeks of pregnancy as
Alamo provides

measured

procedural abortion services through 21.6 weeks LMP. In rare instances in which a procedure
comes
through 23.6 weeks LMP.
6.

HWRS operates a licensed abortion facility in Houston, Texas. HWRS started

seeing patients in May of 2019. HWRS provides medication abortion services through 10 weeks
of pregnancy LMP.
Senate Bill 8
7.
ot test for a

embryo, cells that eventually form the basis for development of the heart later in pregnancy
produce cardiac activity that is generally detectible via ultrasound beginning at approximately six
weeks LMP, though I have seen cardiac activity several days before 6 weeks LMP. Therefore,
S.B. 8 bans abortion in Texas after approximately six weeks LMP.
8.

An embryo is not viable at 6 weeks LMP. Viability is generally understood in

medical science as the point in gestation when a fetus has a reasonable likelihood of survival

2

App.165

outside of the pregnant woman. The medical consensus in the United States is that viability is not
possible until approximately 24 weeks LMP.
9.

I understand that if any of the physicians at Alamo or HWRS continues to provide

abortions after 6 weeks LMP, any person may sue us and if they are successful in their suit, the
court must order us to cease providing abortions after six weeks LMP, and to pay a minimum of
$10,000 per prohibited abortion
10.
performance of an abortion. Due to this provision, I am concerned not only about
liability for myself and the other physicians, but also Alamo and HWRS and the staff at these
clinics. I also understand that the Texas Medical Board and Texas Nursing Board may be able to
take disciplinary action against us for violations of S.B. 8.
11.

Because there are not many abortion clinics in San Antonio and Houston, and we

are well known in the state, I believe it is very likely that the clinics, myself, or other members of
my team at Alamo or HWRS will be sued.
12.

I am very concerned about opening the clinics, myself, and other staff members

up to legal liability, but I also know that it will be devastating for patients if they cannot obtain
abortions in Texas after 6 weeks LMP.
Burdens on Patients
13.

Some patients do not realize they are pregnant until after six weeks LMP. This

includes patients who have irregular menstrual cycles, have certain medical conditions, have
been using contraceptives, are breastfeeding, or experience bleeding during early pregnancy, a
common occurrence that is frequently and easily mistaken for a period. Other patients may not
develop or recognize symptoms of early pregnancy.

3

App.166

14.

Even for the patients who do realize they are pregnant before six weeks LMP,

they would have a very small window to obtain an abortion. For a patient with regular monthly
periods, fertilization typically occurs at two weeks LMP (two weeks after the first day of their
last menstrual period). Thus, even a woman with a highly regular, four-week menstrual cycle
would already be four weeks LMP when she misses her next period, generally the first clear
indication of a possible pregnancy.
15.

If patients are prohibited from obtaining an abortion after 6 weeks LMP, this

gives them one to two weeks at most to decide they want an abortion, arrange all of the
necessary logistics, gather the money, and schedule the two appointments at least 24 hours apart,
as required by Texas law.
16.

The majority of our patients will not be able to obtain an abortion before six

weeks LMP. The patients who can afford to do so will attempt to travel out of state. Those
traveling out of state will need to pay additional travel and lodging costs and will likely face
increased costs for the procedure. At later gestational points, abortion is more expensive and may
require a two-day surgical procedure, instead of one. These patients would also experience
increased risks to their health by the delay in access to abortion care.
17.

For many patients, pregnancy creates serious symptoms and health risks. Even for

people without comorbidities, common symptoms of pregnancy can include debilitating nausea,
migraines, and dizziness. For people with comorbidities like asthma, hypertension, or diabetes,
pregnancy exacerbates the symptoms and risk of an emergency. There is also a significant
percentage of people who suffer perinatal depression or anxiety.
18.

Many of our patients will not be able to travel out of state. A significant

percentage of the patients we see at Alamo and HWRS struggle to afford an abortion and receive

4

App.167

some form of financial assistance. These patients may try to travel to Mexico for care or attempt
to order pills through the mail to self-manage their abortions. We regularly see patients who have
attempted abortions themselves and failed, and the number of patients in this situation will only
increase if S.B. 8 takes effect.
19.

The reality is that many of our patients will be forced to carry their pregnancies to

term, having been denied their constitutional right to make decisions about their own bodies.

20.

I understand that under S.B. 8, if parties challenge Texas laws that regulate or

restrict abortion and do not succeed on every claim they bring, the parties and their attorneys are

21.

Alamo, HWRS, or me personally have been a litigant in many cases challenging

Texas laws regulating or restricting abortion, including: In re Abbot, 954 F.3d 772 (5th Cir.
2020), cert. granted, judgment vacated as moot by Planned Parenthood Ctr. for Choice v.
Abbott, 141 S. Ct. 1261 (2021) (mem.) (COVID abortion ban);
Paxton, 978 F.3d 896 (5th Cir. 2020),

, 978 F.3d

974 (5th Cir. 2020) (ban on common method of abortion);

, 338

F. Supp. 3d 606 (W.D. Tex. 2018), appeal docketed and argued, No. 18-50730 (5th Cir.)
(requirement for interment or cremation of embryonic and fetal tissue); Planned Parenthood of
Greater Tex. Surgical Health Servs. v. Abbott, 748 F.3d 583 (5th Cir. 2014),
denied, 769 F.3d 330 (5th Cir. 2014) (decision on admitting-privileges, medication-abortion
regulations); and Texas Med. Providers Performing Abortion Servs. v. Lakey, 667 F.3d 570 (5th
Cir. 2012) (mandatory ultrasound law).

5

App.168

22.

Litigation is essential to keeping the doors of Alamo and HWRS open. If we are

and certain claims that are necessary to protect our rights and the rights of our patients.

6

App.169

Dated: July 11, 2021

____________________________
DR. ALAN BRAID

7

App.170

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
WHOLE WOMAN’S HEALTH, et al.,
Plaintiffs,
v.
AUSTIN REEVE JACKSON, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

CIVIL ACTION
CASE NO. _______________

DECLARATION OF BERNARD ROSENFELD, M.D., Ph.D., IN SUPPORT OF
PLAINTIFFS’ MOTION FOR SUMMARY JUDGMENT
I, Bernard Rosenfeld, M.D., Ph.D., declare as follows:
1. I am over the age of 18. I make this declaration based on personal knowledge of the matters
stated herein and on information known or reasonably available to my organization. If
called to do so, I am competent to testify as to the matters contained herein.
2. I am the owner and sole physician at Houston Women’s Clinic (“HWC”), which provides
medication abortion and aspiration abortion (sometimes referred to as “procedural” or
“surgical” abortion), as well as contraceptive care. I have been providing abortion and
contraceptive services at HWC since 1980. I received my medical degree at Tufts
University; did my residency at Johns Hopkins University, the University of Southern
California, and Wayne State University; and received a Ph.D. in Psychology at the
University of Texas at Austin. I am on staff at Texas Women’s and St. Luke’s Hospitals in
the Texas Medical Center, as well as at First Street Hospital. I also have a routine OB-GYN

1

App.171

practice with a surgical specialty in microsurgical tubal ligation reversals. I previously
served as an assistant professor at Baylor College of Medicine.
3. I submit this declaration in support of Plaintiffs’ Motion for Summary Judgment seeking a
declaratory judgment and to enjoin Texas Senate Bill 8 (“SB 8” or the “Act”). For more
than four decades, HWC has persisted in providing high-quality, compassionate abortion
care to Texans despite relentless attacks by our state legislature and anti-abortion activists.
But if SB 8 is allowed to take effect, we will no longer be able to serve the vast majority
of patients who come to us seeking abortion care and will soon be forced to permanently
close our doors. I implore the Court to block this catastrophic law from taking effect.
Impact of SB 8’s Six-Week Ban
4. Cardiac activity is first detectable in an embryo at approximately six weeks of pregnancy,
as measured from the first day of a patient’s last menstrual period (“LMP”). Thus, SB 8
bans abortion at or before six weeks LMP, a mere two weeks after a patient’s first missed
period (assuming regular menstrual cycles) and four months before viability
(approximately 24 weeks LMP).
5. The vast majority of abortions that we perform at HWC are past SB 8’s six-week cut-off.
Many patients do not even realize they are pregnant before that point, and those patients
who do generally still need time to make the decision whether to keep or end the
pregnancy and then access care consistent with Texas’s preexisting regulatory scheme.
6. It will be impossible for HWC to sustain our practice under SB 8’s enforcement scheme.
On the one hand, if we continue to perform abortions prohibited by SB 8, the clinic and I,
as well as all of the nurses, medical assistants, receptionists, and other staff that assist

2

App.172

with providing, scheduling, billing, and/or counseling for abortion care, could each be
sued under SB 8 and potentially held liable for at least $10,000 in statutory damages per
violation, quickly accruing enormous financial liability. On top of that, I understand that
my staff and I would risk ruinous licensure consequences, because a violation of SB 8
could also trigger disciplinary action by the Texas Medical and Nursing Board, and that
the clinic could likewise potentially lose its license. And, after a single ruling against us,
we would be enjoined from performing any further abortions in violation of SB 8. Even
if, hypothetically, we were guaranteed to win every one of the lawsuits sure to be brought
against us—by anyone, anywhere, who opposes our mission and wants to win themselves
tens or hundreds of thousands of dollars to boot—we would still face endless costs and
burdens, because we would be forced to defend ourselves in venues across Texas with no
opportunity to recover costs or attorney’s fees.
7. On the other hand, if we stop providing abortions after six weeks as SB 8 requires, we
will soon have to lay off our staff and shutter our clinic permanently. SB 8 bans the
majority of care we provide at HWC—the same care, in the same location, that we have
been providing to Texans for decades—without which we simply cannot afford to keep
our doors open.
8. In either scenario, we will be forced to turn away patients in need, to devastating effect.
Impact of SB 8’s Fee-Shifting Provision
9. I also understand that SB 8 makes parties and their attorneys liable to pay defendants’ costs
and attorney’s fees in cases challenging Texas laws that restrict or regulate abortion if we
lose on any one legal claim, even if the litigation was successful.

3

App.173

10. In order to fulfill our mission and provide our patients with the constitutionally protected
abortion care they seek, HWC has repeatedly been forced to bring judicial challenges to
restrictions targeting abortion providers in Texas.
11. SB 8’s fee-shifting provision will undermine our ability to vindicate our patients’
constitutional rights, potentially preventing us from bringing well-founded cases and/or
claims for fear that we and our attorneys might have to absorb massive fees and costs if we
are anything less than 100% successful.

4

App.174

App.175

App.176

App.177

App.178

App.179

App.180

App.181

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
WHOLE WOMAN S HEALTH, et al.,
Plaintiffs,
v.
AUSTIN REEVE JACKSON, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

CIVIL ACTION
CASE NO. _______________

DECLARATION OF MARVA SADLER
SUMMARY JUDGMENT

FOR

MARVA SADLER hereby declares under penalty of perjury that the following statements are
true and correct:
1. I am the Senior Director of Clinical Services

and

. WWH currently owns and operates three abortion
clinics in Texas:
North Texas Clinic

WWHA owns and operates an abortion clinic in Austin,

WWH and WWHA are both plaintiffs in this case. I am also a
plaintiff in my individual capacity.
2. I have been working in abortion clinics for over fifteen years and I have been working
with WWH since 2008. As a result, I am well-versed in abortion clinic operations and patient
care.
3.
business records.

1

App.182

Background and Role
4. I was born in Detroit but raised in Texas since the age of 3. Early in my career, I served
various roles in the medical field, working as a medical assistant, patient technician, and
paramedic. In 2005, I took a job as a patient advocate at an abortion clinic in Waco, Texas. I
enjoyed this work so much that I worked my way up and eventually became the manager of that
clinic.
5. I was introduced to Amy Hagstrom Miller and WWH in 2008. I was impressed by the
way they centered the patient experience in every aspect of their work, and I accepted a job as
the clinic manager of the WWH clinic in Beaumont, Texas. The Beaumont Clinic has since
closed due to a separate restrictive abortion law, House Bill 2 from 2013.
6. Over the next 10 years with WWH, I held a variety of positions: I served as clinic
manager of the Fort Worth Clinic, clinic manager of the San Antonio Clinic, and then the
Director of Clinical Services South, supervising the clinic managers of the San Antonio, Fort
Worth, and McAllen Clinics. The San Antonio Clinic has since closed.
7. In 2018, I was promoted to my current role as Senior Director of Clinical Services. In this
role, I am responsible for overseeing all of the clinical operations of all four Texas clinics, which
involves a variety of responsibilities. I manage human resources for our clinical staff, including
hiring, training, and physician scheduling. I oversee clinic compliance with state and federal law.
I supervise the development of new medical services and programs. I also work with our
associate director of clinical services and our medical director to create and update our clinic
policies and procedures. Finally, I coordinate with members of the executive team who are
responsible for other aspects of the organization, including finances, equipment, security

2

App.183

concerns, and vendor services. Generally, if an issue arises at one of our clinics, from a patient
concern to a security issue, the issue is elevated to me.
8. For example, when an anti-abortion individual infiltrated our Austin Clinic and
distributed handouts to staff inviting them to report violations of S.B. 8, I was notified and
assisted with the incident reporting and other repercussions.
9. I am often involved in addressing issues and incidents related to protesters, who are
regularly stationed outside each of our Texas clinics.
Impact of Texas Senate Bill 8
10. I understand that

S.B. 8

prohibits a physician from providing an

abortion if they have detected fetal or embryonic cardiac activity or if they have failed to test for
cardiac activity.
11. Since embryonic or fetal cardiac activity can be detected as early as six weeks gestation,
LMP

S.B. 8 bans almost

all abortion in Texas.
12. Only approximately 10% of the patients at all four WWH/WWHA clinics obtain an
abortion before six weeks LMP.
13. If we are not able to help these patients in Texas, we will do our best to connect them
with services in another state. However, not everyone can travel out of state. Almost all of the
states neighboring Texas are also hostile to abortion rights, so many patients will probably have
to fly across the country to receive care. Patients have childcare, work, and school
responsibilities. It is expensive to travel, particularly by plane, to have an abortion, and many of
our patients have low incomes or are poor. If the patient wants to keep their abortion private for

3

App.184

any number of reasons, including their personal safety, it is much harder to do so if they are
traveling out of state.
14. It makes me incredibly sad to think about what abortion access would look like in Texas
if care is unavailable after six weeks LMP. We know from experience that some patients will be
forced to remain pregnant. I was working for WWH in 2013 when House Bill 2 took effect,
closing several of our clinics, and this had a devastating impact on our patients. Last year, when
Governor Abbott issued an Executive Order that temporarily shut down abortion access in Texas
for approximately three weeks, we had to send panicked patients home from our clinics, and I
know some of them were never able to get the care they needed.
15. I understand that another aspect of S.B. 8 is that it is not directly enforced by state
officials but by private citizens. These private citizens can sue physicians performing abortions
after six weeks LMP
six weeks. If the private citizen wins their lawsuit, the physician or

can be

banned from providing or helping to provide abortions after six weeks LMP and ordered to pay
$10,000 or more per abortion, as well as costs

I understand that even if

someone has not violated S.B. 8, they could still be sued and would have to travel to a state court
somewhere in Texas, hire a lawyer, and defend themselves.
16. Based on the work I do at WWH and WWHA, I am very concerned that I will personally
be targeted by lawsuits under S.B. 8. In my current role, I am involved in virtually every aspect
of abortion services, either directly or indirectly. In addition to the management I provide for our
clinics, I am personally involved in patient care. I generally spend at least one day a month on
site at the clinics, filling in for staff members or providing an extra set of hands for intake,
payment and funding, pathology, patient counseling, and assistance during procedures.
4

App.185

17. I also understand that S.B. 8 includes a fee-shifting provision that makes parties and their

abortion.
18. I am concerned that because WWH and WWHA frequently file cases to challenge
unconstitutional abortion laws, S.B. 8

-shifting provision could make us liable for costs and

attorney s fees in these cases, impairing our ability to use litigation to vindicate our rights and
those of our patients.
19. The uncertainty created by S.B. 8 has already had a significant impact on our clinics. Our
staff are worried that the clinics will be forced to close and they will be out of a job. While we
generally have low staff turnover, ever since S.B. 8 started receiving public attention, staff began
to express serious fears that their jobs would no longer exist come September 1. In fact, over the
last several months, we have lost around one staff member every week, including one of our
clinic directors. We have been interviewing replacements for these positions, but every applicant
brings up S.B. 8 during their interview

. Our physicians are

concerned if they will still be able to travel to Texas to perform abortions in September.
20. Because of our staffing challenges, I have had to spend much more time
week

1-2 days per

on-site at the clinics filling in for missing staff. This has been going on for months, and

the problem is only getting worse.
21. I do not want to be sued just for coming to work to do my job. I do this work because I
believe it is the right thing to do. I have spoken with my family and they understand what might
happen and they support me.
22. More than anything, S.B. 8 fills me with sadness. I am sad for our patients, who already
overcome so much, on a daily basis, just to make their way into our clinics. I feel terrible for our
5

App.186

staff, who are already giving everything they can to our patients, but are now worried for their
own livelihood and their families. We have been through this type of challenge before, with the
clinic closures caused by House Bill 2, but at least then we knew roughly what to expect. This
time, I feel helpless and uncertain.
23. Because S.B. 8 is already disrupting our work, I am deeply concerned about what will
happen in September. I want to continue helping Texas patients access the care they need in a
non-judgmental supportive environment, as I have done for the past thirteen years.
if Texas will let me.

6

App.187

Dated: July 8, 2021
________________________________
MARVA SADLER

7

App.188

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION

Plaintiffs,
v.

Civil Action No. __________

AUSTIN REEVE JACKSON, et al.,
Defendants.
DECLARATION OF ZAENA ZAMORA IN
FOR SUMMARY JUDGMENT
I, Zaena Zamora, hereby declare as follows:

incorporated in Texas that arranges and funds transportation and lodging and provides financial
assistance for abortion care for people who want to end a pregnancy, but who cannot afford the
cost of abortion care, the ancillary costs that may be necessary to access that care, or both.
2.

Our mission is to make abortion accessible in the Rio Grande Valley by providing

financial and practical support regardless of immigration status, gender identity, ability, sexual
orientation, race, class, age, or religious affiliation and to build grassroots organizing power at
intersecting issues across our region to shift the culture of shame and stigma.
3.

As Executive Director of Frontera, I personally carry out, with assistance from
uding the fundraising, financial,

communications, administrative, and programmatic work.
4.

Prior to my service as the Executive Director, I served on the Board of Frontera for

about two years. During that time, I managed

1

App.189

and interacted directly with community member
obtain both funding for their abortion care, and the practical support necessary to access that care.
5.

I provide the following testimony based on personal knowledge acquired through

my service at Frontera Fund and review

6.

Frontera engages in various forms of advocacy to promote abortion access,

including providing direct funding for abortion care. When someone contacts Frontera seeking
assistance, we engage them in an intake process through which we obtain information about the
t for their abortion care. We then contact the
abortion clinic directly and provide a voucher for the amount pledged, which goes toward the
nt, the clinic bills us directly for the pledged
voucher amount.
7.

Each week, we pledge funding for callers until we exhaust our weekly budget. We

typically have to turn away a few callers each week. We provide financial support to roughly
seventy to eighty callers each quarter. We average about $200-300 per pledge, although the
specific amount for each individual caller may vary based on factors such as the gestational age of
their pregnancy and the clinic where they seek care.
8.

Certain times of the year are busier than others. For example, following natural

disasters or other hardship, such as the February 2021 power crisis caused by the polar vortex.
Such events cause people to work reduced hours (and receive reduced pay), incur costs to replace
contaminated food or water, or incur additional recovery expenses, leading to increased financial
hardship.

2

App.190

9.

Some callers additionally need support securing and financing costs associated with

travel. For these callers, we book and directly pay vendors for long-distance ground or air travel;

and lodging. We also provide reimbursement for gasoline to callers with access to private vehicles.
10.

In addition to providing financial and practical support for callers seeking abortion

care, Frontera engages in policy advocacy regarding abortion; provides callers with information
regarding abortion access and current restrictions on abortion care; and refers callers to other
abortion support service organizations, as needed.

11.

Frontera serves callers who either live in
who are traveling to
1

We do not pledge funding or provide practical

support to callers not meeting these criteria. Howe
for callers not meeting these criteria under certain exceptions: if we receive a request from another
abortion fund seeking aid for one of its callers, or if the caller is undocumented. Most of our callers,
roughly 84%, reside in the Rio Grande Valley, an area that includes Starr, Hidalgo, Willacy, and
Cameron Counties.
12.

The majority of our callers are under the age of thirty-five. Some of our callers are

minors. Some are undocumented. About one in twenty lack English proficiency. Most of our
callers currently have children. The overwhelming majority are beyond six weeks gestational age,
All of them lack the necessary funds to access
abortion care; South Texas is one of the poorest areas in the country.

1

Frontera is not affiliated with WWH in any way.
3

App.191

13.

Some of our callers are facing particularly difficult circumstances. Some are

experiencing homelessness. Some are students, have recently experienced a job loss, or are facing
other financial struggles. Some are experiencing domestic violence or other unsafe situations.
Others have experienced sexual assault. We have seen an increase in all of these circumstances
since the beginning of the COVID-19 pandemic. We try to provide these callers with additional
financial support, resources, and necessary referrals.
Impact of SB 8 on Frontera and Its Clients

September 1, 2021, would ban the provision of abortions at approximately six weeks of pregnancy,
prohibit aiding or abetting such abortions, and prohibit intending to aid or abet such abortions. I
also understand SB 8 to enable private parties to sue individuals and entities who engage in such
activities for a minimum of $10,000 per abortion performed in violation of the ban. With the
impending threat of SB 8, I am reluctant to onboard volunteers who could now be subject to legal
liability.
15.

If SB 8 prevents Texas abortion providers from offering abortion care after six
ll our callers would need to travel out of state. As stated above,

out-of-state travel is generally more expensive than in-state travel because it involves longdistance air or ground fare, lodging, and local travel expenses in costlier destinations than Texas.
Currently, we can afford to provide this support to the callers who need it only because relatively
few of them require it. If all our callers required assistance traveling out of state, we would be able
to serve only a tiny fraction of them in any meaningful way.
16.

Additionally, out-of-state travel would burden our callers in other ways. Traveling

longer distances means that they would have to take more time off work. For at least some callers,

4

App.192

this would be impossible. Some cannot take time off work without jeopardizing their employment,
others have limited time off, and others may not be able to afford the lost wages during time off.
Callers with children would have to arrange and pay for childcare for significantly longer. This is
prohibitively expensive for some. Callers would also face a more significant challenge to keep
their pregnancy and abortion care confidential, a particularly devastating result of SB 8 for those
experiencing domestic violence or other abusive situations.
17.

Many of our callers would be forced to carry their pregnancy to term or take matters

into their own hands. Those who can travel out of state would still have to overcome substantial
obstacles to accessing abortion services, such as the heightened expense; additional time away
from home and work; and added stress and anxiety from having to navigate an entirely different
environment. These obstacles can be immensely burdensome even when they are not prohibitive.
18.

On the other hand, if some people continue to access abortion in Texas with
effect, I expect individuals or organizations opposed to abortion

access to sue Frontera for providing practical and financial support for Texans seeking abortion
care after six weeks. Although I believe that SB 8 is unconstitutional and therefore invalid, lawsuits
filed pursuant to SB 8 against Frontera would hobble our ability to serve our clients because we
lack the resources to defend against the suits. I understand that lawyers typically charge hundreds
of dollars per hour for their services, and to date, Frontera has not been able to secure commitments
from attorneys to represent us on a pro bono basis if we are sued under SB8. It is my understanding
that attorneys who represent us in an SB 8 lawsuit cannot recover their costs or fees from the
plaintiffs or the state even if successful, but they could be held liable for

5

App.193

19.

Frontera provides an important service in the Rio Grande Valley, an under-

resourced community facing many challenges already. We give people access to the life that they
want to live. By giving people the resources to make the decisions that are best for them, we
commit radical acts of care and community love. When I tell a caller that Frontera will help them,
I always hear relief from the caller that they can move on with their lives or make decisions for
themselves without worrying about not having the money. The cost of abortion care and related
expenses is a lot of money, especially for people of reproductive age in this community. It is not a
lers do not have to forego food, rent, diapers,
other medical care, or other expenses.
20.

In preventing us from helping vulnerable South Texans obtain abortion care in their

state, and forcing us to shift our support to out-of-state travel, which is either impracticable or
extremely burdensome for our clients, SB 8 would frustrate our mission.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true
and correct.
Dated: July 6, 2021
____________________________________
Zaena Zamora

6

App.194

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
et al.,
Plaintiffs,
v.

Civil Action No. __________

AUSTIN REEVE JACKSON, et al.,
Defendants.
DECLARATION OF MARSHA JONES IN SUPPORT OF
I, Marsha Jones, declare as follows:
1.

I am the Co-Founder and Executive Director of The Afiya Center.

2.

I am responsible for overseeing

and operations;

raising money for the organization and managing its finances; and serving as a liaison between
staff and Board of Directors.
3.

I provide the following testimony based on personal knowledge acquired through

my service at The Afiya Center, including consultation with staff and Board members and review

The Afiya Center
4.

rtion Access

Based in Dallas, Texas, The Afiya Center is a nonprofit organization incorporated

under Texas law.
5.

Its mission is to serve Black women and girls by transforming their relationship

with their sexual and reproductive health through addressing the consequences of reproductive
oppression.
6.

The Afiya Center currently has 16 paid staff members and 5 volunteers.
1

App.195

7.

The Afiya Center

to promote abortion access. The Afiya

Center has long recognized that, for Black women, there is a perceived double standard: we are
stigmatized when we have children and are further shamed and stigmatized when we seek
abortions. Our advocacy efforts include programs to ensure that every Texas woman is truly
supported

no matter her choice. The Afiya Center is a proud participant in the Trust, Respect,

Access Coalition

a multi-year campaign to promote policies that restore trust in Texans to

make their own reproductive health care decisions, respect the dignity of Texans and the
judgment of health care professionals, and ensure access to abortion and the support all Texas
families need to thrive. This unprecedented, coordinated campaign aims to shift the policy
climate around abortion access in Texas, to educate the public about the harm caused by decades
of anti-abortion laws, and to hold lawmakers accountable for political attacks on reproductive
health care.
advocacy to promote abortion access includes operation of the

8.

Supporting Your Sistahs (SYS) Fund. The SYS Fund was conceptualized in 2017 and officially
launched in 2019. Its purpose is to meet the unique needs of Black women and girls requiring
practical and financial support to access abortion care. I oversee The Afiya Center staff members
and volunteers who operate the SYS Fund. In addition, I sometimes provide supportive services
directly to SYS Fund recipients. For example, I have accompanied recipients to their abortion
appointments.
9.

The SYS Fund provides direct financial assistance to pregnant women and girls

who want to have an abortion but cannot afford the cost of care. We pledge a minimum of $250
to every prospective abortion patient and pay that money directly to the abortion provider after the
abortion is completed.

2

App.196

10.

In addition, the SYS Fund provides practical support to prospective abortion

patients in the form of assistance with transportation, lodging, meals, childcare, over-the-counter
medications, and supplies such as menstrual pads, as well as emotional support.
11.

People seeking assistance from the SYS Fund may contact The Afiya Center by

phone or email twenty-four hours per day, seven days per week. We aim to have a staff member
or volunteer respond within twenty-four hours. That staff member or volunteer will gather
information about the

assess their needs with respect to financial and

practical support. They will also provide the person with information about abortion services and
the resources available to assist them.
12.

We stay in touch with each recipient of financial assistance or practical support for

thirteen months after her abortion. We check in with recipients the day before, the day of, and the
day after their abortions to assess their emotional and practical support needs. Subsequently, we
check in with recipients once per week for the first month after their abortion, then once per month
for the next three months, and then on a quarterly basis. The purpose of these check-ins is to assess
For example, we have provided

a recipient

individuals with financial assistance for rent and utilities during this thirteen-month period.
13.

s

intended to send a clear message to the public, to policymakers, and to Black women: All people
have a human right to bodily autonomy; all people have a human right to make their own medical
decisions and access the healthcare that they choose; and all people should be treated with dignity
and respect when obtaining abortion care.
Characteristics of People Who Receive Assistance from the SYS Fund
14.

Since its launch in 2019, approximately 218 pregnant women have received

financial or practical assistance from the SYS Fund.
3

App.197

15.

All of them have been at least six weeks pregnant at the time of their abortion.

16.

Most recipients have been from the Dallas-Fort Worth metroplex, but a few have

been from other parts of Texas, such as Houston.
17.

All recipients have been Black women. A majority of recipients are under twenty-

five years old, have meager financial resources, and are already parents. Many have multiple
children to care for; have unsupportive or abusive partners or family members; and lack stable
housing. A substantial number of recipients are HIV positive.
18.

Many SYS Fund recipients are low-wage workers with little or no control over their

work hours, no paid sick leave, and no job security.
19.

SYS Fund recipients typically are uninsured, do not have regular contact with the

healthcare system, and have low health literacy. Like all Black women, they are at significantly
higher risk of experiencing pregnancy-related complications and maternal mortality than the
general population.
Impact on The Afiya Center and SYS Fund Recipients
20.
September 1, 2021, would ban the provision of abortions at approximately six weeks of pregnancy,
prohibit aiding or abetting such abortions, and prohibit intending to aid or abet such abortions. I
also understand that SB 8 would enable private parties to sue individuals and entities who engage
in such activities for a minimum of $10,000 per abortion performed in violation of the ban.
21.

The Afiya Center believes that SB 8 is unconstitutional and therefore invalid.

Nevertheless, if it takes effect, it will cause irreparable harm to The Afiya Center and SYS Fund
recipients.
22.

As a nonprofit organization, The Afiya Center depends on charitable donations to

4

App.198

concerned both that they might face lawsuits alleging that they have aided and abetted prohibited
abortions under SB 8 by supporting Th
contributions might ultimately go to pay judgments and legal bills related to SB 8 rather than to
their intended purpose.
23.

modest. Having to pay a $10,000

judgment for every abortion we facilitate would easily bankrupt us. Even if we successfully assert
constitutional or other defenses in response to lawsuits filed against us under SB 8, the legal bills
we would incur in the process would likely bankrupt us. I understand that lawyers typically charge
hundreds of dollars per hour for their services. To date, The Afiya Center has not been able to
secure commitments from licensed, Texas attorneys to represent us on a pro bono basis if we are
sued under SB 8, nor have we been able to raise money to pay for legal services.
24.

The Afiya Center is a plaintiff in a federal lawsuit in the Western District of Texas,
, No. 1:18-cv-500-LY, which challenges the

captioned

constitutionality of certain abortion restrictions. In that case, as in this one, our attorneys are
representing us on a pro bono basis because they have the opportunity to recover their fees from
the state under 42 U.S.C. § 1988 if The Afiya Center is a prevailing party. It is my understanding
that attorneys who represent us in an SB 8 lawsuit could not recover their costs or fees from the
plaintiffs or the state even if successful, and SB 8 indicates that they could be held liable for the

25.

If SB 8 takes effect, I believe the likelihood is high that individuals or organizations

opposed to abortion access will sue us for aiding and abetting prohibited abortions. As an
organization run by Black women for the benefit of Black women, we often have a target on our
back. Moreover, we have a history of being targeted for our efforts to ensure abortion access for

5

App.199

marginalized Black women. Last year, seven towns in Texas enacted local ordinances declaring
labeling The Afiya Center, along with other
nonprofit organizations that facilitate abortion access
operating in the towns.
26.

If SB 8 ultimately causes Texas abortion providers to cease offering abortions after

six weeks of pregnancy, none of our SYS Fund recipients would be able to obtain lawful abortions
in Texas. Yet, most of them would lack the capacity to travel out of state for abortion care given
their limited resources, lack of job flexibility, and family obligations. I expect that many of these
marginalized women will be forced to carry an unwanted pregnancy to term and then struggle to
support a larger family.
27.

Overall, I expect that low-income, Black women will disproportionately suffer the

denial of bodily integrity and basic human dignity that SB 8 seeks to inflict on Texas residents. I
pray that the Court will take action to prevent this outrageous injustice from manifesting.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true
and correct.
Dated: July 9, 2021
Marsha Jones

6

App.200

App.201

App.202

App.203

App.204

App.205

App.206

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
et al.,
Plaintiffs,
v.

Civil Action No. __________

AUSTIN REEVE JACKSON, et al.,
Defendants.
DECLARATION OF KAMYON CONNER
FOR SUMMARY JUDGMENT
I, Kamyon Conner, declare as follows:
1.

I am the Executive Director of the North

a nonprofit corporation incorporated under Texas law and based in Dallas, that provides financial
and emotional support for low-income abortion patients in northern Texas. Our mission is to foster
reproductive justice, which includes removing barriers to abortion access through community
education.
2.

My primary responsibilities as Executive Director are working with our Board of

Directors to help ensure the implementation of our mission; managing our budget, including
fundraising; and overseeing our programmatic work, including supervising staff and volunteers.
3.

I have provided services at TEA Fund for nearly fifteen years, first as a volunteer

fielding calls to our Helpline, and then as a Board Member and Intake Coordinator. In the latter
roles, I helped shape the mission and strategies
experiences.

1

App.207

4.

I provide the following testimony based on personal knowledge acquired through

my service at TEA Fund, including consultation with staff and Board members, and review of the

Services
5.

TEA Fund has seven staff members and over 125 volunteers. We primarily serve

people living in northern Texas. In 2020, our Helpline received over 10,500 calls from Texans
seeking help paying for an abortion. Most of our callers are referred by abortion providers in the
state. The calls came from 110 counties in Texas, many of them rural. Seventy percent of the
callers were Black, indigenous, or people of color. Indeed, the majority of Texas abortion patients
identify as Black or Latina

communities that already face inequities in access to medical care.

At least 50% of our callers had a child. Almost all were more than six weeks pregnant.
6.

A caller can qualify for assistance based on their financial circumstances, the

amount of financial aid they have been able to obtain from other sources, and the cost of their
abortion care. When a caller qualifies, TEA Fund sends a financial voucher to the abortion provider
with whom the

appointment is scheduled and pays the provider after the abortion is

completed. The average amount for a voucher is $330 and varies based on gestational age.
7.

In 2020, TEA Fund provided over $400,218 to assist 1,218 Texans in obtaining

abortions. Unfortunately, budgetary constraints prevent us from providing funding for every caller
who needs it and from covering the full cost of the abortion for the callers we can help. In 2020,
we were unable to provide any financial assistance at all to three-quarters of the people who
requested it.
8.

needs, such as transportation, lodging, and meals, we

coordinate with organizations offering practical support for obtaining an abortion. TEA Fund has

2

App.208

a social worker who follows up with clients soon after their scheduled abortion appointment. Each
year, we learn that some clients never made it to their abortion provider because they were unable
to meet travel expenses even with our contribution towards the cost of the abortion itself.
9.

Last year, TEA Fund introduced a textline that provides information about where

to get an abortion, how to get help paying for care, and how to connect to practical support
networks. TEA Fund also has a virtual Client Companion Program, through which our volunteers
provide emotional support to abortion patients during their medication abortion at home or their
in-clinic abortion procedure.
throughout Texas to advocate for meaningful abortion access.
10.

TEA Fund provides these services to people seeking abortion care in Texas to

express and effectuate its deeply held belief that abortion is a fundamental part of healthcare and
that restrictions on abortion access discriminate against people with low incomes, young people,
people in rural areas, and people of color.
Impact of SB 8 on TEA Fund and its Clients
11.
September 1, 2021, would ban the provision of abortions at approximately six weeks of pregnancy,
prohibit aiding or abetting such abortions, and prohibit intending to aid or abet such abortions. I
also understand SB 8 to enable private parties to sue individuals and entities who engage in such
activities for a minimum of $10,000 per abortion performed in violation of the ban.
12.

If SB 8 prevents Texas abortion providers from offering abortion care after six

weeks gestational age, almost all our clients would need to leave the state for care. This would
mean traveling even greater distances than they already do; increased transportation costs,
including air fare; increased lodging and childcare costs; more lost wages; a greater risk of losing

3

App.209

their jobs; and greater difficulty maintaining the confidentiality of their abortion or pregnancy. In
my experience, these challenges would be overly burdensome for nearly all our clients and
insurmountable for some. If SB 8 takes effect, TEA Fund intends to shift its resources to the costs
of out-of-state abortion care and to add a practical support budget for each client. Even this is
unlikely to ensure abortion access for our most vulnerable clients, however.
13.

When Texas sharply curtailed abortion access at the start of the COVID-19

pandemic last year, our clients faced long wait times for an appointment and often traveled long
distances out of state to reach a provider legally authorized to perform abortions. The resulting
financial burdens, including more expensive procedures due to the later gestational age of the
pregnancies, made it even more difficult for them than usual to meet the costs associated with outof-state travel. So, we coordinated with abortion funds in New Mexico to provide food and other
resources to Texans traveling to a provider there. Despite our best efforts, several Texans were
unable to leave the state and carried to term.
14.

TEA Fund believes that SB 8 is unconstitutional and thus invalid. If it takes effect,

however, I expect individuals or organizations opposed to abortion access to sue us for providing
assistance, including financial support, to Texans seeking abortion care after six weeks of
pregnancy. We have already been targeted for our efforts to ensure abortion access for all Texans
regardless of circumstance. Last year, seven towns in Texas enacted ordinances drafted by the
Director of Right to Life of East Texas

;

branding

; and attempting to bar

us from operating in the towns. After we challenged the ordinances in federal court as violations
of our First Amendment rights to free expression and association, the towns revised the ordinances
to make it clear that we could continue our work in support of equitable abortion access throughout

4

App.210

Texas. In response to a defamation suit we brought with other abortion funds against the Director
of Right to Life of East Texas, he

.

The Lilith Fund and other abortion-aiding organizations all take part in the murder of innocent
1

Since we brought the defamation suit, there have been twelve countersuits

filed against us and other abortion funds by individuals opposed to abortion access. We were also
targeted for our services and message when a former Austin City Council member sued the City
of Austin in 2020 for indirectly allocating funds to TEA Fund to carry out its mission.
15.

Lawsuits filed pursuant to SB 8 against FTC would undermine our ability to serve

our clients because we lack the resources to defend against the suits. This is true even if we were
to divert our limited staff time and organizational funds to doing so. I understand that lawyers
typically charge hundreds of dollars per hour for their services. We had to raise money to retain
lawyers to represent us in the defamation lawsuits discussed above. To date, TEA Fund has neither
been able to secure commitments from attorneys to represent us on a pro bono basis if we are sued
under SB 8, nor have we been able to raise additional funds to pay for legal services. It is my
understanding that attorneys who represent us in an SB 8 lawsuit cannot recover their costs or fees
from the plaintiffs or the state even if successful, but SB 8 states they could be held liable for the
in some circumstances.
16.

TEA Fund is also a plaintiff in a federal lawsuit in the Western District of Texas to

challenge the constitutionality of certain abortion restrictions. That case is captioned Whole
, No. 1:18-cv-500-LY. In that case, as in this one, our attorneys

1

Robin Y. Richardson, Defamation lawsuit filed against Right to Life East Texas Director, Tyler Morning
Telegraph (July 16, 2020), https://tylerpaper.com/news/local/defamation-lawsuit-filed-against-right-to-life-easttexas-director/article_eb2431f7-070a-53bf-89a2-5bc98d57acac.html.

5

App.211

are representing us on a pro bono basis because they have the opportunity to recover their fees
from the state under 42 U.S.C. § 1988 if TEA Fund is a prevailing party.
17.

As Executive Director of TEA Fund, I am also concerned that the likelihood of

being sued by individuals or organizations opposed to abortion access will chill our volunteers or
staff from continuing on in their roles at the organization.
18.

By preventing us from helping vulnerable Texans obtain abortion care in their state

and forcing us to shift to out-of-state financial support that will be largely inadequate for our
clients, SB 8 would frustrate our mission.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true
and correct.
Dated: July 12, 2021

Kamyon Conner

6

App.212

App.213

App.214

App.215

App.216

App.217

App.218

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
WHOLE WOMAN S HEALTH, et al.,
Plaintiffs,
v.
AUSTIN REEVE JACKSON, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

CIVIL ACTION
CASE NO. _______________

DECLARATION OF REVEREND DANIEL KANTER IN SUPPORT OF
FOR SUMMARY JUDGMENT
REVEREND DANIEL KANTER, declares under penalty of perjury that the following
statements are true and correct:
1.

I am the CEO and Senior

2.

First Church is a progressive cathedral of Unitarian Universalism. My

congregation consists of 1,100 people in the Dallas-Fort Worth region across a 50-mile radius.
The Church reaches 3,000 people in total through broadcasting to 37 states and 7 countries.
for Summary Judgment

3.

offer are based on my training and experience as a licensed and ordained member of the clergy
who has worked in Texas for the past 20 years.
My Background and Beliefs
4.

I received my Doctorate in Ministry from the Perkins School of Theology at

Southern Methodist University in 2007. I also received my M

App.219

Degree in Divinity from the

Starr King School for the Ministry in Berkeley, California and my B.A. in Psychology and Asian
Area Studies from the University of Vermont.
, Massachusetts in 1998, where I served

5.
as an Assistant Minister for three years.
6.

I moved to Texas 20 years ago to be a sabbatical minister at First Church. I have

been promoted over the years to Assistant Minister, Associate Minister, and now Senior
Minister. I have served this Church as CEO and Senior Minister since January 2009.
7.

As CEO and Senior Minister, I am responsible for all operations of the Church

and its ministry. In my role as CEO, I design the strategic direction for the Church and its
programs, manage our full-time employees, and serve as steward of our community. In my role
as Senior Minister, I regularly preach to the congregation; provide pastoral care, such as the
administration of rites of passage and officiation of burials and weddings; and oversee the
educational programs of the Church.
8.

My personal religious beliefs stem from the core principles of Unitarian

Universalism. The core belief in Unitarian Universalism is the inherent dignity and worth of all
living human beings. We believe that God is a loving God that loves us all, and our job is to live
up to that ideal by making the world as loving, compassionate, and just as we can. 1
9.

Because of these core tenets, I believe that pregnant people need to make

decisions about their reproductive health

including decisions to have an abortion

for
their

themselves

choice. This is particularly important given that people seeking abortions often face challenging
circumstances, including rape, abuse, and judgment from their loved ones.

1

The Seven Principles, Unitarian Universalist Association, https://www.uua.org/beliefs/what-we-believe/principles.

2

App.220

10.

I believe that just like any other person called to the ministry of the care of

people, I am an agent of God on this Earth. My religious mission is to serve my parishioners and
others I encounter with justice and compassion. I find fulfillment whenever I am supporting the
dignity and worth of all people.
11.

I also believe that every person who wants a confidential conversation with a

member of the clergy before making decisions about their reproductive choices is entitled to that
conversation. My dedication to providing pastoral care includes providing emotional and
spiritual support to individuals and their families contemplating abortion. During my years as a
Minister, I have provided confidential counseling to parishioners seeking guidance about
unintended pregnancy, past abortions, and other reproductive decision-making.
History of First Church
12.

First Church was founded in 1899 and has a long history of involvement in

progressive causes

work that continues to this day. For instance, First Church advocated for

school desegregation 20 years before any court-ordered school desegregation. The Church has
spoken out for LGBT causes for 45 years and has worked on AIDS-related issues for years.
Further, the Church itself has a history of providing comprehensive sex education for youth.
13.

First Church also has a long history advocating for reproductive rights. As early

broad coalition t
McCorvey, the plaintiff who would be known as Jane Roe, and participated in an amicus brief
submitted in the Roe v. Wade case.2 First Church continues that coalition to this day, celebrating

2

Our History, First Unitarian Church of Dallas, https://www.dallasuu.org/history/.

3

App.221

its history and continuing to move forward its advocacy. For example, First Church recently held
a fiftieth anniversary event for Roe v. Wade, and has hosted numerous community events,
inviting speakers like Cecile Richards to present to our congregation.
14.

When I first came to First Church, its history was particularly salient to me in

both my ministry and my involvement with the progressive religious community in Dallas. I
ghts and justice, but
these issues took on new meaning when I joined First Church. Over the years, I have become
increasingly dedicated to the cause and expanded my own advocacy regarding my beliefs. I
joined the Board for Planned Parenthood of North Texas and, later, the Board for Planned
Parenthood of Greater Texas, on which I still serve. From 2017 to 2019, I was the Chair of the
Clergy Advocacy Board for Planned Parenthood Federation of America.
15.

For many years, I have also worked with the Texas Freedom Network, a non-

partisan grassroots organization of more than 150,000 religious and community leaders who
support civil rights and progressive causes like reproductive rights and justice. First Church is
the first church that Texas Freedom Network designated as a reproductive justice congregation.
16.

years ago,

for example, First Church was a target for harassment by anti-choice protesters called the
Abolitionists, who launched a protest outside our Church during Sunday services. Carrying large
signs and wearing body cameras, the group yelled at parishioners and their children, haranguing

parishioners was, thankfully, unsuccessful. In fact, the Church gained new members because of
that incident.

4

App.222

laincy Program
17.

Pursuant to my beliefs, in 2017, I founded a Chaplaincy Program at Southwestern

with First Church and my community in Dallas, I recognized the shame and stigma that
accompanies reproductive decision-making and the lack of support that many Texans have
during these important and tender moments in their lives. My goal in creating the Chaplaincy
Program was to create a support network to be present with patients and their families making
decisions about abortion to fill this spiritual gap. This work is an important part of my
commitment to the human journey and to ensuring that all individuals have spiritual support in
the moments in their life when they need compassion.
18.

The Chaplaincy Program involves me, and other clergy members from various

religious faiths, including Jews, Methodists, Presbyterians, and Disciples of Christ, providing
individual counseling and emotional/spiritual support to patients and/or their families during
-10 members of the clergy
volunteering at Southwestern during shifts throughout the week.
19.

I have personally counseled hundreds of patients through the Chaplaincy

Program. I have counseled a wide range of patients over the years, including: anti-choice
individuals seeking an abortion to save their lives; families struggling with fetal diagnoses;
patients abused by their own families; anxious boyfriends and husbands waiting for their
partners; and the full range of individuals who are attempting to create agency in their own lives.
Our conversations have covered a wide range of topics. I have assured patients that God is not
condemning them for their choices. I have answered religious questions and sat in prayer or
meditation with patients and their families. My counseling has helped uncover abuse and other

5

App.223

important
patients.
20.

Over the last several years, the Chaplaincy Program has served hundreds of

patients and has been extremely well-received by both patients and clinic staff. Patients have
been extremely thankful and have reported how important and meaningful the counseling we
provide was to their experience at the clinic.
21.

While the in-person Chaplaincy Program has been temporarily suspended during

the COVID-19 pandemic, I have continued to be on-call for remote consultations with patients,
and we intend to re-start in-person counseling when it is safe to do so.
The Impact of S.B. 8
22.
fetal

I understand that S.B. 8 prohibits providing an abortion after the detection of
and is therefore a six-week ban on abortions. The bill also makes it a violation

to aid or abet an abortion after the detection of a fetal heartbeat.
23.

I am personally opposed to S.B. 8 because it effectively outlaws the majority of

abortions in Texas. My understanding is that at six weeks, many pregnant people do not know
that they are pregnant. Thus, in practicality, S.B. 8 makes it impossible for the majority of
Texans to discern and decide whether to carry or terminate a pregnancy. Patients will not be able
to access a safe medical procedure and necessary healthcare.
24.

Moreover, I am concerned that the religious counseling I provide to both my
subject me to

lawsuits by individuals who say that I am
restrain what I

as a member of the clergy

can say to another human being and prevent me

from providing the spiritual and emotional counseling that I am called by my religious beliefs to

6

App.224

provide. I am deeply concerned that S.B. 8 violates my ability to be in a conversation with a
an ability which I thought was protected in
this country as sacrosanct. If I cannot provide pastoral care consistent with my religious beliefs, I
am not able to exercise my right to practice as a Minister.
25.

Based on my experiences as a member of the clergy in Dallas for 20 years, I

believe that S.B. 8 will have wide-ranging and harmful consequences, both for people like me
and for the Texans who need abortion care. At a minimum, S.B. 8 will result in many unwanted
pregnancies and many Texans denied the ability to make basic decisions about their reproductive
lives. The bill will have very public consequences as well, forcing people further into poverty
ll inevitably be a lot of emotional and
spiritual trauma, as well as unnecessary pain and suffering, on the part of people forced to bring
a pregnancy to term, whether that pregnancy is viable or not.
26.

I refuse to let S.B. 8 or any other law interfere with my ability to practice my

ministry. Although I am concerned with the financial consequences
punitive and arbitrary

which seem entirely

I must be able to fully present myself in the ministry to which I have

been called by God.

7

App.225

App.226

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
WHOLE WOMAN S HEALTH, et al.,
Plaintiffs,
v.
AUSTIN REEVE JACKSON, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

CIVIL ACTION
CASE NO. _______________

DECLARATION OF REVEREND ERIKA FORBES IN SUPPORT OF
FOR SUMMARY JUDGMENT
REVEREND ERIKA FORBES, declares under penalty of perjury that the following
statements are true and correct:
1.

I am a licensed, ordained minister and licensed spiritual counselor, located in

Dallas, Texas.
2.

I received my license and ordination as an Interfaith Minister from One Spirit

Interfaith Seminary in New York City in 2006. I also received
Religions from the same institution as well as a B.A. in Education from California State
University, Hayward (n/k/a California State University, East Bay).
3.

After obtaining my license and ordination, I moved to San Antonio and founded

The Awakening Spiritual Community, a faith-based 501(c)(3) organization. I served as full-time
Spiritual Director and Pastor for six years, creating a non-denominational spiritual community
bound together by love rather than religion. We held Sunday services and amplified our
messages through digital media. Through this community, I have worked with people of every

1

App.227

religious background and provided pastoral care for various life cycle events, including
pregnancy and other reproductive choices.
4.

Since leaving The Awakening Spiritual Community, I have continued to work as

a minister and have given sermons before many congregations throughout Texas.
5.

I also maintain a separate, private spiritual counseling practice. My clients are

primarily pregnant people from all religious traditions, including no tradition. They come to me
for prayer and support as they make pregnancy decisions or after their abortions. I have
counseled over 200 pregnant people, more than half of whom are Texans.
6.

I am also the State Faith and Outreach Manager for the Texas Freedom Network,

a non-partisan grassroots organization of more than 150,000 religious and community leaders
who support civil rights and progressive causes like reproductive rights and justice.
for Summary Judgment

7.

offer are based on my training and experience as a licensed and ordained member of the clergy
and spiritual counselor who has worked in Texas for the last eight years.
My Personal Beliefs
8.

I have been an outspoken advocate for reproductive rights and justice for many

9.

I believe that there is a greater divine presence

years.

spirit or something else

whether you call it God or a

that gives us the divine right to make the best choice for ourselves at

any given time and that we alone are equipped with the right answers for the decisions we will
make in our lives. This divine right includes the right to bodily autonomy, the right to thrive,

2

App.228

and, specifically, the right to obtain an abortion. I believe that in both scripture- and earth-bound
traditions, God does not condemn the personal choice to end a pregnancy.
10.

I believe that I have been called to help pregnant people, particularly people in

Texas, realize their divine rights. Here in Texas, God has been taken hostage by those opposed to
abortion. As a result, pregnant people have internalized shame and stigma around their abortion
choices. I believe that it is my duty and responsibility to help people feel supported and trusted
by a licensed and ordained member of the clergy while making choices about their bodies,
particularly because this is a message they rarely hear from clergy. I believe that pregnant people
in Texas need access to clergy that are supportive of their bodily autonomy.
11.

My work as a spiritual counselor is particularly important because of who I am. I

am a Black female minister, a mother, and a person who has had two abortions. It is rare to find a
female member of the clergy like me. But this is exactly why pregnant people contemplating
abortion seek my counsel.
12.

Pregnant people who come to me for counseling need a variety of spiritual and

emotional services to aid in their pregnancy decision. Many come to me to ask for permission
from God for their abortion, for absolution of the guilt they feel, or for reassurance that they can
make the choice that they already know is right for them. Clients who come to me after their
abortions often seek relief from the shame and guilt they feel as a result of the stigma around
religious tradition and texts to provide

abortion. For both types of clients, I use the
needed spiritual support.
13.

Over the years, I have also become a vocal public advocate for abortion access in

Texas. As a result, I have suffered from persistent digital harassment by those who oppose
abortion.

3

App.229

The Effects of S.B. 8
14.

I understand that S.B. 8 is an abortion ban that will prohibit all pregnant people in

the state of Texas from accessing abortion care once they are approximately six weeks pregnant.
I also understand that anyone who assists with an abortion later than six weeks can be sued in a
civil case. Particularly given the hostility against me and others supportive of abortion in Texas, I
fear that people who file suits under S.B. 8 will broadly target myriad forms of assistance,
including the counseling that I provide.
15.

It is impossible to overstate the impact that this bill will have if it were to go into

effect. I know because I serve the people of Texas as a minister, a counselor, and a spiritual
advisor. I am deeply concerned about the prospects pregnant people will face. As a person who
had two abortions after six weeks myself, I know that the inability to get a legal and safe
abortion will decimate pregnant

livelihoods and future opportunities. S.B. 8 will take a

tremendous toll on their financial, psychological, emotional, and spiritual existence.
16.

Moreover, this bill is devastating because it will affect both the Texans who seek

abortions after they are six weeks pregnant and every person in their support network, who will
understandably fear being sued for any assistance they provide.
17.

I fear that S.B. 8 will prevent me from fulfilling my calling and purpose as a

member of the clergy. If this bill goes into effect, I fear I will not be able to continue my
counseling work and will be forced by a court to stop supporting pregnant people making
decisions about abortion. S.B. 8 will not change my beliefs, but it could prevent me from
expressing them and practicing my own religious and spiritual beliefs.
18.

I am driven to my work in counseling pregnant people by an inner, divine calling

that there is some purpose bigger than myself. As a person of faith and as a woman who has

4

App.230

benefited from the right to abortion, I feel a divine mandate and destiny to sacrifice as much for
those I serve now as the advocates who came before me. It is my turn to serve.

5

App.231

6

App.232

App.233

App.234

App.235

App.236

App.237

App.238

ROBERT PITMAN
U.S. DISTRICT JUDGE

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
501 West 5th Street, Suite 5300
Austin, Texas 78701

TELEPHONE
(512) 391-8824

August 9, 2021
Lyle W. Cayce, Clerk
United States Court of Appeals for the Fifth Circuit
600 S. Maestri Place
New Orleans, LA 70130-3408
Re:

No. 21-50708

Dear Mr. Cayce,
The District Court responds to the invitation by the Court of Appeals to respond to
Rule of Appellate Procedure 21(b)(4).
First, the District Court confirms that, despite having ordered briefing to occur
light of the time constraints inherent in this case, the District Court does intend to address
jurisdictional issues before resolving the merits of the case. Indeed, nothing in its original scheduling
order should have been taken to indicate otherwise. The District Court invited Defendants to raise
in their responses any obstacles to resolving the merits of the case on the timeline instituted by the
court.
Second, in light of
recently filed motion for preliminary injunction, the District
Court intends to revise the current briefing schedule to provide for simultaneous briefing of
and
. It
that it is not uncommon for district courts in this circuit to routinely order briefing on motions to
dismiss simultaneously with motions for emergency injunctive relief. See, e.g., TrueBeginnings, LLC v.
Spark Network Servs., Inc.
both
agreement on the TrueBeginnings website, the court determines that all three motions should be
Any motions for summary judgment will then be decided in the appropriate
sequence.
intention to enter the following revised briefing schedule:
1.

August 11, 2021
at 5 p.m. Any replies shall be filed on or before August 13, 2021.
1

App.239

2. Defendants shall respond to
before August 16, 2021 at noon. Any replies shall be filed on or before August 19, 2021.
3.
August 25, 2021 at noon. Any replies shall be filed on or before August 27, 2021.
4.
September 10, 2021. Any replies shall be filed on or before September 17, 2021.
5. The Court will hold a hearing on Plainti

August 30,

2021.

revised scheduling order, the District Court respectfully requests that this Court dismiss the pending
petition for mandamus as moot. The District Court is endeavoring to sequence the many important
requests for relief being sought by all the parties, bearing in mind the compressed schedule, and
ensuring the case proceeds in accordance with the law and notions of fairness.
Sincerely,

_____________________________________
ROBERT PITMAN
UNITED STATES DISTRICT JUDGE

2

App.240

App.241

App.242

App.243

App.244

App.245

App.246

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
et al.,
Plaintiffs,
v.
AUSTIN REEVE JACKSON, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

CIVIL ACTION
CASE NO. 21-cv-00616-RP

DECLARATION OF J. ALEXANDER LAWRENCE
J. ALEXANDER LAWRENCE, declares under penalty of perjury that the following
statements are true and correct:
1.

I am a Partner in the law firm Morrison &

2.

On August 4, 2021, Judge Austin Jackson held a press conference at Living

Alternatives, The AXIA Center (Pregnancy Resource Center) in Tyler, Texas.
3.

The video of the press conference is available at https://www.ketk.com/news/local-

news/judge-austin-jackson-east-texas-pro-life-activist-sued-in-effort-to-block-texas-abortionheartbeat-bill/ (last visited August 7, 2021).
4.

Attached hereto as Exhibit A is a true and correct copy of a transcription of the

video of the press conference.

Dated: August 7, 2021

_/s/ J. Alexander Lawrence______
J. Alexander Lawrence

ny-2205770

App.247

Exhibit

App.248

JUDGE AUSTIN JACKSON, EAST TEXAS PRO-LIFE ACTIVISTS SUED IN
EFFORT TO BLOCK TEXAS ABORTION HEART (AUGUST 4, 2021)
Judge Austin Jackson
Thank you so much for allowing us to be here today and to the rest of the folks here from
Living Alternatives, I want you to know how much this means to me personally that you
allowed us to not only come in here, but were willing to show the courage to stand with us on
an issue like this.
As a judge, I like to think that every day I
looking at what you do here that every day you ge
very exciting that today we get to come together and walk humbly together with our God.
And so thank you so much for that opportunity.
the 114th District Court here in Smith County. A
recently named as the number one target in Texas of Planned Parenthood and other proabortion activists. On the most
e these groups have filed a
frivolous lawsuit against me down in Travis County in front of a liberal Obama-appointed
federal judge for no reason other than that I am someone committed to the rule of law and
-county, out-of-state, out-of-touch groups like
Planned Parenthood and the ACLU have decided th
down in Austin, maybe they can silence the judges who enforce the law in east Texas. You
see, the left is so used to the idea of having an activist judge that they believe any judge can
be bought, bullied, or beaten into submission or resignation.
Make no mistake; this lawsuit is a direct attack by far-left groups on the rule of law and the
right of pro-life communities to elect people who share their values. This is cancel culture at
its finest. But man, am I lucky to be from Smith County. The outpouring of support over this
attack on me, on my job, on all of us who share these values has been met by an
overwhelming show of support from people like Senator Hughes and the folks here at Living
Alternatives. But more than that, I am incredibly thankful for the wonderful, wonderful
support from average east Texans, who are not only proud to have a conservative judge who
is willing to answer the fight that these groups started, but who are thrilled to be standing by
me as we take on this challenge. With their support, I am one hundred percent committed to
seeing this frivolous lawsuit dismissed, the attempts to run Christians out of elected office
defeated, and the voice and the vote of pro-life Texans defended.
You see, when Planned Parenthood came for me, th
whole community of Texans who are unshakeable in our belief that there are certain and
immutable rights with which we are all endowed not by our government, but by our God.
Not by virtue of being out of the womb, but by virtue of having his spirit within us from the
moment of conception. And chief among these rights is the unalienable right to life. And
with the support of my community, I am here to today that I will not be scared by the vicious
attacks and implicit threats of radical organizations. I will not allow the voice and the vote of
any Texan to be silenced by the left, but I will stand for what is right. On this front of the
culture war, I will yield no further. And regardless of what some organization like Planned

App.249
1

Parenthood threatens me with. No matter what some leftist judge down in Austin may do to
me. As for me and my house, we will continue to serve the Lord. And I am thrilled to have
by my side in this fight my friend and my lawyer Shane McGuire, who has taken up this
cause and who is representing me at no cost to the Smith county taxpayer because he
believes in me, but more importantly, because he believes this fight is a fight worth having.
Shane McGuire
Thanks, Reeve. Good morning. My name is Shane McGuire. I just wanted to say a couple of
words about the lawsuit itself, he merit or lack thereof of the lawsuit, and why it is I think
that Reeve has been sued in this case.
groups. And I have to say this lawsuit is frivolous on its face. It is black letter law that you
cannot sue a sitting judge and just demand some advisory opinion, asking a court to ban
people from filing lawsuits in his court. This
lawsuit is allowed to go forward.
Now I want to say a word about why it is I think Judge Jackson has been sued in this case.
could have sued anybody. Reeve came into my
they picked you. They picked you because
would rather read his bible than read Rules for Radicals by
Saul Alinsky. They picked you because they
and a man of God. And they picked you because

sure ultimately the case against Judge Jackson is going to be dismissed if the rules of law are
followed. But I would ask you all to pray for him
team. Pray for all of us as we go forward in this case. And Senator Hughes, thank you for
done. Thank you all.
your leadership on the life issue. We apprecia
Senator Bryan Hughes
It is so good to be here with you. The work
helping those little babies come in life, alongside those moms, helping those moms in
difficult times. Thank you. Our crisis pregnancy centers, the best kept secret of the pro-life
movement in all the debate about the right to life. This work done by this place and places
like it around Texas and around the country. This is where the real work is being done.
encouraged. Where hearts are being changed,
and little lives are being saved. So what a blessing to be here. Not my first time here, and is it
great to be back here today.
northeast Texas in the Texas senate, and yes,
the heartbeat law, signed by Governor Abbott. Governor Abbott signed that bill and gave me
the pen he used to sign, and I will cherish that forever. That bill
detected. Every one of us
here has a heartbeat. I can tell from looking at you. That heartbeat, that universal sign of

App.250
2

are following the science. When there is a
heartbeat, there is a human life worthy of protection, and th
in Texas.
Now, it takes a different approach. You may have seen this many places in Texas. They are
not blessed with wonderful district attorneys like we have in Jacob Putman. We have a strong
constitutional concerted district attorney. Many DAs around the state and around the country
district attorneys sworn to enforce the law w
action by the district attorney, by the state, or
individuals who want to stand up for the right to life.
And so any Texan who is aware of an illegal abortion can bring an action against the doctor
committing the illegal abortion. Let me be clear. The mother is not affected by the heartbeat
law. This is about doctors performing illegal abortions. And any Texan has the right to bring
that suit, to right that wrong, to protect that innocent human life. Now the radical abortion
Jackson and every judge in the state of Texas.
lawsuit is radical. It clearly violates the
right thing. The court system will work as it
the day, we look forward to this lawsuit
being successful on the right side. This law
baby growing inside her mothe

womb ought to be the safest
innocent, the most helpless, and the most

deserving of protection a human will ever be. We
signed by Governor Abbott, and we look forward to its taking effect and being upheld by the
courts. Thank you for being here today. God bless you.
Unidentified
Alright, thank you all so much for being here. This concludes the press release. If anyone
wants to stay and offer any interviews for Reev
Thank you so much.

App.251
3

App.252

App.253

App.254

App.255

App.256

App.257

App.258

App.259

App.260

App.261

App.262

App.263

App.264

App.265

App.266

App.267

App.268

App.269

App.270

App.271

App.272

App.273

App.274

App.275

App.276

App.277

App.278

App.279

App.280

App.281

App.282

1
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
LUBBOCK DIVISION

1
2

5

PLANNED PARENTHOOD OF GREATER
TEXAS SURGICAL HEALTH SERVICES,
on behalf of itself, its staff,
physicians and patients, et al.,
PLAINTIFFS,

6

VS.

7

CITY OF LUBBOCK, TEXAS,
DEFENDANT.

3
4

8

)
)
)
)
)
)
)
)
)
)

CAUSE NO. 5:21-CV-114-H

9
10
11
12
13
14
15

----------------------------------------------------HEARING ON JURISDICTIONAL ISSUE
BEFORE THE HONORABLE JAMES WESLEY HENDRIX,
UNITED STATES DISTRICT JUDGE
FRIDAY, MAY 28, 2021
LUBBOCK, TEXAS
-----------------------------------------------------

16
17
18
19
20
21
22
23
24
25

FEDERAL OFFICIAL COURT REPORTER: MECHELLE DANIEL, 1205 TEXAS
AVENUE, LUBBOCK, TEXAS 79401, (806) 744-7667.
PROCEEDINGS RECORDED BY MECHANICAL STENOGRAPHY; TRANSCRIPT
PRODUCED BY COMPUTER-AIDED TRANSCRIPTION.

Mechelle Daniel, Federal Official Court Reporter
(806) 744-7667

App.283

47
1

defendants and the amici should have their opportunity to

2

present countervailing evidence to the extent needed.

3

will happen on June 1st if this Court were to issue a ruling

4

declaring the statute unconstitutional?

5

City of Lubbock mistakenly believe that they no longer can sue

6

Planned Parenthood, even though they clearly can, and even

7

though the Fifth Circuit has said in Okpalobi that they clearly

8

can?

9

What

Would everyone in the

Here's another problem with Mr. Lehn's argument,

10

beyond the empirical problems.

11

much.

12

Okpalobi has to come out the other way, because the plaintiffs

13

in Okpalobi could just have easily said that an opinion from

14

the Fifth Circuit or from the Louisiana District Court would

15

have deterred individuals from invoking their rights under the

16

private right of action created by statute.

17

Circuit had none of that in Okpalobi.

If his argument were to be accepted by this Court, then

18

THE COURT:

19

MR. MITCHELL:

20

THE COURT:

21

The argument simply proves too

And the Fifth

And as also present in LeBlanc as well.
I'm sorry?

That point would be equally valid in

LeBlanc.

22

MR. MITCHELL:
Right?

Yes, K.P. against LeBlanc, that's

23

true.

Because if this argument were to be accepted,

24

Okpalobi has to come out the other way, and so does

25

K.P. against LeBlanc.

Mechelle Daniel, Federal Official Court Reporter
(806) 744-7667

App.284

48
1

There's one other area of disagreement I'd like to

2

mention to the Court.

3

this Court were to dismiss for lack of standing, the statute

4

can't be challenged.

5

be challenged.

6

defensively, but it can also be challenged offensively.

7

Mr. Lehn said in his argument that if

That's not right.

The statute can still

First, the statute can be challenged

If Planned Parenthood were to be sued after

8

June 1st for violating the ordinance, they can immediately go

9

to federal court under 42 U.S.C. Section 1983 and sue the state

10

court judge in his official capacity under Ex Parte Young.

11

there is an exception to the Anti-Injunction Act for

12

Section 1983 claims.

13

And

I'm not saying that Planned Parenthood would

14

actually prevail in that lawsuit, because there's a very good

15

argument that the ordinance is perfectly constitutional because

16

there is an undue burden defense.

17

says that if you're sued and you can show that imposing

18

liability on you would impose an undue burden on abortion

19

patients, you can't be held liable, if you have third-party

20

standing to assert those rights.

21

for the federal court to resolve later, if there is a lawsuit

22

filed in state court and if Planned Parenthood chooses to

23

respond by bringing a Section 1983 action.

The ordinance specifically

But that would be a question

24

So this is not a situation where they are being

25

completely shut out from the possibility of preenforcement

Mechelle Daniel, Federal Official Court Reporter
(806) 744-7667

App.285

49
1

challenge.

2

now, because they have sued only the City of Lubbock, and the

3

people they need to be suing are the state court judges and the

4

private litigants who will enforce the private right of action.

5

They have sued the wrong defendant.

6

It's not that the lawsuit can never be brought; it's just that

7

the lawsuit can't be brought now.

8
9

They just can't bring the preenforcement challenge

The lawsuit is premature.

The final point of disagreement I have with
Mr. Lehn is that he suggested this is extraordinary, that a

10

litigant would be unable to come into federal court

11

preenforcement, before they have been sued, and challenge the

12

constitutionality of a statute.

13

It's not at all extraordinary.

The best analogy

14

right now are the wedding vendors throughout the United States

15

who are unable to participate in same-sex marriages on account

16

of their religious faith.

17

private lawsuits in any state or local jurisdiction that has an

18

anti-discrimination law that covers not only sexual

19

orientation, but also sex, in the wake of the Supreme Court's

20

decision in Bostock.

21

They are facing the threat of

There is nothing those wedding vendors can do, to

22

come into federal court preenforcement, to stop the private

23

lawsuits.

24

Parenthood finds itself in before this Court today.

25

They are in the same predicament that Planned

THE COURT:

And that--I mean, that was my question

Mechelle Daniel, Federal Official Court Reporter
(806) 744-7667

App.286

72
1
2
3
4
5
6
7
8

I, Mechelle Daniel, Federal Official Court Reporter in and
for the United States District Court for the Northern District
of Texas, do hereby certify pursuant to Section 753,
Title 28, United States Code, that the foregoing is a true and
correct transcript of the stenographically reported proceedings
held in the above-entitled matter and that the transcript page
format is in conformance with the regulations of the Judicial
Conference of the United States.
/s/ Mechelle Daniel

DATE

JUNE 1, 2021

MECHELLE DANIEL, CSR #3549
FEDERAL OFFICIAL COURT REPORTER

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

Mechelle Daniel, Federal Official Court Reporter
(806) 744-7667

App.287

App.288
Page 876

App.289
Page 877

App.290
Page 878

App.291
Page 879

App.292
Page 880

App.293
Page 881

App.294
Page 882

App.295
Page 883

App.296
Page 884

App.297
Page 885

App.298
Page 886

App.299
Page 887

App.300
Page 1227

App.301
Page 1228

App.302
Page 1229

App.303
Page 1230

App.304
Page 1231

App.305
Page 1232

App.306
Page 1233

App.307

App.308

App.309

App.310

App.311

App.312

App.313

App.314

App.315

App.316

Texas abortion clinics brace for
near shutdown as new law is
enacted: 'We have to comply'
Jeremy Blackman, Austin Bureau
Aug. 12, 2021

Updated: Aug. 14, 2021 3:54 p.m.

The National Abortion Federation has told doctors in Texas it will stop referring
patients and sending money to clinics that offer abortions after about six weeks of
pregnancy.
In North Texas, the Texas Equal Action Fund will likely “pause” its ride-share
program that helps women reach abortion appointments.
Dr. Bhavik Kumar, an abortion provider for Planned Parenthood, has cleared his
schedule to fit in as many patients as he can before the end of the month.
And online, the group Texas Right to Life has launched a website for whistleblowers
who want to potentially help sue Kumar and doctors just like him, beginning Sept. 1.
With only days left until the country’s first six-week abortion ban rolls out in Texas,
abortion clinics and their supporters are bracing for a virtual shutdown of legal access
to the procedure, at least for several weeks. Some clinics in the state are preparing not
only to abide by the new guidelines but to go beyond them, shuttering their abortion
offerings entirely.
“This law is senseless. It’s not in the best interest of the people of Texas,” Kumar
said. “But it is the law, and if it passes, we have to comply.”
What unfolds over the coming weeks could have broad ripple effects. Even a brief
pause in access in Texas, the second most populous state, could affect thousands of
pregnant women and encourage similar laws across much of the South and Midwest,
where abortion care is already limited.

1
App.317

“This is a new approach, and it’s going to open up new opportunities,” said John
Seago, legislative director for Texas Right to Life, which opposes abortion access.
“It’s a different battlefield than what we typically have with pro-life laws, and that’s
why we’re optimistic.”
Abortion providers are trying to delay the rollout in federal court but are not counting
on a win given the law’s largely untested enforcement tool. Unlike similar bans in
other states, which have all been blocked by judges, Senate Bill 8 allows ordinary
citizens to sue doctors and others who defy the ban.
That makes it tough to challenge preemptively, because providers don’t know whom
to sue.
Hundreds of Texas lawyers have come out against the law, warning it contradicts
provisions in the state constitution and would open the door to absurd outcomes
beyond abortion if allowed to stand. Even proponents of the law expect many of the
suits to be dismissed.
But providers and the people who help women access abortions in Texas say they
can’t afford the risk of potentially endless litigation, even if hardly any of it is deemed
credible. Under the law, defendants are unable to recoup legal expenses.
That’s why some are considering shutting down their abortion operations altogether,
at least until it is clear whether the law will withstand scrutiny in the courts.
“I have one physician who’s for sure willing to provide abortions and comply with SB
8,” said Amy Hagstrom Miller, the chief executive of Whole Woman’s Health. “But
the rest of my 16 physicians are still trying to figure out where their risks stop and
start, and if they’re willing to provide.”

Defying new law not a popular option
Most of the physicians at Whole Woman’s four clinics in Texas also work at
universities and in other states, flying in regularly to provide abortions. Hagstrom
Miller said she does not plan to shut down any of the sites, regardless of the law, and
will continue at least providing nonabortion pregnancy care, as well as counseling and
referrals to clinics in states where abortion access is more protected.

2
App.318

Dr. Lauren Thaxton, a Whole Woman’s provider and a researcher at the Texas Policy
Evaluation Project who is still weighing her options, said she assumes she will be
sued even if she tries to provide abortion care strictly within the parameters of the law.
“Whether or not a case is found to be reasonable, or a true violation of SB 8, there are
concerns about how that could affect someone’s other sources of employment,” she
said. “How that could affect their medical licensing. How that could affect the patients
that they see and their potential loss of privacy.”
Thaxton and others said they were unaware of anyone who is planning to openly defy
the law on Sept. 1, though that strategy has been discussed.
Planned Parenthood Gulf Coast, where Kumar works, will continue offering abortions
for women before the fetal heartbeat has been detected, as allowed under the law. But
most women don’t know they’re pregnant at that point, typically about six weeks into
the gestation period.
Spokeswomen at the nonprofit’s two other independent Texas affiliates, one based in
San Antonio and the other in Dallas, declined to describe their plans.
Kumar said “the vast majority” of Planned Parenthood patients will need to leave the
state for abortion care if the law proceeds, and that he is personally preparing to pitch
in at out-of-state clinics that accept Texas patients, to help with their influxes.
Providers performed about 54,000 abortions last year and 56,000 in 2019, according
to state data.
The chaos now forming may be the exact scenario that lawmakers were envisioning
when they passed Senate Bill 8 this spring. Republicans, who control all branches of
the Texas government, have tried for years to choke the industry out of existence,
imposing restriction after restriction, many of them later overturned in federal court.
Past disruptions, including last year when Gov. Greg Abbott prohibited most
abortions at the beginning of the COVID-19 pandemic, have especially impacted lowincome women and women of color, many of whom lack private insurance or the
resources or time to travel out of state, according to groups that support abortion
access.

3
App.319

‘They think they can go to jail’
This upheaval could drag on longer, and it’s not clear that providers would be able to
outright block the law even if they prove that it infringed on their federally protected
right to abortion. Josh Blackman, a constitutional law professor at South Texas
College of Law Houston, said the decisions in each suit will apply only to that case.
“This is a law designed to prevent Planned Parenthood from going on offense,” he
said. “It keeps them on defense.”
In response, abortion providers and their support networks in Texas are scrambling to
expand the out-of-state pipelines they pieced together last year and that many have
feared will be needed if the conservative-led U.S. Supreme Court rolls back federal
abortion protections. This fall, the justices are set to hear their first major abortion
case in years.
At abortion clinics, employees are being retrained on what information they will be
able to legally give patients on Sept. 1. Those who choose to comply with the law will
have to update their websites and promotional materials.
Earlier this month, the National Abortion Federation, a coalition of abortion providers,
notified clinics in Texas that it would be pulling support from clinics that defy the ban
but would fund up to the full cost of patients seeking abortions within the new
guidelines. Chief executive Katherine Hancock Ragsdale said in an interview that the
organization is creating a special “concierge team” to assist women in Texas.
Small abortion funds that operate solely in Texas are also rethinking their approach
and have been inundated with questions internally.
“No one knows what’s happening. Even our volunteers, they think they can go to jail
when that’s not what this is,” said Kamyon Conner, who heads the Texas Equal
Access Fund.
Despite the rhetoric, abortion opponents and others are not convinced that providers
will comply with the law. Many of their supporters have been working for months to
recruit women and employees at abortion clinics who would be willing to help sue.
Successful claimants can win at least $10,000 in damages.

4
App.320

“There’s a lot of people who are interested in this fight from different angles,” said
Seago, of Texas Right to Life. “And you’re going to see a lot of these people getting
involved, now that they have the tools to do it.”
jeremy.blackman@chron.com

5
App.321

CERTIFICATE OF SERVICE
I, Marc Hearron, a member of the bar of this Court, certify that on this 30th
day of August, 2021, I caused all parties requiring service in this matter to be served
with a copy of the foregoing by email and overnight delivery to the individuals listed
below:
BETH KLUSMANN, ASSISTANT SOLICITOR GENERAL
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700

Attorney for Judge Austin Reeve Jackson,
Stephen Brint Carlton, Katherine A.
Thomas, Cecile Erwin Young, Allison
Vordenbaumen Benz, and Ken Paxton
HEATHER GEBELIN HACKER
Hacker Stephens LLP
108 Wild Basin Road South, Suite 250
Austin, Texas 78746
Tel.: (512) 399-3022

Attorney for Penny Clarkston
JONATHAN F. MITCHELL
Mitchell Law PLLC
111 Congress Avenue, Suite 400
Austin, Texas 78701
Tel.: (512) 686-3940

Attorney for Mark Lee Dickson
/s/ Marc Hearron
MARC HEARRON

Counsel of Record

